<html>
<title> - NATIONAL FIRE PLAN</title>
<body><pre>[Senate Hearing 107-834]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-834

                           NATIONAL FIRE PLAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

         TO RECEIVE TESTIMONY ON THE ADMINISTRATION'S PLANS TO 
     REQUEST ADDITIONAL FUNDS FOR WILDLAND FIREFIGHTING AND FOREST 
RESTORATION AS WELL AS ONGOING IMPLEMENTATION OF THE NATIONAL FIRE PLAN

                               __________

                             JULY 16, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                -------
84-597              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                    Kira Finkler, Democratic Counsel
                Frank Gladics, Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Burns, Hon. Conrad, U.S. Senator from Montana....................     4
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........    16
Cantwell, Hon. Maria, U.S. Senator from Washington...............     4
Covington, Dr. W. Wallace, Director, the Ecological Restoration 
  Institute, Northern Arizona University.........................    59
Craig, Hon. Larry E., U.S. Senator from Idaho....................     7
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............    15
Dorn, Nancy, Deputy Director, Office of Management and Budget....    23
Johnson, Hon. Tim, U.S. Senator from South Dakota................     9
Jungwirth, Lynn, Director, Watershed Center, Hayfork, CA.........    54
Kyl, Hon. Jon, U.S. Senator from Arizona.........................    11
Martz, Hon. Judy, Governor, State of Montana.....................    17
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    13
Rey, Mark, Under Secretary of Agriculture for Natural Resources 
  and Environment, Department of Agriculture; accompanied by Tim 
  Hartzell, Director of the Office of Wildland Fire Coordination, 
  Department of the Interior; and Denny Truesdale, Assistant 
  Coordinator, National Fire Plan, U.S. Forest Service...........    28
Schulke, Todd, Forest Policy Director, Center for Biological 
  Diversity......................................................    66
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2
Wyden, Hon. Ron, U.S. Senator from Oregon........................     3

 
                           NATIONAL FIRE PLAN

                              ----------                              


                         TUESDAY, JULY 16, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. This hearing gives us a chance to hear from 
various officials in the Government as well as others--Governor 
Martz is here first--on this very important issue of the need 
for additional funds to pay for emergency firefighting and for 
forest restoration costs in the West.
    Senator Kyl and I, along with nine other Senators, on June 
25, wrote a letter to the Office of Management and Budget 
urging that they immediately request emergency funds to pay for 
firefighting and burned area restoration. We have not received 
any reply, but I am glad we will have the chance to ask the 
Deputy Director of OMB today about this.
    I think the facts are clear. We have a terrible fire 
season, probably the worst in history in the West, given the 
drought conditions. We all should have expected this, and many 
of us did expect at least some part of it. 3.2 million acres 
have burned this year, primarily in the Southwest. And we have 
not even reached the height of the fire season in the northern 
part of the country.
    The Forest Service and the Department of the Interior have 
exhausted their available funds to pay for firefighting and 
millions of dollars are needed now.
    Some contend that the sort of business-as-usual practice of 
borrowing from other agency funds to pay for this firefighting 
activity is adequate to the occasion. I strongly disagree with 
that.
    First, while officials here in Washington assure us that no 
programs are negatively impacted when we engage in this 
borrowing practice, the communities in my State and some other 
States that have been in touch with us report that grants and 
contracts that were ready to be awarded are now being put on 
hold in order to pay for firefighting.
    This even includes grants and contracts for proactive 
restoration projects to reduce future fire risks. One example 
is in my home State. Funds to begin work on the Santa Fe 
municipal watershed project are now being held up in order to 
pay for firefighting. The purpose of the project is to reduce 
the fuels to prevent a catastrophic wild fire that could harm 
the watershed. This is the source for 40 percent of Santa Fe's 
water.
    Earlier this year, the agency allocated $400,000 toward the 
project. More recently, the Forest Service agreed to add an 
additional $400,000. I was very glad to get that news, but 
unfortunately now we are told that the funds have been pulled 
back in order to pay for firefighting.
    If reimbursement does not arrive until the end of October, 
it will be too late to complete any of this work this fiscal 
year.
    Obviously, postponing, in some cases indefinitely, needed 
forest restoration projects directly contradicts the National 
Fire Plan's long-term approach. That approach is that in order 
to decrease the number of catastrophic wildland fires, we need 
to restore the national forest and public lands through 
hazardous fuels reduction, burned area restoration and 
rehabilitation.
    Also the Forest Service appears to have a fairly poor track 
record with regard to repaying these accounts once the funds 
are taken out of them. Last year, for example, the Forest 
Service borrowed millions of dollars from its Hazardous Fuels 
Reduction Account to pay for emergency firefighting, but then 
did not fully return the funds to that account after being 
reimbursed by the Congress.
    During the committee's last hearing on the National Fire 
Plan approximately 2 months ago, when I asked the Forest 
Service witness about this example, he replied that the 
situation does bring up concerns in the long term but they had 
to pay for firefighting costs.
    Obviously, the supplemental appropriation bill that is now 
still being debated in conference provides the most expedient 
manner in which to obtain these firefighting funds. However, as 
far as I can tell, there is no request from the administration 
to include any funds in that bill for this purpose.
    As I indicated before, this is a problem that I think we 
have been dealing with now for a couple of years. For the last 
two budget cycles, the administration's budget request to us 
has not contained the funds that were required for the National 
Fire Plan. And I see the current reluctance or unwillingness of 
the administration to move ahead and request these additional 
funds as a major problem as well.
    Recently, the Western Governors Association sent a letter 
to Congress urging full funding of the National Fire Plan at 
the fiscal year 2000 funding levels. I am very pleased today 
that we have the Governor of Montana, Judy Martz, here to speak 
on behalf of the Western Governors. She will be able to give us 
additional insights on these issues from the perspective of the 
governors.
    I want to thank all of the witnesses for being here.
    And before I call on the witnesses, I will see if any of my 
colleagues have statements they want to make.
    Senator Thomas, did you have a statement?

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Just very briefly: 
I am pleased that you are having this committee meeting. I 
think it is important that we talk about this issue. Obviously, 
all of us are very much impacted with respect to it. It is a 
real tough thing on money.
    The 2000 season was one of the most challenging ones. Since 
that time, we spent $6.6 billion on fire-related programs. 
Total suppression costs for this year, I am told, is close to 
$1 billion, at $966 million. So we do have some real questions 
as to where that money comes from.
    And, of course, mingled with that is also what we do 
particularly from the Department, what we do about suppression 
and protection and the roadless areas and what we can do about 
thinning and avoiding. At the same time, obviously, the fires 
themselves are the prime issue right now.
    So I hope we can get a real look at what the Department's 
plan is with regard to funding and then with regard to the 
future in seeking to avoid as much as we can of this fire.
    Thank you, sir.
    The Chairman. Thank you.
    Senator Wyden chairs the subcommittee that oversees these 
forest issues. Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman and colleagues, it is late July, and I am 
fearful that without quick and concrete action, that the one 
thing environmental community and the Bush administration can 
agree on, I believe, will happen: A big swath of the West is 
going to be an inferno come August.
    I would like to lay out briefly what I think the three key 
elements of this kind of effort ought to be. First is: Money is 
needed immediately for projects on the ground, in the forests 
that are going to make our forests more fire resistant. I 
believe that this can be accomplished again in a bipartisan way 
that is consistent with the environmental laws.
    Second, we obviously need new money immediately for 
firefighters and equipment. But what is important here is it 
cannot be taken from the backs of rural communities who rely on 
the Forest Service for key projects like fire prevention, weed 
treatment, and other priorities in the rural West.
    Finally, the money has to be targeted where those are most 
at risk. This has not been done in the past, and in my view 
here, we ought to focus on, for example, areas where homeowners 
and the woods intersect, and those forests and grassy areas 
where fires have struck again and again.
    There are other longer-term approaches that I think we 
ought to be considering. I am going to ask some questions 
today, Mr. Chairman and colleagues, about ways in which we can 
mobilize homeowners to take some new steps to put in place fire 
retardant materials. That is something we can look at further 
down the road.
    But what is really important is that we can get the 
environmental community and the Bush administration together 
behind quick and concrete steps, or else we are going to face, 
in my view, enormous problems throughout the West. I see a lot 
of our colleagues here in the West, and I know we can tackle 
these issues in a bipartisan way. I thank you.
    The Chairman. Thank you.
    Senator Burns, did you have a comment?

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Mr. Chairman, thank you for this hearing.
    You know, we were throwing around some figures. Now, the 
Forest Service, the new figure is that we are going to need 
about $1.7 billion now. And we could set about--we could talk 
about the cause of this thing, these fires in the West. But 
keep in mind: They are all, or most of them are burning in 
areas where the Forest Service is in charge, where either by 
some way or other, we cannot thin, we cannot manage the forest.
    You see private forests out there. You know, they are not 
in the same shape. And it was pointed out to me the other day, 
where they allow grazing, a little old thing called grazing, 
the grazers will pay for the land. Sheep will take out the 
underbrush and the old dead grass. And that is where they 
start, folks.
    In other words, we have seen where fires burnt right up to 
the land where they allowed grazing and forest management, and 
it stops right there. Now, one of these days, America has got 
to know and understand just exactly what is at stake here.
    There is not much we can do after the fire starts. But we 
should be aiming our effort toward next year, right now in a 
preventative way, and to change some of these policies that is 
just good common sense, and get out of this, get out of this 
thing of promoting ideas that are not worth much. Either that 
or we have got to buy somebody a fiddle while this place--and 
just watch it burn.
    So it is going to take money. And I appreciate my Governor 
being here from the State of Montana, who went through a 
terrible fire season in 2000; and we are on track to make 2000 
look small.
    Thank you very much.
    The Chairman. Thank you very much.
    Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
having this hearing. I would just like to say that obviously we 
in Washington State understand the threats that have been posed 
by these fires.
    Last year, we suffered through a record breaking drought. 
It was actually our worst drought on record since 1977. And 
that obviously contributed to a devastating fire season. So we 
do watch with great empathy as those States of Colorado and 
Arizona are dealing with the same kind of challenges.
    But we are also concerned with the ongoing readiness and 
fiscal health of the Federal Firefighting Agencies. In the 
words of the National Interagency Fire Center, the worst of the 
Western fire season is yet to come, and already the number of 
acres burned has nearly tripled the 10-year average.
    About 80 percent of the West's large fires generally occur 
in July and August. And we are fast experiencing the very high 
extreme conditions in the very eastern parts of my State.
    So, Mr. Chairman, like my colleagues on this committee, I 
am obviously concerned about the news that the record-breaking 
fires in Arizona and Colorado are leading to significant cost 
overruns within the Forest Service and Federal Department of 
the Interior for fiscal year 2003, and that these agencies have 
to borrow money then from other programs in order to protect 
these various communities throughout our Nation.
    I am particularly concerned that funding that would 
otherwise go to fuel reduction and fire prevention are now 
being used then to put out the fires. And so I want to make 
sure that we focus our attention on, ``How do we get these 
programs funded,'' so that we can actually reduce the hazardous 
fuel and not spend billions of more dollars on simply fighting 
the fires year after year.
    I will look forward to hearing the testimony of our various 
witnesses today.
    The Chairman. Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, for holding today's 
hearing on the National Fire Plan.
    In the ongoing battle against wild fire, continuing this 
dialogue remains, I believe, is one of the most important tasks 
of this committee, and we must not forget that there are 
presently over 17,000 brave men and women on the ground putting 
their lives on the line to defend society's values against the 
increasingly destructive forces of mismanaged forests.
    Mr. Chairman, today I come to this committee and to this 
hearing acknowledging that my State of Oregon now rejoins a 
solemn fraternity of States harrowed by the destruction of wild 
fire. And after an acceleration of fires over the weekend, 
100,000 acres of Oregon are now burning. And my State is now 
the site of mass evacuations, Red Cross shelters, property and 
wildlife loss and billows of smoke towering 15,000 feet into 
the air.
    There is nothing fundamentally wrong with the National Fire 
Plan or the administration's good faith attempt to implement it 
within a very rigid fiscal and regulatory framework. The 
immediate issue is clearly one of how to meet the safety and 
suppression needs of this year's fire season, which has made a 
stark turn for the worse.
    I intend to work with all of my colleagues as Senator Wyden 
has suggested, and the full Senate, and to do it in a 
bipartisan way, if we can, however possible. In the long run, 
however, if we are worried about the cost of incremental 
destruction to our Federal forest, the only relevant issue is 
determining what forest management actions can be best, or can 
best reduce fire risks.
    We can and must debate the catastrophic blazes currently 
underway, as well as return the forest to less intense and more 
manageable fires that will cost far less to suppress or 
contain. As such, I am hopeful that none of today's witnesses 
will claim that the solution of the wild fire problem lies in 
better proofing homes or selective thinning, only in urban 
wildland interface.
    I am afraid this theory is quickly being dispelled on the 
ground. The Eyerly fire in Central Oregon, for example, started 
as a 212-acre fire. High winds blew it across the Metolius 
River and into a roadless area. It was so unroaded, in fact, 
that firefighters had to be boated into the area.
    It was here that the fire picked up enough force to explode 
to 17,000 acres within a few days, causing the evacuation of 
hundreds of homes and the ultimate destruction of many of them.
    The erratic path of this fire, which continues as we speak, 
has little to do with whether or not residents in the area 
mowed their lawns or pruned their hedges. Catastrophic wild 
fires like this do not begin and they cannot be stopped in 
people's backyards.
    They are too hot, too fast, too unstoppable, and not 
because folks are living too close to the forest, but because 
these fires build up their uncontrollable forces in mismanaged 
back country areas and charge like runaway trains into our 
communities.
    In Oregon and across the West, there are many instances of 
fire beginning, being fueled in, or firefighter access being 
blocked by areas where management is severely restricted, such 
as a roadless or wilderness area.
    As the sponsor of legislation to create the fourth largest 
wilderness area in Oregon, I know that wilderness areas have a 
unique value in Oregon's landscape. But the value of wilderness 
or any other protective designation is meaningful only in the 
context of a whole forest that is meeting its multiple use 
management requirements, providing for wildlife, for recreation 
and for local economies.
    This year's fires remind us how thin the line can be 
between this protection of forest resources and their 
vulnerability to devastating fire and disease.
    Lastly, I want to mention that the wild fire issue does not 
end when the current wild fires are reduced to smolders. These 
fires will leave hundreds of thousands of acres of salvageable 
wood. The simple choice would be between letting this--the 
timber stand and rot, or being carefully salvaged as part of a 
restoration effort.
    Yet, this year's examples of the Bitterroot salvage in 
Montana and the Hash Rock salvage in Oregon demonstrate that 
Federal agencies do not have that flexibility.
    In the absence of sound and peer reviewed science, the 
agencies remain hostage to the protest power and bureaucratic 
tricks of extremists. It is high time that Congress looks at 
new approaches that ensure targeted and reasonable salvage 
value of high risk trees remain a viable tool for our forest 
managers.
    Mr. Chairman, thank you, again, for holding today's 
hearing. I hope that the spirit of this discussion can be 
carried over to parallel issues such as salvage and biomass 
removal where innovation and flexibility will undoubtedly yield 
manifest improvements in forest health, if only given a chance.
    The Chairman. Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you for your tolerance 
in allowing us to make these statements. I think you hear the 
passion and the frustration that we are expressing when we see 
prime wildlife habitat forest go up in smoke, opportunity lost, 
and communities devastated.
    I am pleased that Governor Martz is with us today from my 
neighboring State of Montana. I know her message will be clear 
and sound as it relates to land management.
    I want to begin with a short description of what we have 
seen so far this year. And my colleague to my left, but very 
seldom to my left, Senator Kyl is going to probably bring more 
life to that photo than any of us would want to think about, 
Mr. Chairman.
    I flew across Louisiana, or out of Louisiana, across Texas 
and up over New Mexico at the height of that fire. And at 
35,000 feet, the pilot commented that we were in smoke from the 
time we left northern Texas until the time we touched down in 
the State of Colorado. And he is a seasoned pilot for Delta 
Airlines, had never flown in that kind of a circumstance 
before.
    It is Arizona burning, New Mexico, soon southern 
California, and Colorado is already burning. As I crossed the 
Tetons Friday into Idaho and I looked south down the Tetons, I 
was right over the top of the Grand, I saw a large plume coming 
up off the border of Wyoming and Utah as a large complex fire 
built in that area.
    Record temperatures have been recorded and are being 
recorded across the West. Fifty locations have recorded 
temperatures as of last Wednesday, seventy on Thursday, ninety-
four on Friday, all of these temperatures at or at record 
highs.
    Eight towns, including my Capitol City of Boise, 
experienced an all-time high this past week. What was once 
ready to burn in the Southwest, has the indicators as now 
moving north up the Rockies and across the Bitterroots, as our 
forests become prime targets of mother nature's wrath.
    As of yesterday, 3.4 million acres have burned. Now, that 
is double the 10-year average some of our colleagues have 
spoken to it.
    The horrible pace of the 2000 fire season at 8.4 million, 
and that is the year that Montana burned and Idaho lost nearly 
1 million acres, but we did not lose homes that year. Ours was 
mostly just in the wilderness, just in prime habitat, just in 
beautiful watershed. And because no homes went up, not much was 
made of the nearly 1 million acres that was lost in Idaho.
    The number of fires that had been burning in the dead and 
downed timber and the bug-killed timber is striking. Even more 
depressing is the number of fires burning in the roadless and 
the wilderness areas. It is those same roadless areas that we 
could be fighting over on the Senate floor in just a few days. 
My staff has identified at least ten fires that have burned 
into or out of roadless areas this year.
    Some of you will say it is no big deal if these roadless 
areas burn. I ask each of you to remind yourselves what the 
Clinton administration wanted to protect these areas from; this 
was from the destruction of logging and road building. It was 
for the over--or it was from the overuse of the public.
    Now, ask yourselves how many decades will it take for these 
areas to begin functioning once again as a part of the 
ecosystem, as prime wildlife habitat, as something that is a 
producer and a contributor to the watersheds of the upper 
reaches of our great rivers, to provide cool and clear water to 
the downstream needs. Somehow all of it just seems damned 
wrongheaded. And, yet, we go on talking about it as if it were 
an academic pursuit.
    Then I want you to think about the number of times we have 
seen the massive winds-driven ground fires drop to the ground 
and amble along even in a windstorm where man was allowed to 
manage and thin and do some cleaning. And when it comes to a 
shade break, some of those fires stopped altogether.
    Yes, we ought to think about that just a little bit. We 
ought to think about thinning. We ought to think about 
preserving that land for wildlife and watershed habitat, and, 
yes, oh, how terribly would I suggest that maybe an occasional 
tree ought to have some commercial value in the thinning 
process.
    It is depressing to think that the entire management scheme 
we have allowed to develop over the decade could go so wrong in 
such a short time. But, Mr. Chairman, it has not been a short 
time. In the early eighties, some of the best scientists in the 
world gathered in Sun Valley, Idaho at a conference to examine 
the health of the Great Basin forests of the West. And in the 
early eighties, they concluded then that if we did not 
participate in some degree of active management, they said at 
that time in that study that the dead and dying forests of the 
West within a decade or so would be consumed or would have the 
potential of being consumed in massive wild fires.
    Many have been tempted to point fingers and blame each 
other for this debacle. Songs have been written and are now 
being sung about those who appeal and litigate almost every 
project designed to be mechanically thinned on our public 
forests.
    The nattering nabobs of negativism will spend their time 
saying there really is nothing we can do about the situation, 
that it is nature taking her course, and we should get out of 
the way. Well, we do not have the time or the luxury today, Mr. 
Chairman, to spend hours worrying about who caused this forest 
management failure; nor do we have time to argue about which 
organization is to blame. This season ought to be teaching us 
that we have to use all of our forest management tools, not 
just prescribed burning, to go ahead to solve the problem.
    I urge the administration to immediately release its 
cohesive and comprehensive fire plan, fire management plan. I 
also expect OMB and this administration to come forward with a 
fresh approach to funding these problems.
    We ought not be struggling over how to fund putting out a 
fire at this moment, while they are burning wildly across the 
West. We no longer have the luxury of submitting funding 
requests that do not reflect our fire suppression needs or 
playing the emergency supplemental game.
    I challenge the Forest Service, the BLM and the OMB to 
develop a plan that gets us out of this annual exercise of 
emergency supplemental funding at the expense of other resource 
programs.
    I also expect this committee or I would hope we could 
expect this committee to develop a public land policy that will 
move us toward the time when low intensity fires are a normal 
event within our forests as they should be, and as they were 
100 years ago.
    This will protect our forests, our wilderness areas, and 
those zones of minimal management and keep them safe from the 
risk of catastrophic or cataclysmic fires. We owe this to the 
forest, to the American public and to future generations, and 
to the creepy crawlers and the sweet little things that inhabit 
the shade of our beautiful forests.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    We have three Senators who have not yet spoken. I would 
urge that they give us the short version of their opening 
statements, if possible.
    Senator Johnson.

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. I will give a very abbreviated version, 
and submit my full statement for the record, Mr. Chairman. I 
want to commend you for calling today's timely hearing to 
examine the implementation of the National Fire Plan, receive 
testimony about the Bush administration's plans to request 
additional wildland suppression and forest restoration funding.
    Reports that the Forest Service has exhausted all available 
fiscal 2002 fire suppression funds and is now borrowing from 
non wildland suppression accounts causes me great concern. I 
welcome Undersecretary Mark Rey here who just recently visited 
our State of South Dakota at a time when we had a significant 
fire in the Grizzly Gulch area of the Northern Black Hills.
    On June 25, I joined several of my colleagues in this 
community of writing to the administration, inquiring how the 
administration intends to replenish the wildland suppression 
account. I am very concerned that we will see a halt to a menu 
of non-forest firefighting programs in order to pay for 
firefighting costs, which could delay crucial forest 
rehabilitation work, jeopardize the timber sale program and 
defer funds for the purchase of important inholdings.
    As Mr. Rey observed, no doubt our Black Hills forest is 
surrounded by a great deal of human interface. Some of the 
strategies that may work in other areas would not work there, 
and it is going to be critically important that, as we still 
have a significant fire season ahead of us, that our Forest 
Service have the resources clearly for firefighting, but also 
that it not come out of the hide unduly of other needed forest 
work.
    These problems have been with us literally for decades. I 
know Mr. Rey has done scholarly work on fires of a century ago. 
The fire in South Dakota initiated on private land, and was 
largely on private land and BLM land.
    It did eventually get into Forest Service land. Much of the 
land that burned was, in fact, thinned. But we all know in the 
long run that we need to get fuel off the floor of our forests 
in order to at least reduce the likelihood of fires or reduce 
the likelihood that they become explosive and non-controllable.
    I look forward to the testimony today and insights that the 
administration might share with us about how we can work 
together to protect life, property and preserve the health of 
our national forests.
    Thank you.
    [The prepared statement of Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota

    Thank you, Chairman Bingaman, for calling today's timely hearing to 
examine the implementation of the National Fire Plan and to receive 
testimony about the Administration's plans to request additional 
wildland suppression and forest restoration funding. The foremost 
concern I have is ensuring that the U.S. Forest Service and other 
agencies have the necessary capability to protect the lives and 
property of those who work and live throughout the western United 
States. Therefore, reports that the Forest Service has exhausted all 
available Fiscal Year 2002 fire suppression funds, and is now borrowing 
from non-wildland suppression accounts leads me to question the focus 
of the Administration's firefighting strategy. I am eager to learn from 
Undersecretary Mark Rey and officials from the Office of Management and 
Budget what the Administration plans to propose to carry out the Forest 
Services public safety responsibilities.
    On June 25, 2002, I joined several of my colleagues on this 
committee in writing to the Bush Administration inquiring how the 
Administration intends to replenish the Forest Service's wildland 
suppression account. We also requested the Forest Service not revert to 
the practice of borrowing money from other agency accounts to pay for 
firefighting. The answer to our request was made clear last week by a 
Forest Service directive to Regional Foresters ordering a halt to a 
menu of non-forest firefighting programs in order to pay for 
firefighting costs. This is unfortunate and will lead to long-term 
negative consequences.
    In South Dakota, where a large fire recently forced the evacuation 
of two Black Hill communities, the Administration's decision to swap 
accounts will delay crucial forest rehabilitation work, jeopardize the 
timber sale program, and defer funds for the purchase of important 
inholdings.
    Let me explain a real-life example of how a lack of additional 
emergency forest firefighting funding will negatively impact South 
Dakota and heighten fire risk: As Undersecretary Mark Rey fully 
appreciates--Mr. Rey recently toured the Black Hills--the Black Hills 
National Forest (BHNF) is surrounded by a patch-work of hundreds of 
thousands of privately-owned acres. Under the leadership of the Forest 
Supervisor, the BHNF has developed a plan to purchase private 
inholdings from willing sellers to incorporate into the National Forest 
system. The acquisition of these tracts would add valuable land to the 
BHNF and prevent future development that would make forest management 
and firefighting efforts more difficult. Firefighting is particularly 
challenging in the Black Hills due to the concentration of private 
inholdings, many of which are undergoing new home construction in the 
forest. Early this month, a forest fire that started on private land 
burned 11,000 acres forcing the evacuation of the towns of Lead and 
Deadwood, South Dakota. In fact, the majority of burned land was 
privately owned, destroying seven residences, forcing the evacuation of 
15,000 tourists, but thankfully causing no deaths or injuries. Ongoing 
efforts to purchase inholdings will be brought to a standstill if the 
Bush Administration does not request additional firefighting funds. The 
directive from Forest Service is clear, ordering Forest Supervisors to 
``not obligate funds for execution of any land acquisition or forest 
legacy projects.'' The practice of robing Peter to pay Paul will result 
in National Forests prone to fire and weaken efforts to safeguard the 
public.
    Forest fires are natural disasters that demand leadership not 
bureaucratic accounting gimmicks. I again ask the Bush Administration 
to support additional emergency funds for wildland firefighting and 
forest restoration.
    Mr. Chairman, I appreciate your leadership on this issue and I look 
forward to working in a bipartisan manner to secure additional wildland 
suppression funding.

    The Chairman. Senator Kyl.

            STATEMENT OF HON. JON KYL, U.S. SENATOR 
                          FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. I commend you for 
holding this hearing. It is both timely and important.
    I have or I find myself in, I think, total agreement with 
everything that has been said on both sides of the dais here, 
which should tell our friends from the administration something 
about our bipartisan commitment to trying to resolve these 
problems and work with the administration.
    I especially appreciate the comments that Senator Smith 
made, which totally--and as well as Senator Craig, which very 
much reflect my feelings about this.
    I appreciate Secretary Rey being here today. I know he has 
been working very hard with all of us to try to get this job 
done, and Governor Martz.
    I also will want to give a little fuller introduction to or 
acknowledge the presence of an Arizonan here, who is going to 
be testifying on a subsequent panel, but Dr. Wally Covington of 
Northern Arizona University is one of the pioneers in the 
management technique that has gained, I think, virtual 
acceptance among all people in the scientific community about 
how to treat our forests. And I am very much looking forward to 
hearing from him about how we should be treating our forests in 
the future to both prevent the kind of fires that have occurred 
here and, at a minimum, to ameliorate their effect.
    To the specific issue of trying to get some funding to 
replenish the Forest Service as well as BIA and BLM funding 
accounts, Mr. Chairman, I am looking forward to the testimony 
of the OMB. And I am very much a conservative budget hawk, as 
the Director of OMB knows, but we can also be ``penny wise and 
pound foolish'' in the way that we deal with these accounts.
    As the Senator from South Dakota said a moment ago, we are 
going to have to--we are already borrowing from other accounts. 
And there is always a cost to borrowing, and if we can, we 
should not have to pay that cost.
    That cost will be both losses of some programs. After all, 
if we agree that we had a good budget for the year 2002, and we 
are now not going to be able to spend some of the money in that 
budget on the important things that we had established as 
priority programs, clearly we will be the losers; and the users 
of our public lands will be the losers.
    But that cost also could be directly related to the needs 
to restore our forests. We could get into a situation, for 
example, where money that is borrowed is not available for 
developing new projects, which can reduce fuels, where 
personnel cutbacks would result in fewer personnel being 
available to do the work to get these new projects up.
    We should not be waiting until some time after October 1st 
to get these new projects up. We should be doing them now. And 
I have heard the comment that, ``Well, we do not have enough 
personnel, because we are busy fighting the fires.''
    That is where this robbing Peter to pay Paul that Senator 
Johnson was talking about hurts us. We need to be able to do 
both, because prevention will save a lot of money and if we 
just decide that we do not have the time or the energy or the 
money right now or personnel to do the prevention work, the 
fuels management work because we are too busy fighting the 
fires, we are always going to be behind.
    We need to get ahead of this curve and not constantly be 
trying to catch up. So even though we may not have dipped into 
some of these accounts yet, it is inevitable. And if we do not 
restore the funding now, it is not going to be available in the 
August and September time frame when it is going to be needed.
    Finally, Mr. Chairman, I am going to be very interested in 
following up on something Senator Smith said, and that is to 
ensure that in this year's appropriations bills we do not tie 
the hands of the Forest Service and prevent them from 
exercising flexibility within their fire plan account.
    Right now, we mandate that 70 percent of the funding be for 
urban interface, and I think while all of us want to protect 
homes, that is almost a defeatist strategy, because clearly we 
are interested in the health of the entire forest. And what it 
is saying is that we just are not willing to set the priority 
to develop a healthy forest. All we have the money for is to 
try to create a fire break around our suburbs and our cabins. 
That is not enough.
    Not only does that not deal with the huge amount of acreage 
in the interior of our forests that needs to be brought back to 
a healthy condition, but it is even not effective.
    The forest that you see on this photograph here--I do not 
know the elevation or the altitude that was taken from--but 
that fire, on the Fort Apache Indian Reservation, went beyond 
the boundaries of the reservation and ended up burning an area 
about three-fourths the size of the State of Rhode Island. This 
year alone in Arizona we have burnt forests the size of the 
State of Rhode Island. And that one fire was three-fourths that 
size.
    It burned so hot, because a lot of the area had not been 
treated and because of the dry conditions, that it literally 
created the kind of mushroom cloud that you saw following the 
detonation of atomic bombs, where the crown or the super 
heating of the crowns explodes the crowns into fire, and the 
flames are 300 feet high in the air.
    It sucks more and more oxygen into this heat, this 
superheated plume that goes up in the air until it finally hits 
about 20,000 feet and then ices over and eventually collapses, 
then pushing down this column of cinders and ash and red hot 
material, often 2 or 3 miles in every direction, jumping any 
kind of 100-foot buffer that has been built around a home or a 
suburb.
    So we cannot just focus on urban interfaces, is my point. 
But if we are interested in the health of the forest, instead 
of just fire prevention, we would not ignore the rest of the 
forest in any event. So I am very interested in hearing the 
testimony of all of our witnesses.
    Again, I very much appreciate the support that my 
colleagues have shown with respect to the devastation that has 
occurred in Arizona. We had one community where 30,000 people 
had to be evacuated for about a 2-week period. And that is the 
seriousness of what we are facing here.
    Thank you again, Mr. Chairman, for holding this hearing.
    And, again, thank you to my colleagues for the support that 
they have shown to us.
    The Chairman. Senator Murkowski.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much.
    Let me also welcome the Governor of the State of Montana. A 
couple of years ago, I went out with Senator Burns, and you had 
some disastrous fires at that time, and we were kind of 
reliving what went wrong and why the Forest Service could not 
react and why the fire chiefs on the scene could not make 
decisions.
    And at that time, we came away with an awful lot of 
enthusiasm: We were going to turn things around. We were going 
to give the people on the scene the authority.
    I recall in one particular instance, it was a question of 
whether they could move a Cat, a Caterpillar tractor across a 
creek to fight the fire on the other side what ultimately went 
into Ted Turner's property. And he would not allow any 
mechanized equipment. And I mean it just turned into a 
bureaucratic nightmare, where there was no accountability. And 
we swore that we would come back and change it.
    Well, we did not. We are still here with a situation of no 
accountability. We are still here with the environmental 
community filing suits against progressive actions to try and 
bring corrections.
    I am told by the GAO report on appeals and legislation that 
there were considerable arguments made, as well as the Forest 
Service response that 48 percent of the National Fire Plan, 
mechanical harvesting projects, were appealed. So there you go; 
half of them were appealed.
    Well, we can fight over whether or not to count the 
prescribed burns when assessing appeals, but the bottom line 
is: We will not get ahead of this forest health crisis unless 
we utilize some harvesting to reduce the fuels before we burn 
those stands.
    Now, let me show you something else, because there is an 
immediate association here that we have got a problem with 
fire. In my State we have a problem with infestations, spruce 
bark beetle infestation.
    If you look at that particular chart, it shows the Kenai 
Peninsula, mortality 1989 to 2000. There are roughly 800,000 
acres in the red of spruce, white spruce that have been 
infested with spruce bark beetle. Now, most of that is on 
Federal land. There is 130,000 acres on Fish, U.S. Fish and 
Wildlife land as well.
    The point is: There is the same constriction.
    Put the other chart down please, because I think it shows a 
little better.
    The reality, you have got, you know, across from Anchorage 
and you have got Seward down to the left, but most of it is in 
the Kenai Soldotna area down onto Homer in the Homer spit.
    And it simply shows an inability of the agencies to manage, 
if you will, what suggests good forest health practices, which 
is: You remove it as soon as you detect it. You do not allow it 
to simply let nature take its course, which has occurred here.
    It has been a lack of decision making by those who have the 
greatest degree of knowledge on what constitutes forest health. 
You do not do it by going to a town hall meeting and making a 
decision there. You can talk about it, but you go to the 
experts, the people who have spent their lifetime and developed 
their reputation in areas of knowledge of what to do about it.
    To further complicate this particular situation in the 
Kenai is what happens to the timber when it is standing dead; 
why, the likelihood of a fire is extraordinary and it is very 
likely that it will occur. And the homes and residences and so 
forth that would be wiped out obviously suggests that we have 
got a constriction, an inability of the agencies to react on 
the basis of what is good for the forest health based on the 
appeal process and some of the environmentalists.
    Now, I am going to conclude with what is so obvious that 
one has to ask why it is not done. And that conclusion is based 
on the reality of what happens in private force, vis-a-vis 
public force.
    I am going to read a little article that appeared in The 
Washington Times, July 15, Mike Branch, and just one paragraph.
    ``The reason our land,'' meaning private land, ``does not 
burn like public land is we actually manage the forest.''
    It sounds rather simple, does it not?
    ``We manage them like they are an investment, because they 
are an investment. Not just an investment of dollars but of 
blood, sweat and tears. Not just for us, but for the countless 
species who live in the forest, for those that have homes, for 
those communities who depend on forests for clean drinking 
water, clean air, recreational opportunities. These are the 
very values that have gone up in smoke,'' on public lands.
    Well, if we are open enough to recognize the intensity of 
management associated with private force, why cannot we, for 
heaven's sake, supply the same strategy on public lands, manage 
the land? You manage the land by giving the responsibility to 
those that have the expertise. Now, I will conclude with a 
little shot at our environmental friends, because I think it is 
a fair assessment.
    ``Environmental activists have worked long and hard and 
successfully to marginalize industry in the debate on the 
forest. They do not want industry or commercial activity 
involved in finding a solution to the forest health crisis 
because, let us face it, they just do not like commercial 
activities. But like us or not, our forests don't burn, not 
like public forests do. Is it because we are better at fighting 
fires? Is it because our trees are inflammable? Is it that 
lightning never strikes our land? Are we just really, really 
lucky? It is, of course, none of those.''
    To me, it is a very simple argument, a simple presentation: 
You have got to manage public forests. So I would encourage 
this committee to step up to its responsibility and recognize 
that if we cannot prevail in a balanced process, we are going 
to have to prevail through legislation that simply overrides, 
if you will, the appeal process, because our responsibility is 
the health of public lands. And all we have to do is follow a 
little more closely the prerequisites set by the private land 
holders and the manner in which they successfully manage the 
forest.
    Thank you.
    The Chairman. Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Well, Mr. Chairman and Senators, I want 
to try very, very hard to be brief, because we have heard from 
everyone and I just happened in on you, having gone to a 
previous hearing which I could not miss.
    And let me just say, I do not believe, Mr. Chairman, that 
there is a more opportune time to conduct a hearing and to come 
up with at least the beginnings of an action plan than at this 
time as we close out this year. And it might not be--that we 
might not have sufficient time.
    But there is no question that some committee of this 
Congress, hopefully this one, is going to have to review the 
entire forest ownership of America and decide as a matter of 
policy how they will be--how that forest will be managed.
    We will have to answer the questions in policy language 
that deals with the issues that are in each one of our minds 
and just rocking around in our heads, such things as ``Is it 
wrong to go in and cut down trees that have been burned and are 
now beginning to be infested?''
    I think you just have to answer it as a matter of policy. I 
do not think we can leave it up to the environmentalists and 
the courts to fight it out case by case, area by area around 
this country.
    Some forests, when it comes to cleaning them up, they look 
just like the forest when I was 10 years old. And whoever the 
outsiders are that fight about that, they think that is the 
right way, so they look pretty good and they do not have huge 
over-cover of wood waiting to burn down.
    Ten miles away, there is another group of environmentalists 
who have a different version, that to just enter upon that land 
and just think about cutting a tree down is to put forest 
cutting--tree cutting back into that forest, and they prevail. 
And there sit either dried trees for the next 5 years to dry 
and rot, or they permit all kinds of growth around it so we 
invite it to grow, because that theory is it is good that they 
burn.
    From this Senator's standpoint, I am really getting tired 
of putting in so much extra money every year. I will continue 
to do it because I do not think we ought to let our forests 
burn. But within the last 2 years, we have appropriated--you 
have helped me on one. We put $750 million in on the floor.
    It has been divided up here and there. And we cannot even 
find where it has done any good. We are asking people to come 
and tell us ``What did you do with that?'' We nickname it. You 
remember? We called it something about the sun, did we not? 
Does anybody remember? So the sun could see?
    Oh, ``Happy Forest,'' we called it. Because the sun could 
come down, if these were cleaned up and it could see the entire 
tree instead of the sun being completely eliminated from the 
scene, from the earth and from the bottom trees.
    You may have had some--I do not even know if you can find 
the money, where you were going to go into partnership with 
local groups in these poor areas and have the young people have 
summer jobs cleaning them up. I think we get nowhere.
    And then this year--I see the administration's people here. 
I sure hope they can tell us some answers. By one 
interpretation we have run out of money, because we borrowed it 
from other departments--other parts of the department.
    And they are going to begin to need their money, and we do 
not have enough to pay the accruing firefighters bills. I mean, 
that is just the wrong thing for the United States to do when 
we are passing bills of $500 billion for--excuse me--$315 
billion for our military. And we cannot find $500 million or 
$600 million more to fix up these forests.
    Frankly, I hope we will try something beyond just this 
hearing. I am ready to support something that is really strong 
in terms of telling the people of this country how those 
forests are going to be managed, and they cannot all win in 
their lawsuits and have it managed their way. It is just not 
possible.
    Thank you very much.
    Senator Craig. Mr. Chairman, the shortest speech. Unanimous 
consent that Senator Ben Campbell's statement be a part of the 
record.
    The Chairman. We will include that in the record.
    [The prepared statement of Senator Campbell follows:]

   Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator 
                             From Colorado

    Thank you for calling this important hearing, Mr. Chairman. The 
real threat our communities face out West from wildfires has not 
diminished, even though the media here in Washington might have the 
country believing otherwise.
    My state of Colorado alone has recorded 1,165 fires since April. 
These fires have burned at least 368,005 acres and cost $125 million to 
suppress. Although this year's number of reported fires is not 
extraordinary, the amount of acreage burned is five times the average. 
This unprecedented loss of land reflects the condition of our forests. 
In fact, 73 million acres or an area larger than the entire state of 
Arizona, are at risk of catastrophic wildfire.
    Several factors contribute to this risk--some of which humans have 
some control over, and in other areas we have none. The latter category 
includes the weather--the West is experiencing one of its worst 
recorded droughts in history. Dryer conditions create a tinderbox 
effect beyond our control.
    However, forest management and health belong to the category of 
conditions that we can do something about. Decades of fire suppression 
activities have resulted in unnaturally dense forests--where nature 
would have 50 trees per acre, we have tree stands of 200, 500, even 800 
trees per acre.
    This unnatural fuel load buildup only dramatically compounds the 
tinderbox effect due to the drought conditions. The science is clear 
concerning hazardous fuel buildup--unnaturally dense forests result in 
hotter, larger, and faster burning wildfires. Recognizing the facts, 
the Forest Service and several of us in Congress have worked to provide 
for forest management through a combination of treatments including 
thinning and prescribed burns.
    Unfortunately, whenever thinning is mentioned, several groups that 
claim to act in the interest of the environment actively work to oppose 
proposed actions. Rather than work to reduce the threat posed by 
wildfires these groups have instituted an obstruction-through-
litigation strategy. In fact, forty percent of the Forest Service's 
work, about $250 million each year is spent on analysis to insulate 
itself from the likely flurry of lawsuits from various environmental 
groups.
    For the first time in years, environmental organizations are 
actually having to explain themselves to their contributors. Our 
sophisticated public is no longer blindly following along, but are 
asking tough questions, putting some groups on the defensive. For 
example, I would like to refer to a Denver Post column from July 7, 
2002 that discusses recent changes to the Sierra Club's website.
    Before Colorado's worst fires ever, that organization's website had 
a series of true and false questions about wildfires. Included are 
questions like: Forest fires pose a major threat to homes and 
communities. The Sierra Club's answer: False. Or how about the 
statement: Fires are devastating to fish and wildlife habitat. The 
Sierra Club's answer. False again. Or perhaps most interesting is the 
Sierra Club's assertion that salvage logging after forest fires does 
not speed habitat recovery. The article goes on to detail how the 
Sierra Club quickly changed its website to highlight how the government 
should only minimize wildfire threats around homes.
    Several environmental groups argue that they don't obstruct 
decisions to thin the forest. Yet, the Forest Service's recent paper 
shows that nearly fifty percent of such decisions were appealed and 
several were actually litigated.
    Although environmental groups might agree that our nation faces a 
forest health crisis, they oppose thinning. In many instances, they 
oppose thinning because they fear the erosion of the Roadless Rule--the 
Holy Grail of arbitrary land rules praised by environmentalists.
    If some environmental groups were as concerned about the 
environment as they are with legitimizing their own existence through 
litigation, much of the beautiful land and animals in the San Juan and 
Pike-San Isabel National Forests might still be with us.
    Environmental groups' focus on fuels treatment only around homes is 
simplistic and unrealistic. First of all, large fires actually spot 
fires up to a mile in every direction. That was certainly the case in 
the Hayman fire in Colorado.
    Second, focusing only on the wildland urban interface ignores the 
tremendous potential damage to watersheds--many of which are in 
Roadless Areas.
    Coloradans know all too well that the damage to watersheds after a 
fire can be nearly as devastating as the fire itself. For example, in 
1996 the 12,000 acre Buffalo Creek fire destroyed the watershed. For 
weeks, Denver residents had brown water coming out of their faucets. 
The damage from that 12,000 acre burn cost nearly $20 million to fix.
    Back in January of this year, the Forest Service proposed to treat 
5,200 acres to prevent a similar catastrophe to Denver's water supply. 
The proposed South Platte Project would have allowed for timber removal 
permitted under Roadless Rule exception to restore habitat and reduce 
fire risk. The proposed project was immediately appealed, and 
subsequently destroyed in the Hayman fire. Environmentalists should 
have been more concerned with saving the forest than saving their 
Roadless Rule.
    The threat wildfire poses to water cannot be understated. Colorado 
has recently experienced flash flooding from relatively mild rains. The 
unnaturally hot burning fires baked the soil into concrete repelling 
water and leading to tremendous erosion. On one hand, Coloradans are 
happy to get some rain, but on the other, are nervous that the much 
needed water will actually damage water quality.
    The seasonal monsoon rains, like the drought, are beyond our 
control. It is about time we move beyond some the partisan posturing 
and arbitrary rules and work to improve the forest health situation 
where we can.
    The Forest Service needs more money, so several of us are 
interested in seeing how that can be accomplished.
    Fuel loads in our forests have reached a critical stage. My 
colleagues and I are working to make sure that gets taken care of. This 
Senator from Colorado will not allow some groups to interfere with 
responsible forest management.
    I look forward to the witnesses testimony and look forward to 
asking a few questions.
    Thank you.

    The Chairman. Why do we not go right ahead with you, 
Governor Martz? We apologize for having delayed you so long. 
Our usual practice is to not have opening statements, but I 
detoured from that today and you are the victim of that 
decision.
    So go right ahead, please.

            STATEMENT OF HON. JUDY MARTZ, GOVERNOR, 
                        STATE OF MONTANA

    Governor Martz. Thank you, Mr. Chairman and members of the 
committee. And I cannot say how pleased I am to hear the 
statements that you have given, because I could not--I would 
disagree with not a one of them. You have seen them and you 
have dealt with them for years.
    My name is Judy Martz. I am the Governor of the great State 
of Montana. And I am the newly elected chair of the Western 
Governors Association. And I am appearing today on its behalf.
    Senator Murkowski said we must change. And I really think 
the forests are yelling, ``Pay me now or pay me later.''
    WGA, for your information, is an independent non-partisan 
organization of governors from 18 Western States and three U.S. 
flag islands in the Pacific. We appreciate the invitation to 
appear before this committee.
    Senator Burns mentioned the $1.7 billion that we are about 
to look at for this season. And, Senator Smith, I submit, that 
those costs, our costs to these forests are more if we do 
nothing. We must create a healthier environment for our 
forests.
    Let me begin by stating that wild fire--or wildland fire 
and the ecosystem restoration issues are of extreme importance 
to the Western Governors, and these issues will be my number 
one priority as chair of the Western Governors Association. 
Congressional deliberation on wildland fire appropriations for 
fiscal year 2003 and additional funding for this year are of 
critical urgency to this committee and to the Western 
Governors.
    Senator Craig said we know this is a big deal, and we truly 
do, each one of us here's States are probably to some extent on 
fire right now. As you know, the 2002 fire season is likely to 
be one of the most devastating and costly in recent decades. 
And it has yet to reach its peace--or its peak. Basically the 
real fire season in our States has not even begun. Our fire 
season is August and September.
    Resources must be available to fight fires this summer 
without disrupting vital, productive work after the fire season 
has concluded. That work, such as thinning and ecosystem 
restoration will help to diminish the devastation of future 
forest fires.
    Western Governors are therefore strongly supportive of 
emergency supplemental funding currently being considered by 
the Congress for Forest Service and Department of the Interior 
wildland fire management. In part, the need of these resources 
is demonstrated by a July 8, 2002 memorandum from Forest 
Service Chief Dale Bosworth. That memo calls on Regional 
Foresters to defer certain obligations and projects because of 
the difficulty of the Forest Service and what they are having 
in paying for fire suppression costs. Without emergency funds, 
we will continue to rob Peter to pay Paul, that we have heard 
about all afternoon, while perpetuating the mistakes of the 
last century.
    Once these resources are made available by Congress, we 
urge the administration to move ahead rapidly, as many of our 
forests and rangelands are in dire need of action. Without 
diminishing environmental protection, we also need efficient 
and effective processes to get the job done.
    Unnecessary delay, once consensus has been reached on 
projects to meet our goals, will cost us dearly in terms of 
dollars, resources and the possibility of taking lives.
    I would submit to you, for the record, on April--an April 
2002 letter,* it is with your--the remarks that I have given to 
you, from WGA to the leadership of both the Senate and the 
House Appropriations Committees. Western Governors seek 
continued substantial funding in fiscal year 2003 for wildland 
fire management issues. In particular, we urge the Congress to 
restore funding for community assistance.
---------------------------------------------------------------------------
    * Retained in committee files.
---------------------------------------------------------------------------
    These resources are critical to our rural communities in 
their efforts to protect homes, businesses and watersheds. We 
also seek resources to restore forest ecosystem health, and to 
rehabilitate burned and unburned areas, so they re-vegetate and 
regenerate in a way that reduces the risk posed by future 
fires.
    Finally, the State Fire Assistance program that provides 
technical and financial assistance to States and local 
governments to enhance firefighting capabilities must also be 
fully funded.
    I would like to submit for the record and have a June 20 
WGA letter to the Appropriations leadership.* It sets forth 
long-term funding projections, developed by the National 
Association of State Foresters, to implement the 10-year 
strategy that Governors developed with the administration and 
other diverse partners. The plans are already out there. I am 
sure that State Foresters could provide further information on 
these figures if you should request that.
    We hope these projections will assist Congress and the 
administration to ensure that Federal revenues are available 
over the long term to diminish the risks posed by wildland fire 
to communities and the environment.
    These revenues must be consistent with these projections 
and allocated across all parts of the 10-year strategy, so that 
proactive forest health efforts may be undertaken. Western 
Governors urge the Congress to increase funding for all 
components of the National Fire Plan consistent with these 
projections.
    Western Governors believe that over time, with continued 
substantial up-front investment, we can significantly reduce 
the damage caused by wild fire. We can protect lives and we can 
protect property and we can improve the health of our lands. It 
has taken more than 100 years to reach the current situation of 
extreme fuel loads on our Federal lands, on our tribal lands, 
State and private lands. And it will take a multi-year 
investment of time, money and on-the-ground to work to address 
it.
    Mr. Chairman and members of this committee, I am pleased to 
report that there is a national strategic plan in place to make 
effective use of the resources that provided--that are provided 
to address wildland fire, hazardous fuels and the need for 
habitat restoration.
    It has been transmitted to the Congress, and its 
implementation has already begun. I commend it to your 
attention if you are not already familiar with it. At the 
urging of the Western Governors and others, the Congress 
requested the development of a long-term collaborative and 
locally driven strategy in the Conference Report for the Fiscal 
Year 2001 Interior and Related Agencies Appropriations Act, 
Public Law 106-291.
    ``A Collaborative Approach for Reducing Wildland Fire Risks 
to Communities and the Environment,'' and its implementation 
plan have been developed and recently endorsed by the WGA; and 
the Secretaries of Agriculture and the Interior; the Southern 
Governors' Association; the Intertribal Timber Council; the 
National Association of Counties; and the National Association 
of State Foresters. The strategy was developed in a 
collaborative manner by those endorsees, as well as a range of 
stakeholder representatives.
    The stakeholders represent the spectrum of natural 
resources interests from environmental groups to industry. 
Their contributions to and their support for the strategy speak 
volumes about its value, and to the process by which it was 
developed. I note and I thank the efforts of Governors Kizhaber 
of Oregon and Kempthorne of Idaho for leading WGA's efforts for 
this strategy.
    The strategy was designed to implement the National Fire 
Plan in a comprehensive and collaborative manner with a 
contribution of resources from all levels of government, the 
private sector, the communities and the volunteers. It seeks to 
accomplish four goals across Federal, State, tribal and private 
lands: One, to improve fire prevention and suppression; two, to 
reduce hazardous fuels; three, to restore fire-adapted 
ecosystems; and, four, to promote community assistance.
    The strategy sets forth a number of guiding principles to 
achieve these goals, including collaboration, priority setting 
and accountability. It establishes a collaborative results-
based framework for achieving its goals with performance 
measures, and takes to track progress--takes to task tracking 
progress over time.
    States, tribes and local governments are full partners in 
its implementation. These partners strongly believe that the 
locally driven collaborative approach set forth in the Strategy 
will lead us to success in tackling the immense task we face.
    We believe that a full partnership between the States and 
the Federal Government and substantial budget funding to 
implement the locally driven collaborative Strategy are 
necessary to tackle the threat and consequences of severe wild 
fire to communities and to the ecosystem.
    Over the long term, restoration and thinning to protect 
homes, watersheds and habitat is much less expensive than 
fighting fires and addressing their aftermath. And we urge the 
Congress to support the proactive approach in this Strategy.
    We appreciate, truly appreciate the recognition by the 
Congress of the need for State leadership and for the resources 
you have provided so far. We need your continued support if we 
are to ensure the sustainability of our invaluable natural 
resources and the communities in their midst. We absolutely 
need to fund not only firefighting but the 10-year plan.
    This concludes my testimony on behalf of the Western 
Governors Association. I thank you for your consideration and 
your time. And I would be happy to answer any questions you may 
have.
    The Chairman. Governor, thank you very much. We do have 
your 10-year comprehensive strategy. I think it is an excellent 
framework for how we need to proceed.
    And I know you have the need to get on an airplane at some 
fairly early time here, so I will hold off on questions, but 
see if any of my colleagues have questions they would like to 
ask at this time.
    Let me go to Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I just have one, and Governor, I thank you. I think the 
position that the Western Governors have staked out is a 
balanced one and--
    Governor Martz. Thank you.
    Senator Wyden [continuing]. And I appreciate it. And I have 
only one question for you.
    I think everyone who looks at this issue understands that 
this is a multi-year exercise. It is not going to be done 
immediately. At the same time, you heard me say that folks in 
the West are hurting now. And, come August, I really do think a 
big chunk of the West is going to be an inferno.
    What would the Western Governors Association like the 
Congress to do immediately other than the emergency 
supplemental that we think makes sense? Tell us, if you would, 
what you would like to have done immediately, because it is 
going to be my position--and we will talk about it with Mr. Rey 
in a minute--that what we have got to do is we have got to get 
the environment community and the Bush administration trying to 
find that common ground on steps that are immediate as well as 
multi-year.
    I think it would be helpful to have on the record what WGA 
wants immediately.
    Governor Martz. What we really do need to do--and thank you 
for the question. I believe what we really need to do--the 
supplemental will help, yes, but we have to start that plan. We 
have to start the fire plan, the forest health on the ground so 
that when we do have fires, the sooner we start that, not 
waiting until next year, but the sooner we start that, we will 
have preventative measures.
    I think as this goes along, we are going to see--we in 
Montana have timber mills that have gone out of business. We 
have loggers that can no longer log. These are the very people 
that we need to have to be able to do forest health. The longer 
we wait to get that started, the fewer of those people we will 
have, doctors of the forest.
    Yes, we all need to work together in a bipartisan manner to 
bring together whomever, whether it is the administration and 
the environmental community. There has got to be a balance 
somewhere in here. So we will look for that balance, but we 
need to get to work on the forests already.
    The Chairman. Thank you. Are there other questions of 
Governor Martz?
    Senator Craig.
    Senator Craig. Governor, thank you for your testimony and 
thank you for reminding us that there is a strategy out there 
that ought to be looked at and ought to be implemented. The 
Secretaries of Agriculture and Interior were in Idaho to sign 
off on that plan some months ago at the request of the 
Governors as you had mentioned to talk about the very potential 
of what is now occurring in many of our Western States.
    Governor, after the fires of 2000, the State of Montana 
began salvage operations almost immediately, before the smoke 
had even cleared, in some instances. As you tour your State 
lands and the Federal lands in your State now, could you 
describe the relative condition of the State land versus the 
Federal lands that you visit?
    Governor Martz. Well, the State lands are picture perfect 
on how we have cleaned up. We have produced money for our 
schools. Almost $5 million, we have produced. We have done a 
picture perfect cleanup. We have taken care of the watersheds. 
We have re-vegetated. We have taken out much of the burnt 
timber and left enough for the ecosystem.
    And then on the other side, almost to the other side of the 
road, you go to the Federal lands where we were able to harvest 
14,000 acres out of 300,000 acres because of appeals last year.
    If this were in--I do know in Idaho, Dirk Kempthorne--
Senator Kempthorne--Governor Kempthorne now, has said that in 
their fires of 2000 left to rot, because they could not harvest 
the burnt timber, is enough timber to build 100,000 homes. 
Something is wrong with that picture. It is a mess.
    And in Montana, and in every State that has these 
horrendous fires, we need to have something done with the 
process. I know I am here to talk about funding for where we 
need to go from here, but I think you cannot take that out of 
the picture.
    Senator Craig. Yes.
    Governor Martz. The Federal land, Senator Craig, is not 
taken care of at all in comparison, when I go out and look at 
the two differences.
    Senator Craig. The intensity of the fires of 2000, Mr. 
Chairman, are similar to those of today. In those conditions 
that were not treated in the State of Montana following those 
events, what kind of activity occurred on the land? And I am 
referencing erosion and therefore water quality in some of 
those pristine trout streams that Montana is so proud of.
    Governor Martz. We truly brag about our water and our 
fisheries and blue ribbon streams all over the place, and we 
invite you all to come fish. But at the areas that we have had 
the fires, the watershed has not been protected, so we have 
results of the fires going down into the stream beds on the 
Federal lands.
    On State lands, we have revegetated and taken care of that. 
It is an obvious difference in the caring level. And it is not 
because the foresters do not want to do it. They have been 
stopped by every environmental appeal that you could possibly 
imagine and almost coming out and sitting right there, so that 
even when there is a sale--there was a sale on 14,000 acres out 
of 300,000 acres, and even that was a sitting strike, getting 
that 14,000 acres cleaned out.
    So there is a vast difference. You can see it. It does 
affect our fisheries. And it is unhealthy.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    Senator Murkowski. I have one question.
    The Chairman. Senator Murkowski has a question.
    Senator Murkowski. Governor, you articulate quite clearly 
the difference between private management and Federal 
management, mismanagement I should say, as a consequence of the 
previous administration's inability to come up and address 
responsibly corrective activity.
    I think former Chief Dombeck was substantially misled in 
his own interpretation of what forest health is all about, but 
I will leave that for other witnesses.
    My question specifically is to you: As the chief executive 
of your State, you see it, clearly your constituents see this 
comparison. What, in your explanation, is the inability of the 
environmental critics to see the similar manner in which 
private forests are managed vis-a-vis the public forests, which 
are left to their natural state? Can you help us understand a 
little bit that mentality?
    Governor Martz. Senator, I really believe it is the 
processes, the two processes. We have a process called the 
Montana Environmental Policy Act. It gives us time lines in 
which we can do things and they move quite quickly, but yet 
they pass all the environmental time frames and laws that need 
to be passed to be able to get these sales out. Now, on Federal 
lands, they move more slowly.
    Senator Craig. Yes. But why cannot the other side see the 
truth path, if you will, towards appropriate management?
    Governor Martz. I think it is because they can get away 
with it. I do not know whether that--you understand that. Plain 
and simple, they can do it. And they are doing it. And it is 
about time we find some balance, Senator. And we cannot do that 
alone.
    We on the State's--we changed our Montana Environmental 
Policy Act last session and it was probably the best thing we 
did to try to be able to move the process along. I do believe 
on the Federal level, the policy has to be changed.
    It will be very difficult, but I think one of the biggest 
issues facing this country right now is forest health and the 
economy of our health of the forests. It can be the biggest 
single issue economically for all of us if we do not take care 
of it.
    Senator Murkowski. I thank you.
    The Chairman. Governor, thank you very, very much for your 
testimony. We appreciate it, and we will continue to hope for 
input from the Western Governors Association.
    Governor Martz. Thank you.
    The Chairman. Let me call our next panel. This is a panel 
consisting of Mark Rey, who is the Under Secretary of 
Agriculture for Natural Resources and Environment with the 
Department of Agriculture; and Nancy Dorn, who is the Deputy 
Director of the Office of Management and Budget.
    [Pause.]
    The Chairman. As is our usual practice, we will include 
your entire statements in the record. It would be helpful if 
you summarize the main points, and then we will have some 
questions.
    Which of you would like to start? Ms. Dorn, you seem to be 
volunteering here.

           STATEMENT OF NANCY DORN, DEPUTY DIRECTOR, 
                OFFICE OF MANAGEMENT AND BUDGET

    Ms. Dorn. Thank you. Thank you, Mr. Chairman. I am pleased 
to be here this afternoon to discuss the funding needs for the 
2002 wild fire season. I will make it short and leave as much 
time for questions as you all would like.
    As you know, the 2002 fire season got off to an early start 
with some very large, very prominent fires in Colorado and the 
Southwest. Fires have burned over 3.3 million acres so far this 
year, and several large fires have threatened sizeable 
communities.
    The administration has done everything possible to fight 
the catastrophic fires in both Colorado and Arizona. In 
addition, the President has declared effected areas in those 
States to be disaster areas in order to provide disaster 
assistance.
    However, we have gotten many fires under control and--as of 
late, and as conditions have changed, fires have been less 
intense, particularly in the Southwest. As of yesterday, 
313,000 acres were burning from active fires, as compared with 
nearly 1 million acres just 2 weeks ago. We have a challenge, 
of course, in planning and budgeting for wildland fire seasons, 
as the nature of fires are rather unpredictable. One of the 
factors in this, and it does play into the cost, is the 
proximity of fires to communities.
    This year three large urban interface fires in Colorado and 
Arizona have accounted for over $110 million in suppression 
costs, or nearly one-quarter of total suppression costs so far 
this year.
    Geographic variability is another one of the variables. The 
fire season begins early in the Southeast, in about February. 
Fires tend to start in late spring in the Southwest, where we 
have seen much of the activity so far this year, and taper off 
by mid-July with the onset of rains.
    In contrast, the fire activity in the Great Basin, Pacific 
Northwest, Northern Rockies and California is generally 
greatest in July and August. We generally consider the end of 
the fire season to be sometime around the middle of September.
    The combination of these factors make any estimate of fire 
suppression costs highly speculative. The Forest Service's 
projections of suppression costs have been changing 
significantly from month to month. Actual daily fire 
expenditures have also varied radically from $18 million a day 
on July 1 to less than $3 million a day just 12 days later on 
July 13.
    As of now, it is by no means certain that the 2002 fire 
costs for the or in the rest of the West will follow the same 
pattern as the fire costs in the Southwest and Colorado. We 
also cannot assume that we will see the same level of threats 
to large urban interface communities throughout the duration of 
the season, although we are prepared to deal with those.
    While we do not want to jump to conclusions on ultimate 
fire suppression needs for this year, we recognize the 
seriousness of the situation and understand that a trend of 
this sort would not be unrealistic. Current drought conditions, 
weather patterns and the build up of hazardous fuels in many 
western States certainly have made this a possibility.
    The administration has taken the position, and we say it 
strongly and as often as we can, that no fires will go un-
fought this season. Due to the unpredictable nature of fires, 
both the Department of the Interior and USDA have had for some 
time the authority to transfer funds from other accounts to 
fund fire suppression.
    Based on this, the administration has developed contingency 
plans for funding a record year of fire suppression spending 
should that become necessary. Both agencies expect to have 
significant funds available in 2002 from which to draw upon for 
fire suppression.
    The use of this transfer authority is a practice which has 
been used in 3 of the last 5 years and will be carried out in a 
manner to minimize programmatic impact. In many cases, these 
are funds that would not be spent for the remainder of 2002 
anyway. In many programs, there is a substantial lag time 
between when projects or work is planned and budgeted and when 
the work is actually carried out and funds obligated.
    For example, the Forest Service transferred over $200 
million in unobligated balances in various programs for 
wildland fire suppression last year and still ended the year 
with an unobligated balance of over $1.2 billion. The $200 
million in transferred funding was subsequently repaid and no 
programs were significantly affected.
    With only 2\1/2\ months remaining in the current fiscal 
year, the Forest Service and the Department of the Interior 
have only recently begun to transfer funds for fire suppression 
from other accounts. In fact, the last--the first transfer of 
funds actually took place last Friday, $200 million.
    OMB will continue to work closely with both agencies to 
ensure that resources are available in a timely manner. The 
administration has been and will continue to monitor this 
situation closely and we will ensure that resources are 
available whenever they are needed.
    Due to the uncertainty about fire suppression expenditures, 
the Forest Service is taking prudent steps to ensure that the 
funds are available, should they be needed. Such precautions 
are simply good business practices, as we get a better idea of 
what actual fire suppression costs will be and we can identify 
what funds are likely to be unobligated anyway.
    Once we have a better idea of the ultimate cost of this 
year's fire suppression effort, we will work with Congress to 
replenish transferred funds within the context of the fiscal 
year 2003 appropriations bills.
    Let me just say that the administration has requested an 
additional amount of fire suppression and firefighting funds 
for this year. For fiscal year 2002, Congress had already or 
has already provided $400 million in contingent emergency 
wildland fire management funding, of which $200 million was 
appropriately earmarked to reimburse transfers made during the 
fiscal year 2001 fire season.
    If Congress had fully funded the President's request for 
fire suppression and devoted the remainder of the contingent 
emergency funding solely to fire suppression, we currently 
would be in a better position to handle this fire season. In 
fact, we would have on-hand an additional $200 million in fire 
suppression funding and would need to transfer less from other 
accounts.
    In the 2003 appropriations process, the President's base 
funding request for fire suppression has been reduced by about 
70 percent. The Senate has provided $400 million in contingent 
emergency fire suppression funding.
    While this avoids budget allocations, it is not the most 
predictable form of budgeting. The ultimate level of fire 
expenditures is unpredictable. But the need for a significant 
base level of fire suppression funding at least to address the 
10-year average is known and does not meet the definition of an 
emergency.
    In summary, the administration is doing everything possible 
to address this year's severe fires and has a plan to fund 
those costs. We will continue to work with Congress to ensure 
that these funds are available when needed, and we look forward 
to working with the committee and with the agencies that are 
affected. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Ms. Dorn follows:]

          Prepared Statement of Nancy Dorn, Deputy Director, 
                    Office of Management and Budget

    Mr. Chairman, I am pleased to be here this afternoon to discuss 
funding needs for the 2002 wildfire season. I will make a short 
statement, and then I would be pleased to answer any questions that you 
might have.

                    THE 2002 FIRE SEASON AT A GLANCE

    The 2002 fire season got off to an early start with some very large 
fires in Colorado and the Southwest. All told, fires have burned over 
3.3 million acres so far this year, and several large fires have 
threatened sizable communities. This has been an active, early fire 
season. The Administration has done everything possible to fight the 
catastrophic fires in both Colorado and Arizona. In addition, the 
President declared affected areas in those states to be disaster areas 
in order to provide disaster assistance to those whose homes have been 
destroyed by the fires.
    However, we have gotten many fires under control as of late, and as 
conditions have changed, fires have been less intense, particularly in 
the Southwest. As of yesterday, 313,000 acres were burning from active 
fires, compared with nearly 1 million acres just 2 weeks ago. By 
comparison, the 2000 fire season started off with the devastating Cerro 
Grande fire and turned out to be one of the worst fire seasons in 50 
years. But the number of fires and acres burned and consequently 
suppression costs were heavily concentrated in later months and in 
different geographic regions.

               THE UNPREDICTABLE NATURE OF WILDLAND FIRES

    One of the challenges in planning and budgeting for a wildland fire 
season is the unpredictable nature of fires. The number, size, 
severity, location, and duration of fires is heavily influenced by 
myriad weather-related factors such as heat, humidity, drought, dry 
lightning, and winds. All of these factors ultimately affect the cost 
of fighting fires.
    The proximity of fires to communities also significantly impacts 
suppression costs. This year, three large urban-interface fires--the 
Hayman and Missionary Ridge complexes in Colorado and the Rodeo-
Chediski complex in Arizona--have accounted for over $110 million in 
suppression costs, or nearly one quarter of total suppression costs so 
far this year.
    Geographic variability is another of the variables that come into 
play. The fire season begins in February in the Southeast. Fires tend 
to start in late spring in the Southwest--where we have seen much of 
the activity so far this year--and taper off by mid-July with the onset 
of the monsoon rains. In contrast, fire activity in the Great Basin, 
Pacific Northwest, Northern Rockies and California generally is 
greatest in July and August.

                   ESTIMATING FIRE SUPPRESSION COSTS

    The combination of these factors makes any estimate of fire 
suppression costs highly speculative. This helps explain why the Forest 
Service's projections of suppression costs have been changing 
significantly from month to month. Actual daily fire expenditures have 
also varied radically--they spiked to almost $18 million/day on July 
1st and have since declined to less than $3 million/day on July 13th.
    The fact that fire costs have been considerably higher than normal 
so far this year does not mean that they will necessarily remain so for 
the remainder of the fire season. While plausible, it is by no means 
certain that 2002 fire costs in the rest of the western states will 
follow the same pattern as fire costs in the Southwest and Colorado. 
Similarly, we cannot assume that we will see the same level of threats 
to large urban interface communities throughout the duration of the 
season.
    I want to stress that while we are not ready to jump to conclusions 
on ultimate fire suppression needs for this year, we recognize the 
seriousness of the situation and understand that a trend of this sort 
would not be unrealistic. Current drought conditions, weather patterns, 
and the buildup of hazardous fuels in many western states certainly 
have made this a possibility.

          ENSURING SUFFICIENT FIRE SUPPRESSION FUNDING IN 2002

    Let me assure you that no fire will go unfought this fire season 
due to lack of funding for suppression. Due to the unpredictable nature 
of fires, both DOI and USDA have, for some time, had the authority to 
transfer funds from other accounts to fund fire suppression. Based on 
this, the Administration has developed a contingency plan for funding a 
record year of fire suppression spending should that become necessary. 
Both agencies expect to have significant funds available in 2002 from 
which to draw upon for fire suppression.
    There has been concern about the impact of suppression transfers on 
the programs donating funds. Transfer authority for the Forest Service 
and DOI to address additional fire suppression needs was provided by 
Congress to ensure fire suppression funding would always be available 
when needed. The use of this transfer authority is a practice which has 
been used in three of the last five years and will be carried out in a 
manner to minimize programmatic impact. In many cases, these are funds 
that would not have been spent in 2002 anyway. In many programs, there 
is a substantial lag between when projects or work is planned and 
budgeted and when the work is actually carried out and funds obligated.
    For example, the Forest Service transferred over $200 million in 
unobligated balances in various programs for wildland fire suppression 
last year and still ended the year with an unobligated balance of over 
$1.2 billion. The $200 million in transferred funding was subsequently 
repaid, and no programs were significantly affected.
    Moreover, with only 2\1/2\ months remaining in the current fiscal 
year, the Forest Service and DOI have only recently begun to transfer 
funds for fire suppression from other accounts. OMB will continue to 
work closely with both agencies to ensure resources are available in a 
timely manner. The Administration has been and will continue to monitor 
this situation closely and will ensure that resources are available 
when needed.
    Due to the uncertainty about fire suppression expenditures, the 
Forest Service is taking prudent steps to ensure that funds are 
available should they be needed. Such precautions are simply ``good 
business practice'' until we have a better idea of likely actual fire 
suppression costs and can identify what funds are likely to be 
unobligated anyway. Once we have a better idea of the ultimate cost of 
this year's fire suppression effort, we will work with Congress to 
replenish transferred funds within the context of the FY 2003 
appropriations bills.

                         LOOKING TO THE FUTURE

    The Administration recognizes the importance of improving forest 
health and limiting the fire risk of our national forests through 
environmentally-sound hazardous fuels reduction through forest thinning 
and prescribed burning, with particular attention focused on the 
wildland-urban interface.
    Consequently, the Administration recently developed an 
implementation plan for the 10-Year Strategy to reduce wildland fire 
risks, in conjunction with the Western Governors' Association, that 
will help accomplish that goal.
    In support of the implementation plan noted above, the 
Administration requested $414 million in FY 2003 for hazardous fuels 
reduction through the Forest Service and the Department of the 
Interior. Both the House and Senate Appropriations Committees have 
included this funding in their FY 2003 bills.
    I'd like to point out that approximately $39 million was 
transferred from the hazardous fuels reduction activity for fire 
suppression activities last summer (FY 2001 funding). Given the timing 
of this borrowing (the height of the fire season), these funds could 
not have been used for hazardous fuels reduction projects anyway. My 
understanding is that these funds were fully repaid in March 2002 and 
are going toward on-the-ground projects at this time.

                        FIRE SUPPRESSION FUNDING

    Before I finish my remarks, I want to make a plea for full funding 
of expected fire suppression needs for FY 2003. For FY 2002, Congress 
has already provided $400 million in contingent emergency wildland fire 
management funding, of which $200 million was appropriately earmarked 
to reimburse transfers made during the FY 2001 fire season. However, if 
Congress had fully funded the President's request for fire suppression 
and devoted the remainder of the contingent emergency funding solely to 
fire suppression, we currently would be in a much better position to 
handle this fire season. In fact, we would have on-hand an additional 
$200 million in fire suppression funding and would need to transfer 
less from other accounts.
    This same pattern appears to be repeating itself in FY 2003. The 
Senate Appropriations Committee has cut the President's base funding 
request for fire suppression by almost 70 percent. Instead, the Senate 
has provided $400 million in contingent emergency fire suppression 
funding. This avoids budget allocations and is not the most responsible 
method of budgeting. While the ultimate level of fire expenditures is 
unpredictable, the need for a significant base level of fire 
suppression funding--to at least address the ten-year average--is known 
and does not meet the definition of emergency. In contrast to the 
Senate Appropriations approach, the President's FY 2003 request 
appropriately funds fire suppression costs at the ten-year average.
    In summary, the Administration is doing everything possible to 
address this year's severe fires and has a plan to fund those costs. 
Thank you for allowing me to testify on this important issue. The 
Administration wants to work with the Committee to address the wildland 
fire problem both this year and in the future.

    The Chairman. Mr. Rey, why don't you go right ahead?

   STATEMENT OF MARK REY, UNDER SECRETARY OF AGRICULTURE FOR 
 NATURAL RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE; 
ACCOMPANIED BY TIM HARTZELL, DIRECTOR OF THE OFFICE OF WILDLAND 
   FIRE COORDINATION, DEPARTMENT OF THE INTERIOR; AND DENNY 
  TRUESDALE, ASSISTANT COORDINATOR, NATIONAL FIRE PLAN, U.S. 
                         FOREST SERVICE

    Mr. Rey. Thank you. With me today is Tim Hartzell, on my 
right. He is the Director of the Office of Wildland Fire 
Coordination of the Department of the Interior. To his right is 
Denny Truesdale, our assistant coordinator for the National 
Fire Plan at the Forest Service. I may ask each or both of them 
to respond to some of your questions as we go forward.
    Since the Department of the Interior and the Department of 
Agriculture work as one in firefighting, fire management and 
implementation of the National Fire Plan, my statement will be 
offered on behalf of both Departments.
    We thank you and the committee for your support of the fire 
management program and, most importantly, for your support of 
the brave men and women who make up our firefighting corps. Our 
firefighters do an impressive job under adverse conditions, and 
they deserve our thanks and admiration.
    As we move into the peak of the Western fire season, 
fighting wildland fires is only one aspect of the work we must 
do, however, to protect communities and restore ecosystems. The 
2002 fire season has already been a difficult one. But thanks 
to the National Fire Plan, the wildland fire agencies together 
have well over 17,000 firefighting employees to prevent, detect 
and suppress wildland fires, treat hazardous fuels, and provide 
leadership for the organizations.
    When we realized the potential severity of the 2002 
wildland fire season, we began to hire seasonal firefighters 
early, and we were staging firefighting crews and equipment in 
locations where they can be mobilized quickly and effectively.
    Thousands of homes have been saved by firefighters, more 
than 300 large fires have been controlled, and about 42,000 
fires were controlled through the end of June. Without the 
added National Fire Plan support that you provided, our 
response would not have been as strong.
    As of June 30, less than 1 percent of the fires have 
escaped initial attack to become large fires, compared to an 
escape rate of 2 to 5 percent in past years.
    This year, when we went into Preparedness Level Five, the 
highest level of preparedness, we still had approximately 221 
hand crews available to be assigned. During fire season 2000, 
when we went to Level Five, we were stretched so thin that we 
were already ordering military crews.
    That, Senators is a reflection of the work you have done in 
providing us money through the fire plan, or as it is more 
colloquially known here, the ``Happy Forests Program.'' 
Although several fires have been devastatingly large, the 
additional resources have made a difference in reducing the 
size of many fires.
    Another critical aspect to decreasing wild fire is to 
reduce hazardous fuels in our forests and grasslands. We can do 
this by restoring fire adapted ecosystems, thereby reducing 
wild fire risks to communities, conserving natural resources, 
and most importantly, saving public and firefighter lives.
    Bipartisan congressional support has provided the Forest 
Service and Interior with the necessary funding to increase the 
acreage of fuels treatment, to reduce the risks to communities 
and ecosystems. We have preliminary indications that recent 
fuel treatments have been effective in community and natural 
resources protection. We are currently gathering information to 
determine if these initial assessments can be validated.
    In addition, restoration and rehabilitation are critical 
parts of responding to the aftermath of wild fire. These 
efforts focus on lands unlikely to recover quickly and 
naturally from wild fire. Stabilizing activities generally take 
several years and include reforestation, watershed restoration, 
road and trail rehabilitation, and fish and wildlife habitat 
restoration. Reseeding is done when possible with seeds from 
native trees and plants.
    In addition to the rehabilitation efforts that are already 
beginning with the 2002 fires, rehabilitation efforts continue 
from areas affected by fires in 2001 and 2000.
    With the fires of recent days, the Forest Service and the 
Department of the Interior specialists are already in the field 
assessing conditions and preparing burned area recovery reports 
for emergency rehabilitation needs. Emergency stabilization 
work, as I said, has already begun, and longer term 
rehabilitation and restoration will continue for several years.
    For the past year and a half, since the National Fire Plan 
was developed, Federal agency field units, States, tribes and 
other partners have been busy, putting into action the concept 
of the Fire Plan. In 2001, we accomplished a great deal of work 
in each of the five key areas of the Fire Plan: Firefighting, 
rehabilitation and restoration, hazardous fuels treatment, 
community assistance, and accountability. That work has been 
summarized in the fiscal 2001 Performance Report, which has 
already been submitted to the Congress earlier.
    Our mid-year review of accomplishments for the National 
Fire Plan this year shows that excellent work continues to take 
place. I have already mentioned our improved firefighting 
capacity.
    This year the Department of the Interior and the Forest 
Service expect to treat 2.4 million acres to reduce hazardous 
fuels. By the end of June, both Departments had completed fuels 
treatment on over 1.6 million acres. Over 47 percent of these 
acres were in the wildland urban interface.
    Despite the severe drought, we will accomplish additional 
mechanical and prescribed fire treatments, as weather permits. 
We anticipate that we will accomplish some additional 
mechanical treatments this year. Treatment by prescribed fire 
has been severely curtailed due to the drought and wild fire 
activity through what is usually the most productive time of 
year for treatments, which is the spring.
    Our employees report that in recent fire behavior and 
photographs show that fuel treatments in Arizona and Colorado 
have been effective in wildland urban interface areas and in 
natural resources protection. Initial indications are 
supportive of the fact that fuels treatment are working, and we 
have some examples of that in my statement for the record.
    Our working relationship with our State and local partners 
has never been stronger. In addition to our Federal 
firefighting crews, we call upon many other firefighting forces 
for assistance.
    State and local firefighters may be the first to respond to 
fire incidents, and we rely heavily on these crews for support, 
especially the rural and volunteer fire department crews for 
their expertise in structural protection. Their capabilities 
have been enhanced by the resources provided through the 
National Fire Plan, through the auspices of this committee and 
the Congress.
    The work we are doing to organize our firefighting effort 
and to work through the national implementation plan has been, 
I think, recounted by Governor Martz, and I need not recount it 
further. I will simply conclude by noting that we are better 
funded than we have been in perhaps over a decade, better 
organized than we have ever been, but we nevertheless are 
facing a fire season which will be very difficult, perhaps as 
difficult as the 2000 season. For me personally, I am confident 
that this season will be more difficult than the 2000 season. 
That has nothing to do with the weather, but everything to do 
with the fact that I am on this side of the dais for the 2002 
season.
    With that, we would be happy to answer any of your 
questions.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Rey follows:]

  Prepared Statement of Mark Rey, Under Secretary of Agriculture for 
      Natural Resources and Environment, Department of Agriculture

    Mr. Chairman and members of the committee: Thank you for the 
opportunity to meet with you today. I am Mark Rey, Under Secretary for 
Natural Resources and Environment, Department of Agriculture. With me 
today are Tim Hartzell, Director of the Office of Wildland Fire 
Coordination at the Department of the Interior; and Denny Truesdale, 
Assistant Coordinator, National Fire Plan, Forest Service. Since the 
Department of the Interior and the Department of Agriculture work 
closely together in fire management and in implementing the National 
Fire Plan, it is appropriate to use one statement to talk about the 
2002 wildland fire season including rehabilitation and restoration and 
discuss our work on the National Fire Plan.
    We thank you and your committee for your support of the fire 
management program and, most importantly, for your support of the brave 
men and women who make up our firefighting corps. Our firefighters do 
an impressive job under adverse conditions and they deserve our thanks 
and admiration. As we move into the peak of the western fire season, 
fighting wildland fires is only one aspect of the work we must do to 
protect communities and restore ecosystems.

                     THE FIRE SITUATION AND OUTLOOK

    The outlook is for a continued severe fire season. This fire season 
started out earlier than usual and we have already seen over 3.3 
million acres burned. This is more than twice the ten-year average of 
burned acreage, despite the fact that the number of fires is below the 
ten-year average. The high level of burned acreage is partly 
attributable to the Hayman and Rodeo-Chediski fires. These fires, which 
were started under unusual circumstances that we hope will not be 
repeated, account for over 600,000 acres. Since those fires and the 
Missionary Ridge fires were brought under control early this month, 
daily acres burned and costs incurred have dropped. Nevertheless, the 
drought condition in the Southwest, Rockies and East Coast has set the 
stage for an active fire season in those areas while the onset of the 
monsoon season in the Southwest should eventually moderate fire 
activity in that area. Since October, areas receiving below normal 
amounts of precipitation include Southern California, the Southern 
Great Basin, the Southwest, the Rocky Mountains and the Eastern 
Seaboard. The Northeast experienced the second driest September to 
February in the last 107 years. July 2001 through June 2002 was the 
driest rainfall season on record since 1850 in Los Angeles and San 
Diego.
    The weather outlook for later this summer and fall calls for 
generally warmer than normal temperatures across the entire West. It is 
anticipated that monsoon moisture will eventually moderate fire 
activity in western New Mexico, eastern Arizona, and western Colorado 
after mid July; however, such moisture has not yet arrived. Through 
September, rainfall is predicted to be below normal, in portions of the 
Pacific Northwest, Northern Rockies and Great Basin. As a result, fire 
potential in the Great Basin, Pacific Northwest and Northern Rockies is 
expected to increase later this summer and fall. Existing drought 
conditions along the Eastern Seaboard could lead to high fire potential 
during the fall months. Above normal fire potential is predicted in 
California, the Great Basin, Rockies, Mid-Atlantic States and portions 
of the Pacific Northwest and Northern Rockies through the fall.

                            2002 FIRE SEASON

    The 2002 fire season has already been a difficult one. Thanks to 
the National Fire Plan, the wildland fire agencies together have well 
over 17,000 fire employees to prevent, detect, and suppress wildland 
fires, treat hazardous fuels, and provide leadership for the 
organizations. When we realized the potential severity of the 2002 
wildland fire season, we began to hire seasonal firefighters early and 
we are staging firefighting crews and equipment in locations where they 
can be mobilized quickly and effectively. Thousands of homes have been 
saved by firefighters, more than 300 large fires have been controlled, 
and about 42,000 fires were controlled through the end of June. Without 
the added National Fire Plan support, our response would not have been 
as strong. As of June 30, less than 1% of the fires have escaped 
initial attack to become large fires compared to an escape rate of 2 to 
5% in years past. This year, when we went into Preparedness Level 5 
(the highest level of preparedness), we still had approximately 221 
hand crews available to be assigned. In fire season 2000, when we went 
into Level 5, we were stretched so thin we were already ordering 
military crews. Although several fires have been devastatingly large, 
the additional resources have made a difference in reducing the size of 
many of the fires.
    Firefighting is a high risk, high consequence activity, and the 
Forest Service and Interior have always had strong firefighter safety 
and training programs. Firefighter safety is our highest priority. 
Following the ThirtyMile Fire tragedy in July 2001, where four 
firefighters lost their lives, we have reexamined our safety programs 
and identified areas needing improvement. The areas identified include 
managing firefighter fatigue, reinforcing use of the 10 Standard Fire 
Orders and the 18 Watch Out situations, and developing training to 
avoid entrapment by fire. All of these improvements in training and 
safety are in place for this fire season. We are committed to doing 
everything we can to improve firefighter safety.
    Another critical aspect to decreasing wildfire is to reduce 
hazardous fuels in our forests and grasslands. We can do this by 
restoring fire adapted ecosystems, thereby reducing wildfire risks to 
communities, conserving natural resources, and most importantly, saving 
public and firefighter lives. Bipartisan Congressional support has 
provided the Forest Service and Interior with the necessary funding to 
increase the acreage of fuels treatment to reduce risks to communities 
and ecosystems. We have preliminary indications that recent fuel 
treatments have been effective in community and natural resource 
protection. We are currently gathering information to determine if 
these initial assessments can be validated.
    When local areas anticipate or experience above normal fire 
activity, the Departments have the authority, through what is known as 
``severity funding,'' to provide suppression funds to those units so 
that they can bring in additional staff and equipment to improve 
initial and extended attack response capabilities and increase 
prevention activities. Already this year, the Forest Service has 
approved over $61 million for severity assistance; Interior has 
approved over $29 million in severity assistance. Federal wildland fire 
agencies have enhanced initial attack capabilities in Arizona, New 
Mexico, Colorado, Montana, and Nevada by pre-positioning resources 
ranging from airtankers, to hand crews, to engines in strategic 
locations. Weather, fuels, and drought conditions all contribute to the 
number and size of wildfires. We can reduce the severity of unwanted 
wildland fire over time through hazardous fuels reduction. We will 
never be able to control every fire every time, but we can reduce the 
number and severity these wildfires.

                     REHABILITATION AND RESTORATION

    Rehabilitation and restoration are critical parts of responding to 
the aftermath of wildfire. These efforts focus on lands unlikely to 
recovery quickly and naturally from wildfire. Stabilizing activities 
generally take several years and include reforestation, watershed 
restoration, road and trail rehabilitation, and fish and wildlife 
habitat restoration. Reseeding is done when possible with seeds from 
native trees and plants. In addition, rehabilitation efforts continue 
from the 2000 and 2001 fires.
    With the fires of recent days, Forest Service and Department of the 
Interior specialists are already in the field assessing conditions and 
preparing the burned area reports for emergency rehabilitation needs. 
Emergency stabilization work has already begun and longer term 
rehabilitation and restoration on these very large fires will continue 
for several years.

                   OUTCOMES OF THE NATIONAL FIRE PLAN

    For the past year and a half, since the National Fire Plan was 
developed, Federal agency field units, States, Tribes and other 
partners have been busy, putting into action the concepts of the Fire 
Plan. In 2001, we accomplished a great deal of work in each of the 5 
key point areas of the Fire Plan (Firefighting, Rehabilitation and 
Restoration, Hazardous Fuels Treatment, Community Assistance and 
Accountability) - work that has been summarized in the FY 2001 
Performance Report.
    Our mid-year review of accomplishment for the National Fire Plan 
shows that excellent work continues to take place. I have already 
mentioned our improved firefighting capacity. This year the Department 
of the Interior and the Forest Service expect to treat 2.4 million 
acres of reduce hazardous fuels. By the end of June, both Departments 
completed fuels treatment on over 1.6 million acres and over 47 percent 
of these acres are in the wildland urban interface. Despite the severe 
drought, we will accomplish additional mechanical and prescribed fire 
treatments as weather permits. We anticipate that we will accomplish 
some additional mechanical treatment this year. Treatment by prescribed 
fire activity has been severely curtailed due to wildfire activity, 
through what is usually a productive time of year for treatments. Our 
employees report that recent fire behavior and photographs show that 
fuel treatments in Arizona and Colorado have been effective in 
wildland-urban interface areas and in natural resource protection. 
Initial indications are supportive of our fuels treatment and we are 
working to document this information.
    An example of our focus on hazardous fuels is the Blue Ridge Urban 
Interface project on the Coconino National Forest in Arizona, begun 
during September 2001. The project was designed to reduce the risk of 
fire around 10 subdivisions totaling over 1,000 homes located near the 
town of Clint's Well. So far the project has completed 4,230 acres of 
prescribed burning, 1,600 acres of commercial thinning and the chipping 
of thinning slash material on about 220 acres. On May 14 of this year, 
a fire broke out just south of the project boundary. Within an hour the 
fire had grown to 5 acres and began to spread rapidly through the tree 
canopy. As it moved into part of the project area, an area that had 
been burned in February, the fire activity decreased and crews were 
able to contain the fire. If the fire activity had not decreased, the 
fire would have had the opportunity to move through one of the 
subdivisions, perhaps burning the homes in its path.
    In 2001, as part of the community assistance portion of the 
National Fire Plan, the Student Conservation Association in Idaho and 
Nevada launched the Fire Education Corps, a public-fire awareness 
project. Local teams working in cooperation with federal, state and 
local authorities provided more than 500,000 residents with vital, 
wildfire safety information through: public presentations, special 
events, community canvassing, home evaluations, fuels reduction 
projects, and media relations.
    With our State Forester partners through the State Fire Assistance 
program, we have assisted over 11,000 communities by developing local 
projects on fire prevention, fire suppression, hazard mitigation, and 
creating FIREWISE communities. Both Departments have helped over 3,100 
communities by providing training, protective fire clothing, and 
firefighting equipment through the Volunteer and Rural Fire Assistance 
programs.
    Our working relationship with our State and local partners has 
never been stronger. In addition to our Federal firefighting crews, we 
call upon many other firefighting forces for assistance. State and 
local firefighters may be the first to respond to fire incidents. We 
rely heavily on these crews for support, especially the rural and 
volunteer fire department crews, for their expertise in structural 
protection. In severe fire seasons, State, Tribal, military, National 
Guard, local firefighters and supervisory firefighters from Canada, New 
Zealand, and Australia are instrumental in fighting wildland fire. We 
would like to thank you Mr. Chairman, for your work on the bill 
regarding tort claim coverage of foreign firefighting personnel.
    The five land managing agencies have updated the majority of their 
fire management plans to be consistent with the Federal Wildland Fire 
Management Policy, with a goal to have all plans updated in 2004, if 
not sooner. Today the Wildland Fire Leadership Council is finalizing an 
interagency fire management plan template that will make fire 
management planning within all federal agencies consistent and without 
regard to boundaries. The fire management plans are used by fire 
management officers, line officers and incident commanders to plan for 
future fire management decisions, and to make quick decisions when a 
fire incident occurs, as to the appropriate techniques and tactics for 
effective wildland fire suppression.
    This year, the Departments are developing a common interagency fire 
budget planning process that will provide all agencies with a uniform, 
performance-based system for identifying the preparedness resources 
necessary to deliver a cost effective fire management program. This 
system will be deployed by the 2004 fire season and will influence 
readiness decisions for the 2005 fire season. Some interim components 
may be online even earlier.
    On May 23, 2002, the Secretary of Agriculture and the Secretary of 
the Interior joined with the nation's Governors to endorse the 
Implementation Plan for the 10-Year Comprehensive Wildland Fire 
Strategy. The 10-Year Implementation Plan is an historic document 
setting forth an agenda to aggressively manage wildland fires, and 
reduce hazardous fuels, protect communities, and restore ecosystems 
over the next decade. The 10-Year Implementation Plan was developed in 
response to the high level of growth in the wildland urban interface 
that is placing more citizens and property at the risk of wildland 
fire, the increasing ecosystem health problems across the landscape, 
and an awareness that past suppression has contributed to more severe 
wildfires. The 10-Year Implementation Plan will help reduce the risk of 
wildfire to communities and the environment by building collaboration 
at all levels of government.
    The newly formed Wildland Fire Leadership Council is important to 
the leadership, accountability, and coordination in carrying out the 
National Fire Plan. The Council, which has met three times, has 
participants from the National Association of Counties, the National 
Governors Association, the Federal Emergency Management Agency, the 
National Association of State Foresters and the Intertribal Timber 
Council. The Council provides oversight to ensure policy coordination, 
accountability and effective implementation of the wildland fire 
programs. Currently, the Council is developing action plans for each 
task described in the 10-Year Implementation Plan. These action plans 
will set the course for accountability for accomplishing this important 
work.

                                SUMMARY

    With the outlook for a continuing severe fire season, the five 
federal land-managing agencies and our partners at the State and local 
level are doing all that we can to be prepared. We will continue to do 
everything we can to protect firefighters, the public, and communities. 
We appreciate continued bipartisan support from the Congress. The 10-
Year Implementation Plan and the Wildland Fire Leadership Council will 
continue to foster cooperation and communication among Federal 
agencies, States, local governments, Tribes, and interested groups and 
citizens. Our aim is to ensure the long-term safety and health of 
communities and ecosystems in our care.
    This concludes my statement, Mr. Chairman. I would be happy to 
answer any questions you and the members of the committee may have.

    The Chairman. I just have a few questions here, and then 
will defer to my colleagues.
    Ms. Dorn, let me just understand the administration's 
position. You oppose adding any emergency firefighting funds to 
the supplemental bill at this time, is that correct?
    Ms. Dorn. Mr. Chairman, we have been working on a 
supplemental appropriations bill since March, so when we 
submitted our supplemental request in March, it was way before 
we had visibility on what the summer was going to look like. In 
the last several weeks, we have been--we have had discussions 
with a number of members of the Senate, a number of members of 
this committee, about the need for additional firefighting 
suppression money. And I would say that those discussions are 
ongoing at this point.
    We are getting to the point in the year where if we do not 
pass the supplemental pretty soon, there is not going to be any 
reason to pass a supplemental, but we understand that there is 
great interest in the Congress in that matter. We have looked 
at several different options for them.
    The Chairman. So it is not that you are opposed; it is that 
you do not have a position?
    Ms. Dorn. I would say that it is a matter under discussion 
at this point. We have looked at it in the context of trying to 
do it with some offsets from some other accounts, so that it 
does not add to the overall total of the bill. But it is an 
open question at this point.
    The Chairman. Let me just also ask about a specific section 
of your testimony that I do not fully understand.
    You say, ``For fiscal year 2002, Congress has already 
provided $400 million in contingent emergency wildland fire 
management funding, of which $200 million was appropriately 
earmarked to reimburse transfers made during the 2001 fire 
season. However, if Congress had fully funded the President's 
request for fire suppression and devoted the remainder of the 
contingency fund solely to fire suppression, we currently would 
be in a much better position to handle this fire season.''
    And then as 2003, you say, ``In contrast to the Senate 
Appropriations approach, the President's fiscal year 2003 
request appropriately funds fire suppression costs at the 10-
year average.''
    So I take from that that our real gripe ought to be with 
Senators Byrd and Burns for fouling up the appropriations bill, 
is that right?
    Ms. Dorn. Senator, we have requested over the last several 
years increasing amounts for fire suppression. That is, it has 
gone from $141 million in 2001 to $321 million to $421 million. 
There is a steady ramp up in the amount of money that we have 
requested for firefighting.
    The point that I was trying to make is that rather than 
appropriating that money straight to the fire suppression 
accounts, it has been divided between the regular account and 
then a contingent emergency account down below, which is done 
for budgeting purpose, budget purposes up here. It does not 
help us in terms of the overall accounts.
    The Chairman. But am I correct that Congress has funded all 
of the fire suppression money that you have requested? It is 
just that you do not like the designation of part of it as 
emergency funds, is that right?
    Ms. Dorn. We would prefer to have it in the accounts to 
which we have requested it as a non-emergency account.
    The Chairman. But how does the failure to put it in the 
right account or designated in the right way lead to the 
conclusion that if we had done it your way, we would currently 
be in a much better position to handle this fire season?
    Ms. Dorn. My understanding of last year's account was that 
$200 million of the amount last year was used to repay the 
previous year. This is a budgeting game between accounts. $200 
million had to go to fund the previous year's account, so we 
ended up with $200 million less in the firefighting account.
    The Chairman. And the administration did not favor 
replenishing that $200 million that had been used from other 
accounts the previous year?
    Ms. Dorn. We were in favor of the budget request that we 
put forward.
    The Chairman. But the budget request did not ask for any 
replenishment of those funds.
    Ms. Dorn. That is my understanding, sir.
    The Chairman. So the administration did not ask for as much 
as Congress wound up appropriating, is that what I am hearing, 
last year?
    Ms. Dorn. I am sorry. I missed your point.
    The Chairman. Am I understanding correctly that last year 
the administration did not ask for as much funding as Congress 
actually wound up appropriating, because you did not ask for 
any funds to replenish those accounts that had been used up in 
the previous year?
    Ms. Dorn. We did favor repayment of the monies. What we did 
not get was what the President's budget request was for 
firefighting. We had to take $200 million of that to repay the 
previous year. We ended up $200 million short.
    The Chairman. That is not consistent with my understanding 
of the situation. My understanding is the Congress did 
appropriate all of the money that you asked for for fire 
suppression. In addition, Congress appropriated the funds 
necessary to replenish the other accounts that had been 
borrowed from. We have some experts on budgeting and 
appropriations around here.
    I am sorry Senator Burns has left. Maybe he could enlighten 
us on this. This is his subcommittee.
    But let me defer to my colleagues. Senator Domenici.
    Senator Domenici. Well, here again, there is so many people 
who want to be heard, and I have an awful lot of questions, but 
I am going to be as brief as I can.
    Let me talk with you first, Secretary Dorn. What is your 
title--what do they call you?
    Ms. Dorn. Nancy Dorn is fine, Senator.
    Senator Domenici. Nancy Dorn is all right with you?
    Ms. Dorn. That is fine.
    Senator Domenici. You are an untitled leader.
    Okay. Now, look, you all asked the Congress for a 
supplemental. Pretty soon, its time of need will have passed 
and many problems that did not exist when you sent it up here 
will occur and accrue, and people will be needing money for 
things that the emergencies caught up with, you know.
    Ms. Dorn. That is correct.
    Senator Domenici. Okay. Now, nonetheless you had a dollar 
figure that represented the amount you asked for in that urgent 
supplemental. Do you remember the number?
    Ms. Dorn. The President requested $27.1 million--billion in 
the supplemental.
    Senator Domenici. Now, what has been happening--you correct 
me if I am right or not. Regardless of what is in the accounts 
that make up this total, you and the Congress have been arguing 
about the $27.1 billion amount, is that not right?
    Ms. Dorn. Well, Senator, we had a bill that came out of the 
House at $28.8 billion that the President has indicated that 
was acceptable. The Senate bill was about $32 billion. And the 
Congress is currently trying to narrow those differences 
between the two bills.
    Senator Domenici. Okay. So I mean, I am not trying to be 
difficult. I am really trying to help, but I think I know what 
has happened, but I cannot get anybody other than myself to 
admit it. And I am nothing, do you understand? I am just 
talking for myself.
    So let us talk about that number $27.1 billion. What number 
did it get to with the President still saying, ``I will accept 
it''? Was there not an additional number, something was added 
to it?
    Ms. Dorn. The President had indicated that the House-passed 
level at $28.8 billion--
    Senator Domenici. Okay.
    Ms. Dorn [continuing]. Was an acceptable number.
    Senator Domenici. So now we are arguing about $28.8 
billion, and you all say, ``We will sign a bill if it is at 
$28.8 billion, but if it is higher, we will not sign it,'' 
right?
    Ms. Dorn. Well, Senator, we tried to accommodate the 
Congress's priorities--
    Senator Domenici. Well, tell me what the argument is, 
ma'am.
    Ms. Dorn [continuing]. Within that total. But I think we 
are getting very close on coming to a number that everybody can 
live with.
    Senator Domenici. Okay. Now, here is what I see happening. 
I see you all arguing about a number of $28.8 billion, and we 
are arguing about something completely different. And when we 
ask you the question, you talk about $28.8 billion.
    Let me see if I can ask you or get you to answer this 
question without referring to the $28.8 billion. My staff and 
your boss, your boss 5 hours ago, had indicated that we 
borrowed money to pay for forest firefighting from other items 
within the Interior Department budget. And they go through and 
find how much have we borrowed.
    The purpose of that as being two-fold: One, you have got to 
find out--got to get the money some day; and second you have 
got to know how much you have left to do the work.
    My friend, John Kyl, talks about the fact that you have 
used up all of the money by borrowing from accounts, and the 
borrowed accounts are needed to fix the forests. It is not like 
the borrowed accounts are about something that is going to 
happen 2 years from now. You have got to use them in the burned 
forests to fix them. And there is more than a few hundred 
million.
    So between your boss and one of our staff, they had said, 
``To replenish the accounts and make them whole, you need $2.07 
billion''--let us round it--or was it $1.07 billion?
    Staff. $1.07 billion.
    Senator Domenici. $1.07 billion. So let us call it $1.1 
billion. Now, is that right? Is that number part of this or 
not?
    Ms. Dorn. Well, Senator, let me just say that our current 
projections are not that--
    Senator Domenici. Tell me how much it is. How much do you 
owe?
    Ms. Dorn. Well, let me defer to my friend from the USDA.
    Senator Domenici. How much do you owe accounts within the 
Department?
    Ms. Dorn. Well, currently, Senator, we only started 
transferring money from other accounts last Friday. That--
    Senator Domenici. Well, that is $100 million.
    Ms. Dorn. Right.
    Senator Domenici. That is not what we are talking about.
    Ms. Dorn. Right.
    Senator Domenici. We already know about that $100 million.
    Ms. Dorn. We have not transferred money in any great 
amounts yet to these accounts in either Interior or 
Agriculture.
    Senator Domenici. You know, I really am trying to get an 
answer. And if I do not get it soon, I will let somebody else 
try.
    Mr. Rey. The number that you are referring--the number that 
you--
    Senator Domenici. Let me say that what somebody was trying 
to do up here was a very good thing. They were saying ``Why do 
we not make the accounts of Interior whole, so that there will 
not be any problem when the rest of the forest firefighting has 
to take place, or anything that is needed for forest 
firefighting has to be funded?''
    Somebody said, ``Why do we not get that money?''
    Somebody followed and said, ``Wonderful. Why do we not get 
it in the supplemental?''
    Now, we started with that; and somewhere or another, the 
wires crossed as to what we were trying to do up here, and what 
you all were telling us how much it would cost and what we 
could do or what we could not do.
    The truth of the matter is when you finish today and go 
back and go through this, you are going to find that to make 
all of the accounts whole, you are going to need $1.07 billion. 
Now, assume that is right; do not argue with me. Assume that is 
right. Assume that is right.
    What in the world is wrong with adding it to the 
appropriation bill? Now, I will tell you what I think is wrong. 
And I do not say this in any--or with any malice, just as I see 
it.
    You do not want to exceed the $28.8 billion. And if we 
said, ``Put this money in because you need it,'' you have got 
to say, ``Well, the President is going to have to sign a bill 
that is going to be $29.9 billion,'' and we will not do it.
    And I asked you that on the phone, and your answer is, 
``No. We do not need any more money. We have already agreed on 
$28.8 billion. That is it.'' And I say to you they are two 
different issues.
    One is everything that is in the bill. And then $1.1 
billion that we are going to put in the bill, but what are we 
putting it in for? We are putting it in to take the place of 
borrowed money in the accounts.
    And your answer is, ``The President will not sign that 
bill.'' That is how I see it.
    Now, have you analyzed it that way, Senator Kyl?
    No? You do not have to then. Let me go on.
    [Laughter.]
    Senator Domenici. Who is in charge here?
    Senator Kyl. Do not ask me. [Laughter.]
    Senator Domenici. I will tell you, I guarantee you that is 
right.
    Senator Wyden [presiding]. I thank my colleague. And we 
will just proceed with each Senator getting 5 minutes in the 
regular order.
    Ms. Dorn, let me see if I can go back just to the question 
that Chairman Bingaman talked about, the question of 
firefighting on the supplemental bill. And your response is 
that discussions are ongoing on that. That is what you told 
Chairman Bingaman.
    Ms. Dorn. Yes, sir.
    Senator Wyden. All over the West, there are thousands of 
families that are bleeding right now. They have lost their 
homes. They just are devastated. And they want to know what we 
are going to do to help them. And you have told us today that 
discussions are ongoing. And that is not much solace to all 
those people that have been flattened, that just have been 
hammered in the last few weeks.
    What can we do to turn discussions that are ongoing into 
actual help that gets on its way to the West quickly? What else 
do we have to show them?
    Ms. Dorn. Well, Senator, the 2002 appropriations process 
yielded over $1 billion in, $1.2 billion, in firefighting 
resources. We are using those resources to the best of our 
ability.
    We have worked with the USDA and the Department of the 
Interior to identify additional resources that can be added 
should additional resources be needed. We are keeping a very 
close eye on this situation. We are not immune to the 
difficulties that have occurred in Colorado and Arizona and New 
Mexico. We are keeping a very close eye on this.
    And I would say to you that we would like to work with you 
all in the context of the appropriations process and in the 
context of this committee to see what else needs to be done and 
what else we can do.
    Senator Wyden. Well, I think it is fine to keep a close eye 
on it, but start by taking a look at your own math at the 
agency.
    By OMB's own figures, we know that the Forest Service 
expended its available firefighting funds on July 5. If you use 
a conservative estimate of firefighting costs of $5 million per 
day, the agency now has a $55 million deficit with the end of 
the fire season nowhere in sight.
    If you use the agency's math, not somebody who might want 
to argue another agenda, but using the agency's own math, is it 
not pretty certain, totally certain by my calculation, based on 
everything we are seeing that additional appropriations are 
going to be needed?
    Ms. Dorn. Well, as I said, we know what the resources that 
we have currently are.
    Senator Wyden. But take the question I asked, ma'am. With 
all due respect, that is your math. I mean, given your math, is 
it not clear that additional resources are going to be needed?
    Ms. Dorn. Well--
    Mr. Rey. I think what I would say to you first, for the 
people that are affected by fires and by this fire season is 
that everything that can be done is being done. Every fire that 
is ignited is attacked. And hopefully, as quickly as possible, 
suppressed.
    We have this year, as we have in 4 of the past 6 years, a 
fire season which will exhaust the appropriated fire 
suppression dollars. We will, this year, as we did in four of 
the past six fire seasons, bad fire seasons, borrow from other 
available accounts to make sure that our firefighting effort is 
not compromised and that no one's home or community or family 
are endangered as a consequence of the fire season.
    We are, as a result of the Congress's assistance, in 2001 
better prepared and better--and more ready for the fire 
suppression task at hand.
    We will assure, as we borrow from available accounts that 
the last place we go is hazard fuel reduction, because we will 
not borrow from Peter to pay Paul. If you are hearing that fuel 
reduction projects are being delayed because of our borrowing 
strategy, get us the specifics and we will assure you that they 
are not being delayed because of a lack of funding.
    They may be delayed because if they involve prescribed 
burning, we can no longer safely burn in many parts of the 
country without risking another Los Alamos. And so some fuel 
reduction projects are going to be delayed because of the 
weather.
    They may also be delayed in some part because we have taken 
overhead people, managers and supervisors that we need 
critically for directing fire suppression efforts off of some 
fuel reduction projects. But to the maximum extent possible, we 
will not delay fuel reduction to engage in firefighting. But we 
will and we do believe we have the resources to assure that we 
suppress all of the fires that ignite in this fire season.
    Senator Wyden. I would only say--my time is up on this 
round. That is not what your own people are saying out in the 
field. Now, let me just read you from a front page article in 
today's Oregonian.
    The headline of it is, ``Fire Fighters Shorthanded.'' And 
it goes on to quote Don Ferguson of the Bureau of Land 
Management. He says, and I quote, ``It is frustrating. In a 
couple of days, we are going to have a whole lot of 
firefighters or a whole lot of fire.''
    This is what folks, the Forest Service, and the BLM are 
saying all over the West. They are short handed. They do not 
have the resources.
    I would just hope, and we will ask some more questions on a 
second round, that you would look at your own math at OMB and 
you would listen to your own people out on the ground, because 
right on the front page of today's Oregonian, people at the 
Bureau of Land Management, the people who work for you all, are 
saying they do not have the tools.
    The Senator from Wyoming was next.
    Senator Thomas. Thank you.
    Well, it is a little confusing here what we are doing 
financially. I would have to say to my friend from Oregon that 
having been involved in a few fires myself, there is never 
enough people. Any one who is there is going to say ``We could 
use more people,'' so that may not be exactly the case.
    I guess, as we look now, you are going to have to find the 
money to fight the fire now, obviously, and do that. As you 
look towards your budget that is now being considered, is there 
money both for firefighting and for trying to do the thinning 
and the things that need to be done to try and avoid fires?
    Mr. Rey. There is money in the 2002 budget and money in the 
2003 budget that is making its way through Congress. And there 
will be money in the 2004 budget.
    We are maintaining our commitment to the National Fire 
Plan, both in appropriating money, which we have been ramping 
up in the last two cycles since we started work under the Fire 
Plan and in selecting the projects that should deserve the 
highest priority in fuel reduction work we do.
    Senator Thomas. What is your view on what they are doing 
with the roadless aspect of it, in terms of fire avoidance? 
Have you changed the policy on roadless? Are we now still 
fighting that battle we had several years ago, or are we now 
being able to do more to suppress fires, to avoid fires?
    Mr. Rey. Suppression has not been affected with regard to 
roaded or roadless area characterization. We suppress in both 
roadless and roaded areas, particularly in these kinds of 
weather conditions.
    What we can tell you is that we have fires burning in both 
roadless and roaded areas. In roaded areas, we get a higher 
incidence of ignition, because access brings people. People are 
the primary cause of wild fire ignitions.
    In roaded areas, however, we have a higher level of success 
in initial attack than we do in roadless areas, because access 
allows firefighters to get in quicker as well. So it is a mixed 
bag.
    In terms of fuel reduction activities, where we have a 
significant challenge with regard to fuel reduction work in 
roadless areas, even though the now enjoined Clinton 
administration Roadless Rule exempted fuel reduction activities 
from being prohibited, what we are finding is that as we 
schedule fuel reduction activities in roadless activities, 
those are the projects that more frequently than not are being 
appealed or litigated.
    Senator Thomas. As you make transfers, apparently nearly 
$800 million from other accounts, are those accounts that need 
to be repaid or are those, in some cases, some accounts that 
can be tightened up with less need for--or less expenditures? 
How do you--your paper from the Forest Service says the 
transfer of $749 million available from other accounts.
    Mr. Rey. That $749 million would not be transferred all at 
once.
    Senator Thomas. Yes, I understand.
    Mr. Rey. We have staged transfers that will occur from now 
until the end of the fiscal year. It is our expectation that 
most, if not all, of that money would be replenished once we 
understand how much we have borrowed or will likely need to be 
borrowed in the 2003 appropriations bill, as Ms. Dorn 
indicated. So most of those are not accounts that we can later 
short, although we do look at that every year.
    There was a comment at the beginning of the hearing that we 
failed to repay a fuel reduction account of some $10 million in 
a previous year. The reason for that was that we were already 
into the next fiscal year. The fuel reduction work that was 
deferred was work that was deferred because a chunk of it was 
prescribed fire, which we could not reclaim, and a chunk of it 
was priority fuel projects that we just picked up with the 
operating budget of the subsequent year. So most of those 
accounts will be replenished.
    Senator Thomas. I see. You know, we are in a number of 
emergencies, whether it be homeland defense, or whether it be 
terrorism. Sometimes you have to offset emergencies by reducing 
some of the normal costs. I do not find that to be particularly 
offensive.
    Ms. Dorn. And I think as we go forward through the summer, 
we will look at the unobligated balances in the other accounts 
at the Department of the Interior and Forest Service to 
basically ensure that projects are not stopped or, you know, 
acquisitions are not foreclosed if they are ready to go.
    So as I said, they ended last year. If last year was any 
indication, we did borrow several hundred million dollars from 
accounts, which then at the end of the year still had over $1 
billion in unobligated balances in them.
    Senator Wyden. The time, gentlemen, on this round has 
expired, and we will have other rounds. Senator Kyl is next.
    Senator Kyl. Thank you, Mr. Chairman.
    Mr. Rey, you just testified that the two things that might 
cause fuel reduction to be reduced this year below that which 
is called for under the National Fire Plan would be the 
combination of bad burning conditions for prescribed burns and 
staff redeployed to be involved in the firefighting efforts.
    I think this shows two things, because both of these are 
predictable. I mean, we are in a drought cycle. We have been in 
a drought cycle, and, at least a 12-month drought cycle is 
predictable, so one can know that that is going to make it 
difficult to do prescribed burns.
    It also demonstrates that there is too much reliance on 
prescribed burns without thinning. If you look at the National 
Fire Plan for the Forest Service, in terms of treatment for 
fiscal year 2002, only 132,000 acres are planned to be 
mechanically treated, whereas 1,192,000-plus are to be treated 
by prescribed fire.
    So you have got almost a ten-to-one ratio. Your statistics 
can look pretty good if you are just burning, but as we can 
see, because of the drought conditions, we are not going to be 
able to burn. As a result, if you look at where we are at a 
point halfway through the year nationwide, you have less than 
30,000 acres that have been mechanically thinned.
    In the State of Arizona, this just concluded fire burned 
almost 500,000 acres. Through the mechanical thinning in 
Arizona, we have completed 821 acres and partially completed 
553 acres. I mean that is a pittance. I mean, clearly it is 
insufficient. It is inadequate.
    The GAO report of April 1999, which I know you are familiar 
with, referred to the Department's own--
    Mr. Rey. Regrettably, I think I had a role in its creation.
    Senator Kyl. Yes. Well, and it is a good report, because it 
referred to the Forest Service's own conclusion that 39 million 
acres on national forests in the interior West are at high risk 
of catastrophic wild fire--that is a quotation--because of the 
increasing number of large--excuse me, because of the over 
accumulation of vegetation.
    And later on in the report, the GAO under the heading, 
``Time Is Running out for Addressing the Catastrophic Wild Fire 
Problem'' says, ``In 1994, only a brief window of opportunity 
of perhaps 15 to 30 years exists for effective management 
intervention before damage from uncontrollable wild fires 
becomes widespread. More than five of those years have already 
passed,'' this is in 1999, ``leaving only about ten to twenty-
five years remaining.''
    Now, of course, we have another 3 years that have passed. 
However, there are not 39 million acres left, are there? I 
mean, how much has burned in the interim? Maybe 5 million acres 
roughly, more or less. So clearly, there is something wrong 
with a National Fire Plan that relies primarily on prescribed 
burning when we know we are not going to be able to get in and 
do that much prescribed burning. And we have a problem with our 
supplemental issue when we know that--or we assume that we are 
going to be redeploying staff and that that will reduce our 
ability to do fuels reduction programs this year.
    My hope is that we will be able to restore some of the 
funding by a supplemental appropriation in one place or another 
immediately, not waiting until September when it will be too 
late to obligate most of that money, because by then we will 
know that we have fallen behind.
    If by your own statistics taking the national numbers now, 
by mid-year you have completed about 30,000 acres of mechanical 
thinning out of 132,000 planned, and you have done about 
750,000 acres of prescribed burning out of over or about 1.2 
million that needs to be done, and we are not going to be able 
to do a lot more, then clearly we are going to fall short.
    I guess one question I would ask is whether you can assure 
us that even the minimal fire plan that is part of the U.S. 
Forest Service, will that fire plan be accomplished by the end 
of the year? And if not, will the additional or will additional 
funding to support more staff make it possible to at least come 
fairly close to the goals of the plan, achieving the goals of 
the plan?
    Mr. Rey. If we fail to make our fire plan targets at the 
end of the year, it will not be because of a lack of funding. 
It will not be from a lack of staff. It will be because the 
mechanical fuel treatment projects take a lot longer to 
prepare. They require at least an environmental assessment; in 
many cases, an environmental impact statement under the 
National Environmental Policy Act. And if present trends 
continue, roughly one-half of them will be appealed.
    Senator Kyl. And the result of those appeals is?
    Mr. Rey. Delays, which will put the completion of those 
projects into a subsequent fiscal year. Now, it may be that 
eventually we will have a rolling stock of projects, so that 
when they come out of the appeals process, they will go online, 
to be replaced in the appeals process by the current year's 
projects; or it may be that we will reach a greater degree of 
consensus that this needs to be a top priority.
    But you are absolutely correct that the reliance on 
prescribed burning, as a predominant fuel reduction tool, is 
neither part of our National Fire Plan strategy nor a 
sustainable strategy for addressing the problem that we 
currently see. Instead, we are going to have to develop a 
greater consensus around the proposition that our number one 
priority as a society is to thin these stands, and that doing 
so is going to require a greater degree of trust in one another 
that we are doing the thinning for the right reason and not for 
some real or imagined conspiracy to benefit the forest products 
industry or whoever else might be benefitted from it.
    As far as the staffing issues are concerned, those issues 
will not be resolved overnight by replenishing the accounts 
that we borrow from in this particular year. The people that we 
are talking about here are mid- to upper-level supervisors and 
managers. We are going to have to gradually ramp up that cadre, 
particularly since many of them are reaching retirement age, so 
that we do not have to suffer their loss from the fuel 
reduction projects when we move into Level Five preparedness 
during the fire season.
    But we will not be able to hire and train those people 
overnight. We are making a good start on that. Some of the 
people--many of the people that we hired as firefighters with 
the fire plan money that you provided in fiscal year 2001 will 
eventually be trained to become the supervisors, the next-level 
supervisors who will do both fuel reduction work and incident 
command work to run a Type Two or Type One fire incident.
    We just signed a memorandum of agreement with the 
Department of the Interior and the Department of Labor to open 
a training school in Sacramento on McClelland Air Force Base 
property to begin to move the firefighters that we hired with 
your help last year into the management ranks, and feel very 
good that the work that we are going to do through that 
training center will create the next generation of fire 
supervisors, the people that you met when you toured the 
Chediski and Rodeo fire incident command centers.
    Senator Wyden. The time of the Senator has expired, and we 
will have some additional rounds here momentarily.
    Senator Kyl. Oh, that is fine. Thank you.
    Senator Wyden. The Senator from California.
    Senator Feinstein. Thank you very much.
    Ms. Dorn, I would be hopeful that you would be able to 
settle this difference of opinion on the supplemental. I am 
chairman of military construction and that bill is being held 
up for need of resolution of this problem.
    And I would like to ask that you clear this up within the 
next day or so, if it is at all possible. I think it is clear 
to most of us that are appropriators that there is a shortfall 
of revenue, that it has to be made up, that it should be made 
up in the supplemental, that that is the appropriate vehicle. 
It is not military construction.
    And yet unless OMB moves, this is not going to happen. 
Hence, my appeal to you is: Please resolve this, because there 
is a major stumbling block now in the Senate that is 
essentially stopping appropriation bills from going forward, 
because of this problem.
    Ms. Dorn. Yes. Well, we have been working on the 
supplemental since late March, so we need to finish it for a 
number of reasons. But I take your point and we are--
    Senator Feinstein. Thanks.
    Ms. Dorn. Hopefully, we can resolve this issue and a whole 
host of others.
    Senator Feinstein. I hope so. Thank you.
    And, Mr. Rey, I actually think you are right on about your 
comments. You know, being a Westerner, being a Californian, I 
obviously am very concerned. We have the entire Sierra Nevada 
range in the highest risk of catastrophic fire. We have got 
very hot weather, very dry weather.
    We have a lot of dead and downed trees. About a third of 
the Tahoe National Forest is either dead or down. And I think 
you are right. I do not think you can solve this problem with 
burning.
    I think you have to put in a thinning. I think you have to 
put in defensible fire zones, which, of course, brings me to 
one of my favorite topics, which is Quincy. And I have been 
very disillusioned by the small amount of acreage that has been 
able, despite the passage of these bills and despite funding 
that has been available, to go ahead with this pilot project.
    I just want to say that I really understand the need to 
protect the canopy for marbled murrelet and for spotted owls, 
but if what I think can happen happens, we will not have any 
canopy left, because it is all going to burn up. So I think you 
are right on with what you said that there has to be thinning, 
there has to be defensible fire zones, there has to be a 
clearing out of a forest that is just immeasurably clotted with 
non-indigenous trees, with fire hazard all the way through it.
    I would like to ask you what you think you can do under the 
spotted owl guidelines, which now presents another obstacle to 
be able to move the Quincy project forward.
    Mr. Rey. I think I am just about as disillusioned as you 
are with the progress we have made under the Quincy Library 
bill. I would say as disillusioned, but I think you have earned 
the right to be more disillusioned than anyone with our 
progress. And I will not try to claim an equal degree of 
disillusionment.
    We are reviewing the project right now. It is my hope that 
before the year ends, we will have sorted out ways to make that 
project go forward as it was originally intended. It was 
originally intended as a 5-year pilot program. We are now 3 
years into, or by the time we sort this out, we will have been 
3 years into the program, so it will no longer be a 5-year 
pilot program.
    I believe once we think we have the right formula for how 
to sort this out and go forward, and address what has been an 
impediment to progress that I would like to work with you to 
see if we can extend the life of the program to give it its 
full 5 years. I think it deserves that. I think that is what 
every member of Congress voted on. And I think we owe the 
people of Quincy no less.
    Senator Feinstein. Thank you very much.
    Thanks, The Chairman.
    Senator Wyden. I thank my colleague. We will start another 
set of rounds of 5 minutes each.
    And let me begin with you, Secretary Rey. It is obvious 
that working with the environmental community is going to just 
absolutely be key to making any substantial progress on these 
issues that are so often polarizing.
    Describe for me, if you would, some of the work you have 
done to date in terms of working with the environmental 
community to address some of the outstanding issues. Thinning 
would be one, and some of the fire related forest management 
questions. Tell us what you have done to date to work with the 
environmental community and about any plans you have for the 
future and, again, in an effort to try to get some common 
ground and see if we can make some headway.
    Mr. Rey. The area where we have had the most sustained 
success is in working with the environmental community and the 
Western Governors in the development of the Ten Year 
Comprehensive Strategy and the Implementation Plan.
    We had long and very interesting conference calls with 
myself, my counterparts, the Department of the Interior, staff 
from the Western Governors and representatives of the 
Wilderness Society and the Natural Resources Defense Council. 
And at the end of the day, I think the resulting work product 
was a work product that we all not only agreed to, but felt was 
better for the effort that we put into trying to seek some 
consensus.
    We identified performance measures that we have agreed are 
reasonable and how to select thinnings and hazard fuel 
reduction activities. They are provided under Goal Two of the 
Ten Year Implementation Plan, which I will provide or it has 
already been provided to the committee, but I will provide it 
for the record of this hearing as well.
    And a good part of those performance measures were to 
continue to work with them in the selection of these projects. 
They believe that we should focus our efforts heavily in the 
wildland urban interface. We do not necessarily disagree with 
that, except for the fact that there are other areas, including 
the Santa Fe Watershed, which are critical, but which are not 
in the wildland urban interface.
    What we devised in one of our performance measures is a way 
to set priorities both within and outside of the wildland urban 
interface in selecting the projects that we ultimately fund and 
send through the environmental analysis process.
    We are still going to, however, get a lot of appeals. What 
I have asked the Forest Service to do and what I have tried to 
do with some success, although not complete success, is try to 
avoid making the appeals issues an exercise in blaming one 
another for why this work is not getting done more quickly.
    I do not think that is helping anyone, for getting the 
projects moving forward. I can tell you that as I look at the 
appellant record for this year's mechanical treatment projects, 
there is a reason to be somewhat optimistic. If you look at who 
the appellants are, they are not by and large the national 
middle-of-the-road environmental groups. You do not see the 
National Wildlife Federation, the Defenders of Wildlife, the 
Earth Justice Legal Defense Fund, or with one exception, the 
Wilderness Society.
    What you see are regional groups, who take a more hard line 
position, I guess you would say, and have in the past indicated 
that they believe that any timber harvesting has objectionable 
aspects to it.
    I do not know whether I am helping the situation by 
singling out some groups for a compliment or not, but I think 
it is worth noting and laudatory that some groups are beginning 
to move in the direction of working with us to identify where, 
you know, areas where we can establish priorities to get this 
work done. And I am committed to meeting with them whenever 
they want to meet to that end.
    Senator Wyden. Well, I will say publicly what I have told 
you privately: I think the name of the game is finding ways to 
make it less attractive to have these appeals. I mean, we found 
that on the county payments legislation, made it attractive for 
people to work together rather than sue each other.
    Do not just wait for somebody to call you. I think it is 
incredibly important that you constantly be looking for ways to 
find some common ground in this regard and, as you know, I am 
going to continue my efforts this year to try to do that in 
some areas as well.
    Another question for you, Mr. Rey. I know that there has 
been considerable discussion in the Forest Service about 
analyzing process predicaments to look at factors that can 
contribute to delays, and people are now contacting, you know, 
us about various Forest Service grants and contracts that have 
already gone through all of the NEPA processes and clearance 
processes, and were ready to be issued, and they are now being 
pulled back to pay for firefighting.
    What do we do about this situation, because it really is 
getting acute in a lot of parts of the West?
    Mr. Rey. If they are fuel reduction projects, they should 
not be being pulled back; and if you can get me the names of 
the projects, I will make sure that they are not.
    I wanted to, if I could, respond to an earlier comment you 
made about firefighting resources.
    Senator Wyden. Good.
    Mr. Rey. There are frequently incidents where our local 
firefighters believe they need more resources. We rely heavily 
on the experts at our Incident Command Center in Boise, Idaho, 
to allocate resources throughout the West and to make sure that 
each fire is properly staffed. That is the value of an Incident 
Command System.
    Whenever we hear rumblings from local firefighters like the 
ones you recounted, we will call the people at Boise and ask 
them to justify the incident--the resources they have deployed 
on a particular fire. So far, I have done that probably three 
times this summer.
    In each instance, Boise has left me feeling comfortable 
with an acceptable answer about the level of resources we have 
deployed to a particular fire. One of the things about fires, 
though, is that they attract a lot of people who want to help 
and sometimes that is helpful. Sometimes it is not.
    If you read the cover story on The New York Times a week 
ago this past Sunday, what you read was an unfortunate 
situation where a lot of New York firefighters came in on a 
voluntary basis, were unaccounted for by their incident 
commanders, and perished in a fire where nobody even knew they 
were onsite, and that is why we put a lot of trust in our 
incident command system. It has not failed us yet. And I hope 
it does not.
    Senator Wyden. Thank you. I am not going to make this a 
headline derby, you know, debate, because I already read the 
headlines of the Oregonian.
    Mr. Rey. We are going to check on that.
    Senator Wyden. Good. That is what I would ask, because my 
concern is it was with respect to the OMB's math. And what we 
are hearing from BLM people out in the region is that this need 
is acute, and, you know, to me it is just immaterial whether it 
is proposed by the administration or it comes from Congress. I 
mean, this waltz is of absolutely no benefit to all of these 
people hurting.
    I think we have to figure out a way to get from the point 
Ms. Dorn touched on earlier, that discussions were ongoing, to 
getting people a sense that people in Washington, D.C. get it 
and understand how serious this is.
    With respect to the projects, Secretary Rey, you know, I 
have got a long list of them in Oregon, Road Decommissioning, 
in Carol Creek, Noxious Weed Treatment in Hell's Canyon, the 
Forest Stewardship Project. We will get you that list. I know 
there is a list in New Mexico. We have got to get those 
resolved.
    And my 5 minutes are up. I know that Senator Kyl is here. I 
note that Senator Cantwell, I do not think, has had any 
questions yet.
    Have you had a chance to ask--
    Senator Cantwell. I will go ahead and submit--
    Senator Wyden. Well, that is even better.
    And let us go with Senator Kyl.
    Senator Kyl. Okay. Thank you, Mr. Chairman.
    Secretary Rey, I heard your comments about urban interface. 
You heard my opening statement. Would it be beneficial, do you 
think, for the agency to have more flexibility in how to 
allocate funds and not have a limitation in the appropriations 
bill to a fixed 70 percent of the funding for urban interface?
    Mr. Rey. I think that would be very helpful. What we agreed 
to as part of the Ten Year Implementation Plan is that we would 
look at the wildland urban interface and other areas that are 
in condition Classes Two or Three in Fire Regimes One, Two, or 
Three outside of the wildland urban interface as our top 
priority; and that in the latter category of areas, they be 
identified as a high priority through collaboration with our 
State and local and private partners. We picked condition 
Classes Two and Three because those are the worst condition 
classes; Fire Regimes One, Two, or Three because those are the 
areas where fires revisit more frequently. And that seemed to 
be a way of segregating the areas that are most at risk.
    We do have a lot of areas outside the wildland urban 
interface that deserve a high priority either because they are 
municipal watersheds, they are areas of high environmental 
value, they are threatened or endangered species habitat, or 
other of a variety of reasons. And we should, if we can go 
through a logical prioritization process that involves some 
cooperation, be able to do that without regard to some 
arbitrary 70/30 split.
    Senator Kyl. Thank you. The second question really follows 
on with that regarding the Ten Year Plan and the goals that the 
Forest Service stated in the preparatory to this GAO study. By 
my calculations, the amount of money, something over $400 
million per year, that is being requested will treat about half 
of the area that would have to be treated in order to meet 
these goals more or less.
    A, is that accurate? And if so, what can we do to increase 
the amount of land treated? Should we be asking for more money? 
Should Congress be appropriating more money? And as a part of 
that, do you think that you will be asking for a greater mix of 
thinning in the Ten Year Plan, recognizing that we are not 
going to be able to achieve, at least in these drought 
conditions, what we need to with regard to prescribed burning? 
And that in many cases, the forest is too far gone just to do 
prescribed burning anyway.
    Mr. Rey. It is our intention in working with our partners 
in the National Fire Plan to ramp up, with Ms. Dorn's 
assistance, the funding necessary to achieve the goals of the 
plans and also to work with the States so that there is some 
matching funds that they are providing as well as some of our 
other local partners.
    That cannot happen overnight, because it is not just money. 
It is capability and agency expertise that has to be ramped up 
as well.
    We will, by necessity, be looking at a larger component of 
mechanical treatments in the overall mix. Prescribed fire is 
most useful for maintaining less or in a less expensive way a 
stand, once we have it close to the condition that we want it 
in. But we are not going to prescribe burn under any scenario 
of the vast majority of overstocked stands in the Western 
United States, because we cannot do it safely.
    Senator Kyl. All right. Thank you. And finally I believe 
that the Forest Service has both the funding and the legal 
ability and the personnel ready to do salvage on the fires that 
are occurring right now or have just been put out. A, is that 
true? And, B, are you aware that the BIA--does the BIA have any 
limitations? About 80 percent of the Rodeo, Chediski fire in 
Arizona was on the White Mountain Apache Reservation, as you 
know.
    They were very anxious to get in there and do whatever 
salvage they could do, and I am just wondering if you are aware 
of any limitations. Their bear study should be out very 
quickly, or report should be out very quickly here, but I just 
want to make sure if there are any limitations on that that we 
are able to address them, if possible.
    Mr. Rey. The Forest Service funds salvage activities as 
part of restoration work through a revolving fund, so I believe 
we will have the capability to do what we need to do on Forest 
Service lands, although I dare say that there will likely be 
some appeals associated with the salvage activity since there 
usually are.
    I do not know whether the Interior has a similar revolving 
fund account or whether you would rely on other means, so I 
will ask Mr. Hartzell to speak to that.
    Mr. Hartzell. Senator, we have been working closely with 
the tribe on their stabilization efforts and they have a plan 
that is going to be funded, and they are also talking to us 
about longer term rehabilitation and restoration.
    They have not brought up the issue to me about salvage of 
burned timber being a problem. And they have not indicated that 
there will be any impediments, but we will follow up after the 
hearing and clarify that issue. And if there are any issues, we 
will get back with you.
    Senator Kyl. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Wyden. The Senator from Washington.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Rey, I had a few questions just to follow up on some of 
the topics already covered. Some of my colleagues have asked 
questions that I would have asked, so I appreciate your answers 
to those. And just to follow up on a few, can you give us a 
precise definition of what the Forest Service would use to 
define mechanical fuel treatments?
    Mr. Rey. Mechanical fuel treatment would basically be 
thinning stands, using either chain saws or a mechanical 
harvesting. If it is a non-commercial thinning, we would 
probably lay the material down and maybe drum chop it, if we 
can, to break it up as fuel.
    If there is commercial value to the material, then we would 
probably try to dispose of it by selling it and conduct the 
activity either as a timber sale contract or subsequently sell 
the commercial material in a commodity contract.
    Senator Cantwell. So given that definition, just about 
anything that removes wood from the forest is a mechanical?
    Mr. Rey. No. I left one part out. The primary purpose of 
the activity has to be to improve the condition class of the 
forest and not to generate commercial revenues. I mean, we do 
have commercial timber sales--
    Senator Cantwell. So a large clear cut would not fit that 
definition?
    Mr. Rey. No, a large clear cut would not be thinning.
    Senator Cantwell. What about a small?
    Mr. Rey. Probably not. The objective of thinning is to 
reduce the number of stems per acre. There may be cases where 
we are creating defensible fuel spaces, where we are clearing 
off all the material in a linear strip, but thinning projects 
are generally not clear cuts, even small clear cuts.
    Senator Cantwell. And so then in your moving forward on the 
fire plan, the highest priority of hazardous fuels reductions 
will still be in the urban interface?
    Mr. Rey. The way I would prefer to express it is that we 
will work with our State and Federal partners and local people 
to assess priorities. What we have agreed to is that our two 
highest priorities are the wildland urban interface and areas 
in Condition Classes Two and Three, which means they are in the 
most extreme fuel load situation with the largest, most dense 
number of trees per acre in Fire Regimes One, Two or Three, 
which are the parts of the country where fire is a more 
frequent visitor as opposed to west of the Cascades, where fire 
is infrequent.
    We have, I think, got a broad agreement that those are the 
kind of areas that ought to be our top priority, and that will 
select fuel reduction projects first together as a Federal 
establishment with Interior and Agriculture working together, 
and then in collaboration with our State, local and private 
partners, including environmental groups who will work with us 
to that end.
    Senator Cantwell. Obviously, you have worked with us on the 
issues related to the 30-mile fire investigation, and I think 
that sometime in the last couple of months, the Forest Service 
released basically an administrative review of the 30-mile 
fire--much of which was redacted. So obviously the committee 
has asked for that redacted information obviously for their own 
personal use, not for public consumption. When are we going to 
see that?
    Mr. Rey. Under the personnel rules when we proposed a 
personnel action, which we have done here against 11 employees, 
the employees have 30 days to respond to try to convince us 
that we have some of the facts wrong, that the action that we 
are proposing is unwarranted.
    At the end of that 30 days, we finalize our decisions. The 
time clock on the time they have available to respond to our 
proposals is the end of July. We will promptly finalize our 
decisions thereafter.
    We would be happy to provide the committee an unredacted 
version of the report at that time. I am reluctant to offer it 
to you now, for the following reason: Under our personnel 
rules, the time period during which our employees are allowed 
to respond--
    Senator Cantwell. No, I understand.
    Mr. Rey. Okay.
    Senator Cantwell. So you think that is what? The beginning 
of August or--
    Mr. Rey. Yes, probably along about the second week of 
August or thereabout.
    Senator Cantwell. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Wyden. Only one other question for me, and then 
perhaps the Senator from Arizona has other questions as well.
    In 2000, Secretary Rey, the Congress required the agency to 
publish a list of the wildland urban interface communities 
within the vicinity of Federal lands that were at high risk. 
GAO looked at the agency's August 2001 list and was pretty 
critical of it. They said there were not well established 
criteria. And as a result, more than half of the high-risk 
communities were, in effect, missed.
    What has the agency done to go back and try to correct what 
looks to be, from the General Accounting Office, to be a pretty 
significant mismatch in terms of what Congress ordered?
    Mr. Rey. Well, first I think the GAO had a pretty good 
reason to be critical of that first list. That first list was 
an effort to work with the communities so that they had the 
opportunity to offer us their views about whether they were at 
risk. And the list does not contain what we believe to be the 
necessary prioritization.
    One of the performance measures in the National Fire Plan 
is to begin to narrow down that list, working with the States. 
And I will let Mr. Truesdale or Mr. Hartzell, if they want, 
elaborate on the progress we are making to date in that effort.
    Mr. Hartzell. Senator, Mr. Rey spoke to the collaborative 
process that we have agreed to in the implementation plan. We 
require all of our Federal agencies, along with the State 
representatives from the State forest and local communities to 
sit down collaboratively every year to identify priorities, 
including those communities most at risk that we ought to 
target fuels treatment projects toward.
    So there will be a continual annual refinement of those 
communities at risk and a continual refinement of the fuels 
treatment projects that are most needed to minimize impacts to 
communities and the environment.
    Senator Wyden. All right. I am going to let Senator Kyl 
ask, if he has any questions. But I want to just, as I wrap up 
this round and we will excuse you after Senator Kyl's 
questions, just come back to the seriousness of this budget 
situation.
    This is something that I have heard again and again and 
again across the rural West, and if this is seen as something 
where the administration does not like what the appropriators 
do and the Congress does not like what the administration does, 
this just leaves those families throughout the West, the ones 
that are hurting already, that much more cynical that their 
government is not on their side.
    My sense is that if you take the most considerable possible 
math out there, OMB's own math, which is the one I was trying 
to cite, we desperately need this money. So we ask only that we 
get beyond the issue of having these ongoing discussions, which 
seems to be, or it almost seems like the longest running battle 
since the Trojan War. It just kind of goes on and on with this. 
We need to get this done.
    And we get it done, and then we go onto the question of 
breaking the cycle, which is really what the fire plan is all 
about. The point of the fire plan was to say all throughout the 
West, people understand there has been a cycle. You have fire. 
You have fire suppression. You have the question of what 
happens with fuels reduction money, and it will be a strip, so 
to speak. It just goes round, and round, and round.
    And the point of the plan is to break that cycle, but it is 
hard to talk about breaking that cycle over 10 years when 
people are facing such anguish today.
    Ms. Dorn. Senator, can I just make a quick comment?
    Senator Wyden. Of course.
    Ms. Dorn. And that is to say that in the last couple of 
years we have put an increased amount of resources into fire 
suppression, prevention and other accounts. The fire account 
has grown over the last couple of years, and I think this 
summer has been an eye-opening experience for us.
    We are not trying to play games with this. We would like to 
get away from these contingent emergency accounts that have 
earmarks in them, and just do this in a straightforward way.
    We have also talked about maybe trying to put the fire 
money in a more flexible, you know, sort of trust fund kind of 
deal, so that when we do have more active fire years, we are 
not coming up here and they do not become vehicles for 
supplementals that other things attach to them. We will be 
looking at this in the very near future as we put together the 
2004 budget and I think you are exactly right. We need to find 
a way to deal with this that takes some of the irrationality 
out of it and some of the high swings and low swings out of it. 
So work--
    Senator Wyden. Let us deal with it for the next cycle, but 
let us try to get some help quickly to the people that are 
hurting. I think that Senator Domenici spoke for a lot of us. 
This is going to get done one way or another. And what is going 
to happen is if we cannot come to some resolution of this, it 
is going to be more expensive and more people are going to 
needlessly suffer than I think anybody would want to see.
    I am going to recognize Senator Kyl, if he wants to wrap up 
this round. I mean you saw across this side of the dais, 
particularly a message for people at OMB, from Senator Domenici 
to several Democrats who have come back off and on over the 
last 2\1/2\ hours, how important we regard this issue. We are 
anxious to work cooperatively with you and in a bipartisan way, 
but it has got to get done.
    Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    We have a lot of other questions and particularly, I know, 
of Secretary Rey, but I believe that because of legislation 
that you and I will be introducing that seeks to try to 
streamline the process for getting approval of projects, not to 
deny any appropriate substantively--substantive legal 
challenge, but to try to at least remove this element of delay 
that you spoke to earlier, our legislation is going to try to 
do that, and I am hopeful that in that context we will have a 
quick hearing and we will be able to bring you back and get 
some more ideas with respect to that. And then with respect to 
the last comment you made, of course, I concur.
    But you skipped over one year, and if I could make this 
plea: I know that the fundamental reform or restructuring with 
respect to an emergency fund versus other kinds of funding will 
presumably have to wait till the 2004 fiscal year budget. But 
just as September 11 changed everything with respect to funding 
as well as other things relating to homeland security and 
national security, I think it is evident by now that we need to 
build on the increases in funding that the Bush administration 
has put into the budget for prevention, for the fuels 
management kinds of programs we are talking about, and that 
that needs to be reflected in the fiscal year 2003 budget.
    I know that it is late in the game for the 2003 budget, but 
otherwise we would be relegated really to beginning to work on 
this in October 2004, and that is a long time to defer some of 
the things that have to be done given the degree of urgency 
that the GAO and, I think, all of our land managers attach to 
the desirability of getting these forests treated in the proper 
way.
    So I would just urge you to take back to the Director and 
others in the administration the expressions of urgency that 
you heard here, and to the extent that funds can be available 
for fiscal 2003 to work with us to make sure that those are 
included, and obviously that means working with the 
appropriations committee.
    And I take your point that that means having the 
appropriations committee be honest about the allocation of 
those funds, differentiating between the contingency and the 
actual funding of firefighting.
    Ms. Dorn. Yes.
    Senator Kyl. That is, you need to be explicit in your 
comments as you were in your written testimony and make the 
point, because it appears to me to be a valid point.
    Ms. Dorn. We have gone, Senator, from $85 million in 
hazardous fuels management in 2001 to a $228 million request in 
this fiscal year. And we have expectations that the Congress is 
going to appropriate that money. And we will work with them to 
make sure that that account is taken care of.
    Mr. Rey. Additionally, if you are successful in securing 
some consensus for some of the process changes that you were 
referencing, that should decrease our unit costs for doing this 
kind of work and stretch the dollars further.
    Senator Kyl. Right.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague and because of his 
clarifications, I think we now have the math as definitive as 
we can get. We need help on the emergency supplemental for 
2002, and then we are looking to try to get it right for 2003 
and 2004.
    And I also want to say to my colleague, I very much look 
forward to working with him on some of these issues to make it 
attractive for people to find the common ground and stay away 
from appeals. As Secretary Rey knows, we were able to do that 
on the county payments bill. We made it attractive for people 
to see that it was in their interest to work together. And I am 
committed to working with the Senator from Arizona to doing 
that here.
    Unless there is anything that you all would like to add 
further, we will excuse you at this time. Any of our witnesses 
want to add anything further?
    [No response.]
    Senator Wyden. You are excused at this time.
    Our next panel, Lynn Jungwirth, executive director of the 
Watershed Research and Training Center; William Wallace 
Covington, director of the Ecological Restoration Institute; 
and Todd Schulke, forest policy director of the Center for 
Biological Diversity.
    [Pause.]
    Senator Wyden. All right. The hour is late. We very much 
appreciate your patience. We are going to make your prepared 
statements a part of the hearing record in its entirety. And if 
you would, just take your 5 minutes or so and summarize your 
principal concerns.
    It is good to have you back, Ms. Jungwirth. We know of the 
good work that you all are doing, and just please proceed.

            STATEMENT OF LYNN JUNGWIRTH, DIRECTOR, 
                 WATERSHED CENTER, HAYFORK, CA

    Ms. Jungwirth. I am here to just speak to one issue, and 
that is the issue of expediency. I think it was amazing that 
this hearing started out with everyone speaking of an emergency 
and a crisis, and we ended up being reassured by OMB and the 
Forest Service that ``Everything is just fine and under 
control, thank you very much.''
    While I appreciate their confidence, I have to tell you 
that my experience in the forest and my experience working with 
the forest communities of the West, which I do every day, would 
not lead one to have that level of confidence.
    What has happened with this borrowing, which we have all 
been assured will be repaid sooner or later, is that it has put 
terribly important, critical, crucial projects on hold 
indefinitely. Now, what does that mean? That means that the 
very contracting small business workers and families that you 
are going to rely upon to do the restoration work are going 
broke. They have been going broke for about the last ten years 
as the timber industry has shut down.
    Those who held on, who retooled, who reeducated themselves 
to do ecosystem management and restoration are relying upon 
those restoration jobs that are now on hold. Those communities 
that are trying to figure out what to do with small diameter 
material were relying upon the grants that are now on hold.
    Well, maybe the Federal Government can on-hold its payments 
to itself, so that next year takes this expense, but who did 
they really borrow from? They borrowed from those small 
contractors, the contractors who had been awarded contracts, 
who geared up for contracts, and are now being told, ``Sorry, 
it is on hold. Your equipment payment is on hold. Your workers' 
salaries is on hold so that we can borrow the money next 
year.''
    For them, this is a crucial issue. If you want to have a 
work force to help you garden that forest, to help you do the 
restoration work, you have to protect those people. They have 
not been protected for a very long time. You are starting to 
lose them.
    I encourage you to keep the pressure on OMB. This is not a 
simple thing. It is not, ``Oh, by October, maybe we will figure 
out what the real number is, and then we can release the 
funds.''
    These are crucial programs. You either take care of the 
roads, take care of the forests, do this restoration work, or 
you will lose it. Bankruptcy by either industrial forestry or 
no forest management is not acceptable to the people of the 
forest. We want to live there. We want to help you take care of 
it. We do not want to live in an ashtray.
    So we will be there. You help us get the funds to do the 
restoration, and we will do it.
    Thank you.
    [The prepared statement of Ms. Jungwirth follows:]

            Prepared Statement of Lynn Jungwirth, Director, 
                     Watershed Center, Hayfork, CA

    Thank you for the opportunity to provide a perspective from rural 
forest-dependent communities on issues related to emergency wildfire 
suppression funding and the current situation we are all facing in the 
West. We believe the challenge is for Congress and the Administration 
to find a way to fund emergency wildfire suppression costs as quickly 
as possible so as 1) to maintain other programs critical to addressing 
long-term wildfire concerns and 2) to avoid significant social and 
economic consequences in many rural forest-dependent communities.
    The Watershed Center is a community-based, worker organization, 
started in 1993 to help our community of Hayfork and Trinity County 
adjust to the social and economic changes caused by the Dwyer decision 
and the subsequent Northwest Forest Plan. We have helped develop 
community infrastructure for the transition from a timber-based economy 
to an economy dependent upon ecosystem management, watershed 
restoration, and the health and welfare of threatened and endangered 
species, such as the Northern Spotted Owl and the Coho Salmon. We also 
helped develop worker training programs, small-diameter timber 
utilization projects, collaborative stewardship projects, monitoring, 
local and county level fire plans, and research on non-timber forest 
products. We have implemented restoration plans for the Trinity River 
and forest health projects in the Trinity and Six-Rivers National 
Forests. We are a community of innovators and implementers, trying to 
take the evolving science and policy direction and help develop 
practical programs that sustain both the forest and our community.
    I also interact with community networks regionally and nationwide. 
The Watershed Center coordinates the Pacific Northwest Regional 
monitoring team for the USDA Forest Service stewardship contracting 
pilots. We have also worked with other community-based groups from the 
Okanagen to the Mendocino, including the Applegate Partnership Group 
and the Quincy Library Group, the Mattole Restoration Council and the 
Hoopa Tribe. As former Chairperson of the Communities Committee of the 
7th American Forest Congress, I have worked with a network of 
nationwide community leaders and practitioners to heighten awareness 
and understanding of the interdependence between forests and 
communities. Many of us have worked on projects to restore healthy 
forests and watersheds, while building local capacity through workforce 
training and the development of small nonprofit groups and business 
enterprises. Of relevance to this hearing, I served as a community 
representative on the Western Governor Association's efforts to develop 
a ten-year comprehensive wildfire strategy.

           A COMMUNITY-BASED APPROACH TO ADDRESSING WILDFIRE

    As a group of community-based forest practitioners, we have been 
closely engaged in national policy discussions over the past few years 
about how to address wildfire concerns. In general, we have been 
enthusiastic about the policy frameworks put together at the urging of 
Congress to deal with these issues. The National Fire Plan developed by 
the Forest Service and Interior Department places significant new 
emphasis on hazardous fuels reduction, on assisting and working with 
communities, and on accountability. We agree with the General 
Accounting Office (GAO-02-259) assessment that ``the National Fire Plan 
advocates a new approach to wildland fires,'' an approach that ``shifts 
emphasis from reactive to proactive--from attempting to suppress 
wildland fires to reducing the buildup of hazardous vegetation that 
fuels severe fires.'' The 10-Year Comprehensive Strategy developed 
through the Western Governors Association in cooperation with the 
federal agencies and other state and local entities, including Tribal, 
environmental, private landowner, and community-based forestry 
representatives, contained a similar emphasis on the need for long-term 
investment in hazardous fuels reduction activities. It also gave 
further emphasis to the importance of collaboration with local 
communities and to monitoring the results of activities for 
accountability and learning.
    We in the community-based forest movement have developed a 
framework for addressing wildfire that seeks to integrate wildfire 
concerns with the broader goals of ecosystem restoration and social and 
economic development in rural communities. A ``community-based approach 
to wildfire management'' means:

  <bullet> involving communities through collaborative processes,
  <bullet> investing in activities to restore the health of natural 
        systems and nearby communities,
  <bullet> using both scientific expertise and on-the-ground knowledge, 
        and
  <bullet> developing a system of monitoring, accountability, and 
        learning.

    One of the central elements of this community-based approach is 
sustained investment in preventative measures aimed at restoring forest 
ecosystems to conditions that are more adapted to wildfire and that 
reduce the risk of destructive wildfires. These types of preventative 
measures also help build capacity in rural communities to sustain a 
variety of restoration and stewardship activities in forests over time, 
involving skill training and job opportunities for a restoration 
workforce and the development of non-profit organizations and small-
scale business enterprises. Although we recognize the need to maintain 
strong financial support for fire suppression activities, we believe it 
is a better long-term investment for Congress and the Administration to 
emphasize greater funding for preventative fire measures through 
communities than to continue increasing funding for fire suppression. 
Investing in preventative measures now is the only way to reduce 
suppression costs in the long-term. We have included a side-by-side 
comparison presenting some of our rationale for this perspective.

 TRADITIONAL COMPARED TO COMMUNITY-BASED APPROACHES  TO FIRE MANAGEMENT
  [Prepared by Cecilia Danks and Lynn Jungwirth, Watershed Research and
                            Training Center]
------------------------------------------------------------------------
                                           Community-based approach  to
Traditional approach to fire management          fire management
------------------------------------------------------------------------
Fire is seen as catastrophic             Fire plays a vital role in
                                          maintaining and restoring
                                          ecosystem health
------------------------------------------------------------------------
Fire is suppressed                       Fire is used as one of many
                                          tools to improve forest
                                          health, reduce the risk of
                                          large-scale fire, and fight
                                          fires that pose risks to
                                          forest or community well-being
------------------------------------------------------------------------
Majority of funding is allocated to      Majority of funding is
 suppression activities, with little      allocated for fuels-management
 funding fuels management                 with resources available for
                                          emergency suppression
                                          activities
------------------------------------------------------------------------
Traditional science is used to the       Traditional science is combined
 exclusion of local knowledge             with local knowledge
------------------------------------------------------------------------
Management capacity is centralized       Management capacity is
                                          decentralized
------------------------------------------------------------------------
Special crews, such as incident command  Crews are place-based and multi-
 teams and hotshot smoke jumpers, are     purpose with skills to address
 mobilized                                fire, fuels, and ecosystem
                                          management needs
------------------------------------------------------------------------
Communities are viewed as populations    Communities are viewed as
 to protect                               populations to engage in
                                          decision-making and
                                          implementation activities;
                                          management is integrative
------------------------------------------------------------------------
Activity is short-term and intense       Provides the opportunity to
                                          invest in long-term objectives
                                          and activities
------------------------------------------------------------------------

                       THE CURRENT FUNDING CRISIS

    As community-based forest practitioners have engaged in efforts to 
implement the National Fire Plan and the 10-Year Comprehensive 
Strategy, we have sought to work collaboratively with the federal 
agencies on those priorities of greatest importance to us. We have 
worked with the agencies on community fire planning to help build 
common understanding of local priorities and on efforts to plan, 
implement, and monitor hazardous fuels reduction and other forest 
restoration projects. We were pleased with and have sought to build on 
new authorities and investments under the National Fire Plan (Title IV 
of the FY 2001 Interior Appropriations bill and Title II of the FY 2002 
Interior Appropriations bill) which allow the federal agencies to use 
cooperative agreements, grants, and contracts with community-based 
organizations in implementing hazardous fuels reduction activities. The 
contracting provisions also authorize the agencies to consider social 
and economic benefits to rural communities when weighing competitive 
bids and to let contracts on a ``best-value basis.'' These authorities 
and the federal investments in hazardous fuels reduction activities are 
critical to community groups hoping to realize our vision of 
integrating forest restoration activities with rural development. This 
investment by Congress is also a critical means for the agency to 
engage with diverse interests and local partners to develop community-
based wildfire strategies and projects that can be openly designed, 
implemented, and monitored. In addition, increased funding under the 
National Fire Plan for the Economic Action Program (EAP) has been 
critical to our efforts. Community groups have found the EAP programs 
to be the most effective Forest Service programs to help build 
community capacity to work collaboratively with the agencies and to 
address emerging issues with innovative responses. EAP dollars have 
also been some of the most effective funding on the ground under the 
National Fire Plan. Approximately 150-200 projects were developed and 
implemented with EAP dollars allocated under the National Fire Plan in 
FY 2002.
    Community-based forestry groups have had various experiences in 
working with the federal agencies on these National Fire Plan programs. 
In some regions and some places, they have had greater success in 
developing collaborative plans and projects than in others. The goal of 
most community groups is to build on the National Fire Plan program 
authorities and funds to develop a ``consistent program of work'' 
through which they can build and sustain a local workforce and 
infrastructure for forest restoration work. A consistent program of 
work requires consistent authorities and funding.
    The current crisis in wildfire suppression funding, brought on by 
this year's extraordinary fire season, and the Forest Service Chief's 
July 8th directive to stop or defer funds for many important projects 
those not related to fire suppression has caused concern and outrage 
among many community forestry groups. The Chief's action might be 
warranted and necessary given the lack of emergency suppression funds 
forthcoming from the Administration and Congress, but it will have dire 
consequences for community forestry groups that have been working 
diligently to develop community fire planning, hazardous fuels 
reduction, and restoration projects with federal agencies, only to have 
the funds pulled away for fire suppression. It will also have 
significant consequences for the ecosystems on which they are supposed 
to be implementing restoration projects. Over the next several years 
there is an urgent need to invest adequately in fire suppression and 
forest health. Without necessary and sufficient investment in both 
areas we cannot resolve the root causes of the current wildfire crisis 
and protect lives, homes and property. With dual investment, we can 
improve the condition of our National Forest lands and reverse the 
economic stagnation of forest-dependent communities across the West. In 
short, we need an investment in the full mission and purpose of the 
National Forest Service.
    We urge the Administration and Congress to provide immediate 
emergency funds for FY 2002 wildfire suppression costs. Without these 
funds, communities all over the country that have worked persistently, 
creatively, and collaboratively with federal agencies to develop 
agreements and contracts to get the preventative work--the hazardous 
fuels reduction and forest restoration work--done will suffer. This 
directive will have tremendous impacts on virtually all communities. 
The development of a restoration and stewardship workforce takes time 
and sustained commitment. While many in the local workforce benefit 
from fire suppression work, this type of work does not create the 
foundation for a sustained business transition. We believe that the 
House and Senate Appropriations committees are likely to provide 
supplemental FY 2002 funds for wildfire suppression along with the FY 
2003 Interior Appropriations bill, but if these funds are not available 
until October of this year, many of the impacts will still be felt 
instantly by communities, and they could have longer-term consequences. 
Therefore we urge you to take action immediately, so critical work by 
community groups other than fire suppression can continue.
    The actual impacts of the Chief's directive to stop or defer a 
large number of activities not related to fire suppression are 
difficult to assess. Many people in the agency's field offices were 
expecting such action, but the July 8th directive came down with 
greater than anticipated severity. Because projected wildfire 
suppression costs for the year kept escalating over recent weeks, the 
need to ``borrow'' funds from other agency programs also increased. 
Projected suppression costs reached $966 million, three times the 
appropriated level of $321 million for the year. Therefore, agency 
officials who had been cautiously awaiting the directive found 
themselves having to pull and defer funds beyond their highest level of 
projections. Rather than being a slow withdrawal of projects related a 
small number of budget programs (EBLIs), many budget programs and a 
large number of projects were affected. The impacts of the directive 
came as a shock to agency officials on the ground, and an even greater 
shock to affected community groups. The impacts of the directive are 
immediate and pervasive, potentially stopping the majority of grants 
and agreements with community groups, if projects are not directly 
related to fire suppression. Four key provisions of the directive 
affecting communities are:

  <bullet> Do not obligate funds for execution of any land acquisition 
        or forest legacy projects.
  <bullet> Do not issue any grants or agreements that will result in 
        obligations of FY 2002 or prior year funds.
  <bullet> Defer award of any non-emergency contracts for any purpose 
        other than those contracts required for critical on-going 
        business.
  <bullet> Defer any procurements of non-critical projects and 
        acquisition.

    Wallowa Resources, one of our community partners in northeastern 
Oregon, has scrambled to assess some of the impacts of the Chief's 
directive on their work with the Forest Service and with the State of 
Oregon. As I said, this process is moving very fast and is difficult to 
assess. However, from what Wallowa Resources can determine, a number of 
projects that they have been developing for some time with the agency 
will now be stopped, including:

  <bullet> A road decommissioning project on Carol Creek;
  <bullet> Noxious weed treatment in Hells Canyon National Recreation 
        Area focusing on restoration of the burned areas from the 2000 
        and 2001 wildfires (combined total of more than 125,000 acres);
  <bullet> Stream restoration activities involving fencing;
  <bullet> Seed collection activities for native plant restoration 
        work;
  <bullet> $12,000 for implementing a community planning process;
  <bullet> A forest stewardship project called Big Haus.

    In addition, Wallowa Resources learned that funding coming through 
the Oregon Department of Forestry for hazardous fuels reduction 
activities in the wildland-urban interface ($125,000) would likely be 
stopped by the directive. For one small rural community to take so many 
hits as a result of the Chief's directive is an outrage. Diane Snyder, 
Executive Director of Wallowa Resources, would like to have been here 
today to discuss the impacts, but other commitments didn't allow her to 
attend this hearing. Besides disrupting these projects, many of which 
were coming to fruition after months or years of work, and putting 
people out of work in a completely unplanned, unexpected way, the 
directive can have long-lasting negative impacts in Wallowa County by 
further diminishing the local infrastructure for forest restoration and 
the vital efforts of groups like Wallowa Resources to help establish 
innovative and sustainable forest stewardship activities that can 
sustain community well being. Similar impacts are likely to be 
experienced in Grant and Harney counties of Oregon due to the loss of 
expected funds for a $250,000 small-diameter thinning and fuels removal 
project that local communities had worked on with the Malheur National 
Forest for a long time. The loss of these funds, just as the 
communities and contractors were gearing up to implement projects, are 
likely to have the following consequences:

  <bullet> Loss of contracting capacity and infrastructure within Grant 
        and Harney counties;
  <bullet> Loss of confidence in future community collaboration 
        efforts;
  <bullet> Loss of potential secondary wood processing and biomass 
        businesses;
  <bullet> Loss of more than $100,000 from a National Fire Plan grant 
        that was already awarded to purchase equipment.

    These are just a couple of examples from communities anticipating 
the effects of the Chief's directive, but such effects will be felt in 
communities across the country, and they will greatly impede the 
agency's efforts to meet the goals of the National Fire Plan related to 
hazardous fuels reduction, forest restoration, and community 
assistance.
    In addition, in a statement before the House Resources Committee on 
gridlock in the Forest Service, Chief Bosworth commented on the need to 
create incentives and support for community collaboration because of 
the innovative and potentially enduring solutions from broad-based 
community groups for our most pressing natural resource concerns. 
Without the necessary suppression money, which in turn will allow 
restoration work to continue on the forests, we will have further 
disincentives for restoration. There is a fundamental disconnect 
between the direction the agency says it is going--towards community-
collaborative and preventative measures--and what it is actually 
doing--directing funds away from collaborative, long-term efforts and 
towards reactive fire-suppression efforts. The current actions are 
perpetuating not only problems related to wildfire, but also broader, 
long-term problems such as mistrust between the agency and the public 
and the policy gridlock that prevents work from being done on the 
ground.

                              FUTURE NEEDS

    If Congress and the Administration are to make reliable commitments 
to National Fire Plan priorities other than wildfire suppression, they 
need to develop a better process for dealing with escalating and 
unpredictable wildfire suppression costs. It is not possible to sustain 
long-term preventative efforts, such as those where federal agencies 
work collaboratively with community partners on community fire 
planning, fuels reduction, and forest restoration, when the funds might 
be pulled on short notice for wildfire suppression. Congress and the 
Administration need to work with the federal agencies to develop better 
processes for 1) annually estimating the costs of wildfire suppression, 
given the current conditions in our forests and the numbers and 
patterns of people in the forest landscape, and 2) providing emergency 
suppression funds in a rapid and responsible manner when needed, 
minimizing impacts on other important agency programs. It appears to us 
that the past history of the Forest Service borrowing funds for 
wildfire suppression from other budgetary accounts, such as Knutson-
Vandenburg fund and the Salvage Sale fund, is no longer viable. In the 
past, these accounts had sufficient funds from which to borrow and 
repay, and the impacts of short-term borrowing were not significant. 
That is no longer true today. We believe that Congress and the 
Administration will need to respond to extraordinary wildfire seasons 
as emergencies, while holding the agencies accountable for developing 
appropriate plans and actions in using suppression funds.
    Finally, beyond the need to deal with future wildfire suppression 
concerns, Congress and the Administration need to find ways to ensure 
1) adequate and consistent funding for preventative measures, including 
community fire planning, hazardous fuels reduction, and monitoring 
activities, and 2) continued direction and authorities for agencies to 
work collaboratively with communities through cooperative agreements, 
grants, and contracts. As I have noted throughout this testimony, 
community-based forestry groups need greater assurances that long-term 
federal funding will be provided through the National Fire Plan so that 
they will be willing to make the efforts necessary to leverage these 
funds with other public and private dollars and to invest in building 
local capacity and infrastructure. They also need assurances that there 
will be long-term policy support for efforts to work openly and 
collaboratively in developing new preventative approaches that both 
restore and maintain forest health and provide social and economic 
benefits in rural communities.
    Thank you for the opportunity to share some perspectives from 
community-based forestry groups regarding these wildfire issues. I 
would be happy to respond to any questions.

    Senator Wyden. Well said. And I think at least what I saw 
on this side of the dais is an awful lot of people who agreed 
with you and an awful lot of people who are not going to let 
OMB march off in the sunset and say, ``Everything is hunky-
dory.'' It was sure not what I heard from Democrats and 
Republicans on this committee in the Senate.
    Let us go now to our next witness, Mr. Covington.
    Welcome.

STATEMENT OF DR. W. WALLACE COVINGTON, DIRECTOR, THE ECOLOGICAL 
       RESTORATION INSTITUTE, NORTHERN ARIZONA UNIVERSITY

    Dr. Covington. All right. Thank you very much. I am going 
to, as you suggested, condense this quite a little bit, given 
the late hour.
    And just to start, I am Wally Covington. I am Regents 
Professor of Forest Ecology, and I direct the Ecological 
Restoration Institute at Northern Arizona University. For about 
30 years now, I have been working on trying to develop 
scientific rigorous ways to restore forest ecosystem health in 
the dry forest of the West, especially Ponderosa pine forest, 
and reduce the threat of crown fires.
    I will start with just some general overview comments and 
then hit the three key points that I have. First, this is not 
just about drought. The increase in crown fire that we have 
been seeing in Ponderosa pine and dry forests of the West began 
in the Forties with very small crown fires on the scale of a 
few hundred acres. Each decade since the Forties, these fires 
have increased in size and severity. The fires that we are 
seeing this season are a little bit above what our landscape 
skill, fire behavior models would predict, but not by very 
much.
    To think that we are going to next year maybe have a wet 
year and we will not see fires like this is a hopeful thought, 
but not a very realistic one, given the rate of increase in 
crown closure and fuel accumulation that we have been seeing.
    The other thing that I would like to point out before I get 
into my key point is that this is not just about crown fires. 
The crown fires are just the latest symptom of an overall 
comprehensive decline in ecosystem forest since European--in 
ecosystem health in our forest since European settlement.
    The earlier symptoms were declines in native wildlife 
species, declines in watershed function and structure, and an 
overall decline in human habitats. So if all we do with this 
effort that we have now is to reduce crown fires, I think we 
have failed. We have failed in restoring comprehensively 
ecosystem health.
    Now, research that has been conducted over the past 30 to 
40 years has clearly indicated that restoration can prevent 
crown fires in dry forests of the West, restore ecosystem 
health and also provide job opportunities in the rural areas of 
the West.
    Further, the researchers clearly have indicated that it 
does matter what you do. Just removing half of the excess trees 
is of little benefit to ecosystem health, and of little benefit 
to reducing severe crown fire behavior. There are substantial 
differences than between small scale restoration, that is 
especially with diameter caps. If you thin out the 5-inch trees 
or 9-inch trees or 12-inch trees, you get very different 
results, not just for fire behavior, but also for wildlife 
habitat, for watershed function, and for human habitat 
relations. It also makes a big difference economically on the 
utilization potential of the material that is thinned.
    My next point is that I think it is very important that we 
think strategically about this. Now, there has been a lot of 
focus on the wildland urban interface, and rightly so. This is 
a key element in the landscapes of the West, but there are 
other key elements that also are deserving of the same kind of 
protection that we are focusing our attention on, the 
structures.
    And some of those key elements, for example, are threatened 
and endangered species habitat, key watersheds. The Santa Fe 
Watershed we used as an example earlier. Core areas of greater 
ecosystems; these core areas are often wilderness areas, 
natural areas or national parks.
    These are very critical landscape elements that we need to 
protect. So strategically, first, we need to put in our 
restoration-based fuel treatments to protect those key 
elements.
    The second step is to again strategically locate landscape 
level fuel treatments to break up landscape scale continuity, 
fuel continuity; and then finally to restore the intervening 
areas between these anchor points.
    And, again, scientific research can help to inform these 
decisions so that we make the wisest investments to protect the 
key elements of the ecosystem, including the wildland urban 
interface and gain maximum ecological and, in many situations, 
economic benefits from our treatments.
    The final point I would make before closing is that it is 
too late for about 5 to 10 percent of our landscape. It is too 
late. The areas have already burned or they are going to burn 
the rest of the season. If you look at it in another way, and 
it is 90 to 95 percent of the landscape is still in good, or we 
can still get to.
    But to get to that, we have to move promptly. We need to do 
this by designing treatments with solid science, develop 
standards and guidelines that are well understood and 
accessible and practical to managers. We need to use an 
adaptive management approach in doing this. And finally, we 
need to support a broad variety of partnership approaches, 
whether they are citizens-based, organizationally based, or 
community based partnerships to collaboratively work to 
implement these restoration treatments.
    Thank you very much.
    Senator Wyden. Thank you.
    [The prepared statement of Dr. Covington follows:]
     Prepared Statement of Dr. W. Wallace Covington, Director, The 
     Ecological Restoration Institute, Northern Arizona University
    Chairman Bingaman, and members of the Committee, thank you for this 
opportunity to testify on a subject of personal importance to me and of 
critical importance to the health of our nation's forests and the 
people and communities that live within them.
    My name is Wallace Covington. I am Regents' Professor of Forest 
Ecology at Northern Arizona University and Director of the Ecological 
Restoration Institute. I have been a professor teaching and researching 
fire ecology and restoration management at NAU since 1975. I chair 
Arizona Governor Jane Dee Hull's Forest Health/Fire Plan Advisory 
Committee and am a member of the National Commission on Science for 
Sustainable Forestry.
    I have a Ph.D. in forest ecosystem analysis from Yale University 
and an M.S. in ecology from the University of New Mexico. Over the past 
27 years I have taught graduate and undergraduate courses in research 
methods, ecological restoration, ecosystem management, fire ecology and 
management, forest management, range management, wildlife management, 
watershed management, recreation management, park and wildland 
management, and forest operations research. I have been working in 
long-term research on fire ecology and management in ponderosa pine and 
related ecosystems since I moved to Northern Arizona University in 
1975. In addition to my publications on forest restoration, I have co-
authored scientific papers on a broad variety of topics in forest 
ecology and resource management including research on fire effects, 
prescribed burning, thinning, operations research, silviculture, range 
management, wildlife effects, multi-resource management, forest health, 
and natural resource conservation.
    My testimony will focus on the implementation of the National Fire 
Plan and the urgent need to increase the pace and size of forest 
restoration treatments to reverse the trend of increasing catastrophic 
wildfires. I will outline a three-step approach to help achieve this 
goal.
    Although the general principles that I will discuss apply to the 
vast majority of the West's dryer forest types, I will focus my 
testimony on ponderosa pine forests. As the GAO has pointed out over 90 
percent of the severe crown fire damage nationally is in this forest 
type. Although there is plenty of blame to go around, much of the 
burden for the failure of wildland management policies must rest on 
natural resource professionals and scientists, who work hard but always 
seem to offer too little too late in the way of practical advice.
    Knowing what we now know, it would be grossly negligent for us not 
to move forward with large-scale restoration based fuel treatments in 
the dry forests of the West.
    It is an unfortunate set of circumstances that have led to this 
hearing. Scientists have predicted the current forest crisis for the 
last 75 years. In 1994 I was senior author on a review paper in which I 
stated that we could anticipate exponential increases in the severity 
and extent of catastrophic fire. It is not a prediction I ever wanted 
to come true. In that same paper, I also suggested that we have a 
narrow window of 15-30 years to take preventative actions to restore 
forest health, minimize the loss of civilian and firefighter lives, and 
the mounting damage to our nation's natural resources.
    Although scientists have long foreseen the increase in fire size 
and severity in ponderosa pine ecosystems, the scale of the fires we 
have seen so far this year is staggering. Years of neglect are coming 
home to roost. The Rodeo/Chediski fire in Arizona consumed 469,000 
acres and is Arizona's largest wildfire to date. Prior to the 1960s a 
fifty-acre crown fire was considered a ``large fire''. In addition, the 
fire behavior these fires are exhibiting make suppression efforts 
exceptionally challenging--demonstrating that there are limits to our 
ability to fight them. The Heyman Fire in Colorado and the Rodeo/
Chediski Fire in Arizona are major wakeup calls to all of us.
    Clearly, we have to do something quickly on a larger scale to 
reverse the trend of exponentially increasing fire suppression costs, 
increases in fire severity, and destruction of what should be a healthy 
legacy for future generations. Thus far, the National Fire Plan has not 
resulted in the implementation of large-scale, comprehensive 
restoration treatments that are required to prevent catastrophic fire. 
In addition, implementation must focus on the greater landscape as well 
as the wildland/urban interface to achieve success.

                 WHY FOREST RESTORATION TREATMENTS WORK

    We have been in open revolt against nature in the dry forests of 
the West since settlement. It is time to start managing in harmony with 
natural tendencies. Science-based forest restoration treatments are 
consistent with natural tendencies. Comprehensive restoration is 
superior to forest thinning alone for one significant reason--
restoration treatments simultaneously improve forest health (the 
underlying cause of catastrophic fire) while reducing fire risk. 
Restoration treatments permit the safe reintroduction of fire and 
present a long-term strategy for fixing forests.
    Research across the Intermountain West has shown that restoration 
treatments substantially reduce fire hazard by thinning trees to 
decrease tree canopy density, break up interconnected canopy fuels, 
raise the crown base height (the distance from the ground to the 
crown), and then reduce accumulated forest floor fuels and debris with 
prescribed fire. Fire alone in the unnaturally dense forests that 
dominate so much of the West today is inadequate. Without thinning, 
prescribed burning is an exceedingly dangerous way to get the amount of 
thinning done that is needed and it can lead to increased mortality, 
especially among old growth trees. Furthermore, the probability of a 
prescribed fire escaping its planned burn area are increasingly likely 
as fuels continue to accumulate.
    There is abundant scientific research that began in the 1890's and 
continues today that provides a sound scientific framework for 
implementing the science and practice of restoration. We have solid 
information about forest conditions prior to Euro-American settlement, 
changes in fire regimes over the last century, deterioration of overall 
ecosystem health, and ecological responses to thinning and prescribed 
burning--the key elements of any attempt to restore ecosystem health in 
ponderosa pine and related ecosystems. We know that current overcrowded 
stands of trees do not sustain the diversity of wildlife and plants 
that existed a century ago. We know this by examining the data of early 
naturalists and scientists. We also know this to be true from primary 
research. Scientists that have compared biological diversity of 
overstocked stands--stands that have had decades of fire exclusion--
with open, park-like stands that have not had severe fire regime 
disruption, have found greater plant diversity, greater insect 
diversity, and greater bird diversity. Similar studies have also found 
greater old-growth tree vigor and resistance to insect attack in open, 
park-like stands--stands similar to those present before settlement. We 
also know that stopping ecologically based forest restoration that 
includes thinning, is not saving the forest as some would like you to 
believe, but only contributing to its demise and causing severe losses 
to the wealth of species that depend on it.
    Restoration thinning enhances the productivity (growth) of trees, 
allowing young trees to develop old-growth characteristics such as 
large size and full crowns. Perhaps most importantly, restoration has 
been shown to increase rapidly the productivity of native understory 
grasses and herbs, the species that make up 90-99% of the plant 
biological diversity in western fire-adapted forests. The resources 
provided by abundant understory vegetation--seeds, flowers, fruits, and 
cover--translate into key wildlife habitat components. For example, the 
number of butterfly species and individuals increased within two years 
in Arizona sites that had received ecological restoration treatments.

WHY ATTENTION MUST BE PAID TO BOTH THE WILDLAND/URBAN INTERFACE AND THE 
                            GREATER FORESTS

    The fires of 2002 and 2000 have focused policy attention on the 
need to create defensible perimeters around communities in the 
wildland/urban interface. Without a doubt we need to take action to 
secure communities. However, defining the ``urban/wildland interface'' 
as some sort of narrow ring around a town to protect property will not 
prevent fires like we have just seen in Arizona to impact towns. In 
addition, this definition will miss the whole reason for the existence 
of forest communities.
    A town is not just the place where people have homes. Communities 
are in the forest because they are emotionally, economically, and 
socially linked and dependent on the forest. When we consider the areas 
that need immediate treatment we should consider the human community 
``impact area''--the entire area that if impacted by a catastrophic 
fire, will undermine the health and livelihood of a community.
    Following is a quote from one of the many e-mails and telephone 
calls I have received from residents in the region burned so severely 
by the Rodeo/Chedeski fire in Arizona this season:

          ``Many homeowners in the Overgaard community who lost our 
        homes are anxious to make decisions about the possibility of 
        rebuilding. While we know our homes can be reconstructed, we 
        are more concerned about the beautiful forest, now blackened, 
        in our back yards . . .''

    The Forest Service Cohesive Strategy includes one aspect of this 
greater impact area I've mentioned by identifying watersheds as 
important areas of focus. An excellent example is the Santa Fe 
Watershed, a 17,000-acre area that provides 40% of the water supply for 
the city. The fact that the City of Santa Fe, the Forest Service, the 
Santa Fe Watershed Association (including the Sierra Club, the Audubon 
Society, and the Nature Conservancy), and citizens are actively 
designing pre-suppression treatments is commendable.
    A second example of an important impact area beyond the town site 
itself is the San Francisco Peaks north of Flagstaff, Arizona. 
Recreation and tourism contributes significantly to the Flagstaff 
economy. A wildfire at the Snowbowl ski area or along one of the many 
popular trails on the peaks could have a significant impact on many 
small businesses dependent on recreation dollars. Although it is 
critical that we design treatments to protect the property of Flagstaff 
residents, it will be fruitless in the long run if their economic 
livelihood and quality of life disappears.
    Another reason that attention cannot be narrowly focused on a ring 
around the city is because it will fail to address one of the most 
contentious issues of our time, the protection of endangered species. 
Wildfire in the Southwest contributes to the loss of essential habitat 
for many of these vulnerable species because they are not adapted to 
stand replacing fires. According to a recent draft plan by the Coconino 
National Forest, over the last ten years the nesting habitats of six 
northern goshawks and eight Mexican spotted owls have been eliminated 
or severely altered by stand replacement fires in the vicinity of the 
San Francisco Peaks.
    Towns are inextricably linked to the greater forest. To treat one 
and not the other will fail to solve the problem.

             STEPS TO IMPLEMENT LANDSCAPE SCALE TREATMENTS

    I have been advocating forest restoration over the past 20 years, 
but my sense of urgency has greatly increased. We need to break the 
logjam that impedes progress. A logjam that is rooted in distrust, 
personal preferences and a legal process (NEPA) that should contribute 
to the design of solutions but is sometimes used to obstruct them. I 
believe that with thoughtful action, adequate resources and public and 
private leadership we can solve this logjam and emerge victorious from 
our current crisis. The three key steps are:
    1. Design Treatments Starting With Solid Science and Set Standards 
for Effectiveness. Ideological issues have been impediments to 
advancing treatments. Research to date indicates that alternative fuel 
reduction treatments (e.g., diameter caps for thinning) have strikingly 
different consequences not just for fire behavior but also for 
biodiversity, wildlife habitat, tree vigor and forest health. Treatment 
design should be based on what the forest requires to maintain health 
and reduce catastrophic fire. Science-based guidelines should be 
developed and become the foundation for treatments. In addition, they 
should be the criteria for evaluating the effectiveness of treatments. 
Guidelines will help guide managers and provide a base of certainty to 
those that are distrustful of land management agencies. The standard 
should be clear if a treatment does not permit the safe reintroduction 
of fire and simultaneously facilitate the restoration of the forest it 
is not a solution.
    2. Reduce Conflict by Using An Adaptive Management Framework To 
Design and Implement a Series of Treatments. We can wait no longer. 
Solutions to catastrophic wildfire must be tested and refined in a 
``learning while doing'' mode. Two of the barriers preventing the 
implementation of landscape scale treatments are the unrealistic desire 
for scientific certainty and a fear that once an action is selected it 
becomes a permanent precedent for future management. Scientific 
certainty will never exist and the past century of forest management 
demonstrates the need for applied research and active adaptation of 
management approaches using current knowledge. We should expand our 
environmental review process to provide approval of a series of 
iterative treatments, provided they are science based, actively 
monitored and committed to building from lessons learned and new 
information.
    3. Rebuild Public Trust in Land Management Agencies. Support a 
Broad Variety of Partnership Approaches for Planning and Implementing 
Restoration-Based Fuel Treatments. The lack of trust that exists 
between some members of the public and land management agencies is the 
genesis for obstructionist actions. The only way to rebuild trust is to 
develop meaningful collaborations between the agencies, communities and 
the public. There are emerging models of various forms of collaborative 
partnerships working to reduce the threat of fire while restoring the 
forest for its full suite of values. Their success depends on 
respectful community collaboration, human and financial resources and 
adequate scientific support to make well informed management decisions. 
Congress, federal agencies, universities, and non-governmental 
organizations must support these communities to help them achieve 
success.

Step One: Design Treatments Starting With Solid Science and Set 
        Standards for Effectiveness
    If we wanted to destroy our ponderosa pine forest landscapes, we 
could hardly come up with a more devastating plan than what we have 
done and continue to do make a series of management mistakes and then 
engage in lengthy ideological debates instead of rolling up our sleeves 
and working to solve the problem. The fires of this year, and the past 
several decades, have forged a consensus that the problem of 
catastrophic wildfire is severe. Almost everyone agrees that 
restoration is the most scientifically rigorous and environmentally and 
economically reasonable way to proceed. Nonetheless, there is a lot of 
poorly informed speculation about how it should be applied, by 
activists, members of the lay public, and even some within the academic 
community. Some of the arguments are founded on differences of opinion 
about desirable ecological conditions for western forestlands. Others 
stem from differences of opinion about whether public lands should be 
used for consumptive resource use, especially by wood products or 
grazing interests, or for individual uses and/or non-consumptive uses.
    We are now at the point where we must move beyond ideologically 
based rhetoric to apply restoration fuel treatments in such a way that 
we can simultaneously work to solve fire problems and restore ecosystem 
health.
    We have a solid body of scientific information to design and test 
large-scale forest restoration that will protect people, communities 
and the forest. This knowledge should be synthesized into management 
guidelines that are scientifically solid and immediately useful to 
managers and others who want to work to solve the crownfire problems of 
the West.
    An important outcome from the guidelines will be a set of 
performance standards. Since 2001 many treatments have been applied on 
federal land, however, the effectiveness of many of these treatments to 
reduce fire risk has been questioned. Treatments that do not provide 
long-term protection against unnatural wildfire and repair the forest 
are a waste of money and effort.

Step Two: Reduce Conflict by Using an Adaptive Management Framework To 
        Design and Implement a Series of Treatments
    A variety of restoration options is being investigated at research 
sites across the West, applying treatments developed locally by 
scientists, managers, environmental activists, resource users, and 
members of the public. It is important to continue and expand the 
research effort, but at the same time it is imperative that we accept 
the responsibility to apply the extensive knowledge we already have, 
before more forests are lost.
    The actions that others and I believe should be taken to restore 
the ecological integrity of ponderosa pine forests and therefore reduce 
the threat of crown fire are well known. I do not advocate a ``one-size 
fits all approach'' but rather crafting management approaches based on 
the location under analysis, its presettlement condition, and its 
relationship to the broader ecosystem and the communities that live 
within it. In this sense, ecological restoration should not be viewed 
as a strict recipe or a rigid set of prescriptions.
    The safest way to advance treatment design and implementation is to 
apply scientifically rigorous adaptive management principles. By 
scientifically rigorous I mean that the design of landscape scale 
restoration treatments must be based on:

          1. Comprehensive awareness of solid science (not 
        ideologically driven, selective citation of existing 
        knowledge).
          2. Implementing large-scale, adaptive management experiments 
        to test ideas.
          3. Monitoring fundamental parameters to determine treatment 
        effectiveness.
          4. Objective scientific analysis of the results.
          5. Further adaptation of management experiments suggested by 
        these monitoring observations.
          6. Sharing, publicizing and publishing results for lay 
        audiences, policy makers, resource management professionals, 
        and the scientific community.

    The scientific community could help this effort by developing 
monitoring protocols that are simply applied, affordable, 
understandable to land managers and that can be quickly synthesized to 
inform adaptive management.
    Consideration should be given to a new form of environmental review 
and approval for projects committed to adaptive management. If the 
project design is sufficiently rigorous to test different approaches 
that will then be used to improve the design of the next set of 
approaches--and monitoring is actively employed--then perhaps a series 
of actions could be approved in advance under one environmental review. 
For example, the Greater Flagstaff Forest Partnership has spent years 
in the environmental review process to implement the first phase of a 
ten-year effort that will protect the city and surrounding communities. 
The second phase is now going through the same long environmental 
review process even though it is explicitly incorporating many lessons 
learned from the first phase and was developed with full community 
participation. Perhaps something can be done to allow projects that 
show this much rigor, community involvement, solid science and 
monitoring a simplified review.

Step Three: Help Rebuild Public Trust in Land Management Agencies by 
        Supporting a Broad Variety of Partnership Approaches for 
        Planning and Implementing Restoration-Based Fuel Treatments
    Some individuals and organizations have obstructed forest 
restoration because they do not trust the land management agencies to 
apply good ecologically based management in the forest. Restoring 
respect and trust in the land management agencies is central to 
breaking the logjam. One approach to rebuilding this trust is through 
the meaningful engagement of members of forest communities and other 
stakeholders.
    Numerous community-based models exist. Each is unique because of 
the community it represents and the priorities each community defines 
(jobs, economic, environmental etc). Congress and the federal agencies 
should continue to support and respect inclusive approaches to 
designing and implementing forest treatments.

                          WHAT CONGRESS CAN DO

    There are several constructive steps Congress and the federal 
agencies can take to improve our current situation.

          1. Strategically located landscape scale treatments to reduce 
        fire threat and restore the ecological integrity of forests 
        should become the single biggest priority of forest management 
        policy and the land management agencies working in the 
        Intermountain West.
          2. Congress should continue its commitment to provide 
        adequate resources to the agencies to maximize restoration 
        treatments that will prevent wildfires. In turn, the agencies 
        must act swiftly to implement preventative treatments. A simple 
        extrapolation of recent rates of increase in crown fire damage 
        suggests that within the next decade acres burned could easily 
        double whereas costs for fire suppression, rehabilitation of 
        burned area, lost resource values, and compensation could 
        average five to ten billion dollars annually.
          3. Wherever possible, Congress and the land management 
        agencies should support the positive collaboration of 
        partnerships to design ecologically based restoration 
        treatments
          4. Support the implementation science-based restoration 
        treatments, adaptive management approaches and restoration 
        guidelines to ensure quality control.
          5. Consider adding a new environmental review process that 
        simplifies the approval of projects using adaptive management, 
        monitoring, solid science and community involvement.

    Senator Jon Kyl, with the support of Secretary of the Interior Gale 
Norton and Forest Service Chief Dale Bosworth, has recognized the need 
for good science and has actively supported the work of the Ecological 
Restoration Institute at NAU. His support for science-based solutions 
has allowed us to design, test, and refine restoration treatments that 
are the underpinning of the development of socially acceptable 
approaches to forest restoration underway in Flagstaff and other forest 
communities.
    We are at a fork in the road. Down one fork lies burned out, 
depauperate landscapes landscapes that are a liability for future 
generations. Down the other fork lies health, diverse, sustaining 
landscapes landscapes that will bring multiple benefits for generations 
to come. Inaction is taking, and will continue to take, us down the 
path to unhealthy landscapes, costly to manage. Scientifically-based 
forest restoration treatments, including thinning and prescribed 
burning, will set us on the path to healthy landscapes, landscapes like 
the early settlers and explorer saw in the late 1800s.
    Thank you very much for asking me to appear before the Committee.

    Senator Wyden. Mr. Schulke.

 STATEMENT OF TODD SCHULKE, FOREST POLICY DIRECTOR, CENTER FOR 
                      BIOLOGICAL DIVERSITY

    Mr. Schulke. My name is Todd Schulke. I am the forest 
policy director for the Center for Biological Diversity. Thanks 
for letting me be here.
    I sit on the Arizona Governor's Fire and Forest Health 
Advisory Committee, Senator Bingaman's Collaborative Forest 
Restoration Advisory Committee, and the Southern New Mexico 
National Fire Implementation Team.
    I would like to start by saying that, though there have 
been tragic losses in fires this year, there are also seeds of 
agreement that can hopefully grow into an effective and 
efficient and ecologically sound approach to protecting forest 
communities.
    There are many solid efforts happening around the country, 
with diverse groups of people working together to address the 
risks of living in forests that depend on fire.
    I would like to mention a few of these efforts. In 
southwestern New Mexico, the National Fire Plan implementation 
team brought together rural citizens, conservationists and 
agencies to set priorities for community protection. Notably, 
efficient utilization of fire plan funding provides cost share 
grants to homeowners to implement effective home protection 
treatments where they are needed the most, in their backyards. 
More funding and emphasis should be applied to this vital 
community protection program.
    The Collaborative Forest Restoration Project developed by 
Senator Bingaman has proven to be a winning combination of 
diverse interests, innovative restoration methods and direct 
funding for restoration. The Center for Biological Diversity, 
who I work for, is involved in a 1,400-acre CFRP project near 
Silver City, New Mexico, designed to develop effective 
ecologically based prescriptions, provide restoration jobs and 
facilitate utilization of restoration byproducts. We recommend 
increasing funding for programs like CFRP.
    Finally, at the national level, there is a collaborative 
effort to develop restoration guidelines that involves a broad 
spectrum of conservationists and community fire groups. One 
outcome of this is a set of restoration principles that 
incorporate ecological, economic, and social principles to 
provide a comprehensive approach to community protection and 
restoration. This illustrates that stakeholders with a wide 
range of viewpoints can agree on community protection and 
forest restoration.
    Of course, this is not to say there is complete agreement 
on all issues. There is still deep disagreements concerning 
logging of large and old trees, particularly in the back 
country.
    In the Gila National Forest, the Sheep Basin Restoration 
Project illustrates the disagreement that keeps us from moving 
beyond debate and to focusing our efforts into action. The 
Sheep Basin project emerged from an early collaborative effort 
initiated by local conservationists and supported by Senator 
Bingaman. The watershed chosen is in Catron County, New Mexico, 
a nationally known hotbed of environmental conflict.
    After years of dialogue, a several-thousand-acre project 
was identified for thinning and other restoration activities. 
Conservation groups and the Catron County Citizen's Group 
agreed that the project should proceed with a diameter cap 
limiting logging of large trees. However, the Gila National 
Forest disregarded this agreement, choosing an alternative that 
will log large trees, though over 90 percent of the area has 
trees below 12 inches.
    The decision to log large trees, up to 35 inches more than 
25 miles from the nearest community, resulted in an appeal. By 
ignoring this agreement, the Forest Service chose controversy 
over cooperation.
    Another relevant example of this disconnect is the Baca 
Timber Sale on the edge of the recent Rodeo fire. This sale was 
proposed for an area where 95 percent of all the trees were 
below 12 inches. But the Forest Service wants to log over 25 
percent of the volume from trees over 16 inches.
    The Sitgreaves National Forest where the Rodeo fire burned 
is the most heavily logged forest in the Southwest. The Rodeo 
burn area alone contains over 2,100 miles of logging roads.
    The Rodeo fire began on the heavily logged White Mountain 
Apache Reservation and accounted for 50 percent, or 60 percent 
of the total fire area. The Baca Timber Sale only covered two 
percent of the Rodeo fire area. The bottom line is that logging 
has proven to be ineffective in stopping big fires like the 
Rodeo.
    Much has been made about the Center's challenge of this 
timber sale, but the truth is that twice the Forest Service and 
the community of Forest Lakes requested release of areas for 
community protection treatments and we readily agreed both 
times to fuels reduction on over 1,300 acres.
    The most frustrating thing about this is that the science 
is clear about what is needed to protect homes and communities. 
Focusing fuels reduction on areas near communities is clearly 
the most effective and efficient method to saving homes and 
lives.
    The science shows treatment of an area up to 500 meters is 
justifiable for home protection, firefighter safety and other 
community values. And the area beyond 500 meters should be 
considered wildland forest and subject to restoration 
treatments.
    Some solutions, there is a broad agreement that prescribed 
burning is effective for reduction of forest fire intensity and 
extensive prescribed burning programs should be implemented 
when it will be safe and effective.
    There is also growing agreement on the benefits of fuels 
reduction focused on small diameter trees, brush and ground 
fuels. Consider quotes by prominent fire ecologists from around 
the West, ``Fuel treatments that reduce basal area or density 
from above, i.e. removal of the largest stems, will be 
ineffective within the context of wild fire management.'' That 
is from Omi and Martinson at Colorado State. ``Thinning from 
below to remove smaller trees, e.g., those eight to ten inches 
in diameter or less, greatly reduces the intensity with which 
fires will burn through a forest,'' Dr. Penny Morgan, 
University of Idaho.
    In the Southwest, groups including the Center for 
Biological Diversity, the Southwest Forest Alliance and the 
Sierra Club, agree that thinning trees smaller than 12 inches 
should be the priority following an aggressive community 
protection program.
    There is a dearth of empirical research concerning the 
effects of thinning on fire behavior. More work needs to be 
done in this area before undertaking landscape scale thinning.
    However, it will take years to complete effective fuel 
reductions near communities. During this time, it will be 
important to implement pilot forest restoration projects in the 
back country to develop the knowledge base necessary to avoid 
causing ecological harm.
    In closing, I would like to say it is a waste of time to 
continue the argument over timber sales that log large trees. 
There is a tremendous amount of work to be done in the areas 
where there is strong scientific and social support.
    All parties involved in these complex and challenging 
issues need to begin working together in this emerging zone of 
agreement and get on with the job of protecting communities 
from the risk of fire.
    [The prepared statement of Mr. Schulke follows:]

      Prepared Statement of Todd Schulke, Forest Policy Director, 
                    Center for Biological Diversity

    My name is Todd Schulke. I'm the forest policy director for the 
Center for Biological Diversity. I sit on Arizona Governor Jane Hull's 
Fire and Forest Health Advisory Committee, Senator Bingaman's 
Collaborative Forest Restoration Program Advisory Committee and the 
Southern New Mexico National Fire Plan Implementation Team. I also live 
with my 2 young sons and wife in a fire prone ponderosa pine forest on 
the Gila National Forest in southwestern New Mexico.

                    SUCCESSFUL COMMUNITY PROTECTION

    I'd like to start by saying that though there have been tragic 
losses in fires this year there are also the seeds of agreement that 
can hopefully grow into an effective, efficient, and ecologically sound 
approach to protecting forest communities at risk from forest fires. 
There is growing awareness that forest communities need to learn to 
live with fire as a critical natural process rather than attempt to 
eliminate it at any cost. There are many solid efforts happening around 
the country, with diverse groups of people working together to address 
the risk of living in forests that depend on fire.
    I'd like to mention a few of these efforts. In southwestern New 
Mexico the National Fire Plan Implementation Team, initiated by NM 
State Forestry, brought together rural citizens, conservationists, 
agencies, local governments, and rural fire departments to set 
priorities for community protection. This group has developed a 
coordinated response to community fire risk. Most notably, efficient 
utilization of National Fire Plan funding provides cost share grants to 
homeowners to implement effective home protection treatments where they 
are needed most--in their backyards. More funding and emphasis should 
be applied to this vital community protection program.
    In Eastern Washington, The Lands Council is knocking on doors in 
rural communities offering information and assistance to homeowners 
interested in homesite protection and creating defensible space. They 
are using a National Fire Plan grant to put this critical educational 
and practical assistance directly into the hands of the homeowners that 
need it the most.
    In New Mexico, the Collaborative Forest Restoration Program (CFRP) 
developed by Senator Bingaman has proven to be a winning combination of 
cooperation between diverse interests, experimentation with innovative 
restoration methods, and direct funding for forest restoration on the 
ground. The Center for Biological Diversity, is involved in a 1400 acre 
CFRP restoration project near Silver City, NM, designed to develop 
effective, ecologically-based prescriptions, provide long-term stable 
restoration jobs, and facilitate utilization of small diameter 
restoration byproducts. This project is also part of the Ford 
Foundation Community Forestry program that supports community based 
approaches to forest restoration. We recommend increasing funding for 
programs like CFRP that provide direct restoration funding to 
innovative projects on the ground.
    Finally, at the national level, there is a collaborative effort to 
develop restoration guidelines that involves a broad spectrum of 
conservationists and community forest groups. One of the most important 
outcomes is a set of restoration principles that incorporate 
ecological, economic, and social principles to provide a comprehensive 
approach to community protection and forest restoration. The initial 
list of endorsers including the Center, American Lands Alliance, the 
Forest Stewards Guild, The Wilderness Society, and the National Forest 
Protection Alliance illustrates that stakeholders with a wide range of 
viewpoints can agree on effective approaches to community protection 
and forest restoration.
    I'd like to point out that many of the names mentioned in the 
stories I've just shared are also some of the groups being demonized by 
the Forest Service and various political figures for challenging timber 
sales. But when you look closer you see that these organizations are 
committed to effective community protection strategies.
    Timber Sale Challenges
    Of course, this is not to say there is complete agreement on these 
issues. If the amount of finger pointing spawned by recent forest fires 
is any indication, we have some distance to go before all our energy 
will be focused on solutions. There are still deep disagreements 
concerning logging of large and old trees, particularly in the 
backcountry, far away from homes.
    On the Gila National Forest the Sheep Basin ``Restoration'' Project 
illustrates the basic disagreement that keeps us from moving beyond 
debate and to focusing our efforts into action. The Sheep Basin project 
emerged from an early collaborative watershed planning process that was 
initiated by local conservationists and supported by Senator Bingaman. 
The watershed chosen is in Catron County, N.M.--a nationally known 
hotbed of environmental conflict. The idea was to move beyond this 
conflict to watershed restoration that benefited all stakeholders.
    After years of dialogue an astonishing agreement was reached. A 
several thousand-acre project was identified for thinning and other 
restoration activities. Conservation groups and the Catron County 
Citizen's Group (interested in utilization of restoration by-products) 
agreed that the project should proceed with a diameter cap limiting 
logging of large trees. However in an equally astonishing move the Gila 
National Forest disregarded the agreement by choosing an alternative 
that will log large trees, though over 90% of the trees in the area are 
below 12" and all other parties agreed there were effective methods to 
meet both ecological and economic objectives.
    The decision to log large trees (in this case healthy trees up to 
35" more than 20 miles from the nearest community) resulted in an 
appeal. By ignoring this unusual agreement the Forest Service chose 
controversy over cooperation. This story outlines the basic disconnect 
between the Forest Service and conservation groups as well as many 
rural communities that are working toward ecologically sound, effective 
solutions to community protection.
    Another relevant example of this disconnect is the Baca Timber 
Sale, on the edge of the recent Rodeo fire in N. Arizona. This sale was 
proposed for an area where 95% of all trees were below 12". But the 
Forest Service wants to log over 25% of the volume from trees over 16". 
This same area has also recently been logged under the Jersey Horse 
Timber sale. Further, the Sitgreaves National Forest is the most 
heavily logged forest in the Southwest. The Rodeo fire burn area alone 
contains over 2100 miles of logging roads.
    The Rodeo Fire began on the heavily logged White Mt. Apache 
Reservation with reservation land accounting for over 50% of the total 
fire area. The Baca Timber Sale area covered only 2% of the Rodeo fire 
area, burning only toward the end of the fire. It's impossible to say 
that the challenge to the Baca sale played a significant role in the 
Rodeo Fire saga. The bottom line is logging has proven to be 
ineffective in stopping big fires like the Rodeo, particularly during 
100-year drought conditions.
    Much has been made about the Center's challenge of this timber sale 
but the truth of the matter is that twice the Forest Service and the 
community of Forest Lakes requested release of areas for community 
protection treatments. We readily agreed both times to fuels reduction 
on over 1300 acres.
    In the case of the Rodeo fire it would have made much more sense to 
implement aggressive home protection treatments near communities rather 
than last ditch efforts in the face of a drought driven fire. The 
residents that lost their homes and those that lived in fear that it 
would happen to them, would have been much better served if the Forest 
Service had focused on protecting their homes proactively rather than 
trying to push through another timber sale.
    The most frustrating thing about this conflict is that the science 
is clear on what is needed to protect homes and communities. Focusing 
fuels reduction on areas near communities is clearly the most effective 
and efficient method to saving homes and lives. The science shows 
treatment of an area of up to 500 meters is justifiable for home 
protection, fire fighter safety, and other community values. The area 
beyond the 500 meters should be considered wildland forest and subject 
to restoration oriented treatments such as prescribed burning. Given 
the limited resources available for community protection it only makes 
sense to proceed with an aggressive community protection program that 
focuses on the wildland urban interface where there is both social and 
scientific agreement.
    When one sifts through the rhetoric about who challenged what 
projects it becomes obvious that the vast majority of all fuels 
reduction such as wildland urban interface work and prescribed burning 
has gone unchallenged even though virtually all of these projects are 
eligible for litigation. Also the large numbers of projects approved 
under categorical exclusions get through this NEPA shortcut precisely 
because generally all parties agree these fuels reduction efforts are 
not controversial. The trend here is obvious, timber sales that log 
large trees get challenged--legitimate fuels reduction projects do not.

                               SOLUTIONS

    There is broad agreement that prescribed burning is an effective 
method for reduction of forest fire intensity. Reintroduction of fire 
is also critical to the long-term enhancement of ecological integrity 
in fire dependent forest. An extensive prescribed burning program 
should be implemented when it will be safe and where it will be 
effective.
    There is also growing agreement on the benefits of fuels reduction 
focused on small diameter trees, brush and ground fuels to lessen the 
severity of forest fires and to facilitate reintroduction of beneficial 
fires where appropriate. Consider quotes by prominent fire ecologists 
from universities around the West:

          ``. . . ``fuel treatments'' that reduce basal area or density 
        from above (i.e. removal of the largest stems) will be 
        ineffective within the context of wildfire management.''--from 
        ``Effect of Fuels Treatment on Wildfire Severity'' (Omi and 
        Martinson 2002), Western Forest Fire Research Center at 
        Colorado State;
          ``. . . clearing underbrush and dense thickets of smaller-
        diameter trees through prescribed burns is more effective at 
        preventing catastrophic fires than cutting down more fire-
        resistant large trees. ``It's clearly the small-diameter trees 
        that are the problem,'' he said, citing trees 8 to 10 inches in 
        diameter.''--Dr. Tom Swetnam, director of the Tree Ring Lab at 
        U of AZ (Arizona Daily Star, June 25, 2002);
          ``The small trees and surface fuels contribute most to fire 
        risk, as they provide `ladders' for the fires to climb from the 
        surface into the tree crowns. Forests where `ladder fuels' are 
        limited and tree crowns (or the crowns of groups of trees) are 
        separated won't support a crown fire. Thus, `thinning from 
        below' to remove the smaller trees, e.g. those 8-10 inches in 
        diameter or less, greatly reduces the intensity with which 
        fires will burn through a forest.''--Dr. Penny Morgan, 
        University of Idaho, House Resources Committee Hearing, July 
        11, 2002.

    In the Southwest groups including the Center for Biological 
Diversity, the Southwest Forest Alliance, and the Sierra Club agree 
that thinning trees smaller than 12 inches particularly near 
communities should be the priority following an aggressive community 
protection program. These groups have pledged not to challenge wildland 
urban interface projects that focus on thinning small trees.
    There is a dearth of empirical research concerning the effects of 
thinning on fire behavior. Omi and Martinson found 6 relevant papers--2 
of those studies from New Jersey and 1 from Florida. Clearly, more work 
needs to be done in this area before undertaking landscape scale 
thinning. However it will take several years to complete effective, 
focused fuels reductions in areas near communities. During this time it 
will be important to implement pilot forest restoration projects in the 
backcountry to develop the knowledge base necessary to avoid causing 
widespread ecological harm.
    In closing, I'd like to say it is a waste of time to continue the 
argument over ecologically destructive and scientifically unsupportable 
timber sales that log large trees. There is a tremendous amount of work 
to be done in the areas where there is strong scientific and social 
support. All parties involved in these complex and challenging issues 
need to begin working together in this emerging ``zone of agreement'' 
and get on with the job of protecting communities from the risk of 
fire.
    Thank you.

    Senator Wyden. Very good.
    Senator Wyden. Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    Let me start with you, Mr. Schulke. Is it your position 
that--or the position of your organization that these projects 
for restoration should include, should always include diameter 
caps on the size of trees that are removed?
    Mr. Schulke. Yes, sir. We found that the only way to build 
the kind of consensus that we need to move forward is to 
provide some assurances that large trees will not be logged 
purely for commercial reasons.
    Senator Kyl. Okay. And do you have a specific diameter cap 
that you focus on most of the time?
    Mr. Schulke. We are recommending 12 inches as a place to 
start.
    Senator Kyl. Okay. Mr. Chairman, I think that is the 
problem and that is the rub.
    Let me ask Dr. Covington now, who is the scientist among 
us, what his science shows with respect to the kinds of 
material that need to be removed and whether a diameter cap is 
ordinarily an appropriate way to limit the treatment.
    Dr. Covington, what is your view on that?
    Dr. Covington. From an ecological restoration perspective, 
diameter caps do not make any sense fundamentally. What we 
focus on is trying to reestablish, as close as possible, the 
tree structure and pattern that is natural for a site.
    That involves conserving all of the old growth trees, of 
course, leaving sufficient larger diameter post-settlement 
trees to re-establish the pre-settlement structure, and then 
thinning the balance of the trees and removing them from the 
site, if it is a site that is already roaded. So the diameter 
cap issue from an ecological restoration standpoint is pretty 
much irrelevant.
    Senator Kyl. Is the more relevant criteria the carrying 
capacity of the land?
    Dr. Covington. Well, yes. I think that is a good way to 
look at it, is that when you look at the forest structure that 
was present when fires were burning frequently, on some sites 
in Ponderosa pine forest, for example, it is 20 to 30 trees per 
acre. On others, it is 60, maybe 70 trees per acre averaged 
over large areas. That would be the carrying capacity for the 
land under natural burning conditions.
    Now, for every tree that you leave in excess of the natural 
tree density, it comes at a cost. And at first, those costs are 
just in understory production and wildlife habitat. So by 
understory production, I am talking about the grasses and wild 
flowers.
    Eventually, as you leave more and more trees, then you will 
cross the boundary where the consequences are fire behavior 
changes. And so the first and most striking declines are 
actually ecosystem health declines of leaving excess trees. 
They are not fire behavior declines.
    By the time you get to leaving somewhere on the order of, 
from looking historically, something like three to four or five 
times as many trees as the carrying capacity of the land has, 
that is when you start seeing crown fire behavior.
    And then as the landscape closes in, then you start seeing 
the larger and larger crown fires that we have been seeing for 
the past 60 years.
    Senator Kyl. So if an acre of land, for example, has a fair 
number of, let us say, 18-inch diameter trees, in addition to 
some that are much larger than that and a whole lot that are 
much smaller than that, to prescribe the right kind of 
treatment to restore the ecological balance of that area, you 
may be calling for the elimination of a number of those trees, 
of those trees of 16, 18 inches in diameter?
    Dr. Covington. But that--a number of those--a small number 
typically, but a number of those trees are in that larger 
diameter class. I can give you a good case, an example of this.
    At Mount Trumble working with the Bureau of Land 
Management, one of the areas--one of the first areas that we 
worked on up there was an area that had been a wet grass meadow 
type area that had been invaded by trees after fire exclusion 
and overgrazing had been started on the area.
    Now, this area was chock full of trees that were in excess 
of 16 inches. The largest one was about 28 inches, as I recall, 
in diameter. But it was a tree that was only 90 years old and--
but was growing in a very wet area.
    Now, from a restoration standpoint, the trees that had 
invaded that wet grassy area, all of them needed to be removed, 
because that is very important habitat from a landscape scale. 
So in that circumstance, we wound up removing--the Bureau of 
Land Management wound up removing a substantial number of trees 
that were 16 to 18 inches, and some of them close to 30 inches 
in diameter. That is the exception on the landscape.
    Generally when you get on the upland portions of the 
landscape, there may be only a handful of trees in that 16- to 
25-inch diameter that would be removed. Ideally, what we seek 
to do is leave the largest and most vigorous diameter trees 
that we can and close to places where trees were growing in the 
pre-settlement forest.
    Senator Kyl. Mr. Chairman, I ask just one more question on 
this round, and ask my staff to put on the easel a series of 
three photographs and ask Dr. Covington to describe what these 
three photographs depict.
    Maybe starting with the one that has the mechanical 
thinning before a prescribed burn. All three of these 
photographs are pictures of an Arizona scene in which an 
October prescribed burn has taken place.
    Dr. Covington. Yes. This photo is from one of the many 
experimental areas that we have been examining, a variety of 
restoration treatments. This one, this particular one is what 
we call a full restoration treatment.
    So here we have left trees. We have left about a 50 percent 
excess of trees above the natural carrying capacity of this 
site. We leave extra trees to account for wind breakage, winds, 
snow damage, or possible mortality of the trees in the ensuing 
100 to 200 years of recovery for the ecosystem.
    In this site you can see that with the full restoration 
treatment, the prescribed burn has fire behavior that is very 
much like natural fire behavior, flame lengths typically of six 
inches to maybe eighteen inches, the fire creeping through the 
forest. That is the kind of fire that we would like to see in 
our western dry forest types.
    Can I have the next one please, Diedre?
    Senator Kyl. Not that one. The next one.
    Dr. Covington. Not that one, the one behind it. There we 
go.
    This is one of the treatments that is a minimal thinning 
treatment. And in this treatment, we removed trees that were 
primarily in the below 9 inches diameter and close to old 
growth trees. So this was the minimal amount of thinning that 
we estimated was needed to prevent crown fire from occurring in 
the summer under moderate conditions, not drought--the 
droughty, windy condition that we have had this season.
    You can see the flame lengths are much higher. They average 
4 feet to 6 feet. And some of this fire even in October did get 
into the canopies of the trees, but it did not support a crown 
fire.
    This last one then is a prescribed burn only treatment. 
This is what I started--the kind of treatment that I started 
working on in 1975. You can see why I rapidly converted over to 
mechanical treatments before prescribed burning.
    Here in a fall fire, you see--these are replicated 
experimental plots in Arizona, and you can see that the fire 
behavior even under very moderate conditions is severe in 
patches. And here you see the flame heights of 20 to 30 feet in 
October and fires getting into the canopies of the trees. And 
clearly this will support crown fires.
    Senator Kyl. Mr. Chairman, I will just conclude this round 
by noting that--if my staff could also then just hold up those 
three photographs again, so that you can see them. It goes to 
the last point that I questioned Secretary Rey about. If we 
hope to treat our forests through prescribed burns only, we are 
not going to be successful.
    The one that you see on the easel right now, Mr. Chairman, 
is a prescribed burn. And it is not working.
    And if you do the mechanical thinning ahead of time as in 
the first one that was depicted--if you would just show that 
one again, Diedre--no, the first one. Here is where you have 
had mechanical thinning.
    As Secretary Rey said, that takes longer to get approval 
for, but it obviously works a whole lot better in terms of 
saving the forest. So that is why it seems to me that 
eventually we are going to have to develop a National Fire Plan 
that is much more conducive to mechanical thinning as the first 
treatment, with the prescribed burn occurring after that 
mechanical thinning.
    Thank you.
    Senator Wyden. Let me just touch on one point. I am going 
to sort of ponder what you have said, Dr. Covington, you have 
said, Mr. Schulke, and obviously you have differing views. And 
under normal circumstances what Congress does is it says, 
``Here is a couple of decent fellows and let us try both 
approaches,'' and just see what works and what does not.
    I will tell you what I feel most strongly about is what Ms. 
Jungwirth is really saying is that if Congress does not hustle 
here, there is not going to be any infrastructure to try any of 
these kinds of things. I mean, we have seen contracts cancelled 
already because of the raid of the firefighting, you know, 
money.
    The Chairman and Senator Craig have some interesting ideas 
about micro-businesses, which strike me as attractive. We are 
going to have a hearing on that next week, something I think we 
can all support, but that will have to get authorized. That 
will have to get appropriated. We are a long way down the road.
    I am going to turn this over to Senator Kyl and let him ask 
anything else he wants to and wrap this up. But I think that, 
in a lot of ways, this has been a useful panel to end with, 
because the debate about the science is going to continue. And 
I have heard you, Dr. Covington and Mr. Schulke, for the first 
time, and I think you heard that there is going to be a very 
significant bipartisan effort.
    And Senator Kyl and I in particular are going to work on 
restoration issues and incentives to make it attractive for 
people to work together, but none of it is going to do a whole 
lot if what Ms. Jungwirth is concerned about comes into being. 
And that is that there is just no infrastructure out there to 
do anything. So in a sense, you all because of your patience 
have given us a good way to wrap this up.
    And I am going to turn this over to Senator Kyl and let him 
ask anything else and to adjourn.
    Senator Kyl [presiding]. Thanks, Mr. Chairman.
    Just for the benefit of the staff that will remain, I will 
just have one question of Dr. Covington that goes directly to 
the point you just made, that very kind of community 
cooperative effort is being actually funded through some of the 
pilot project funding that we have established through both the 
Rocky Mountain region and also direct funding to the ecological 
institute that Dr. Covington chairs.
    Perhaps you could describe very briefly the people that are 
involved in the partnership and the things that they are 
looking into, including the micro-industries. Go ahead.
    Dr. Covington. Yes. The one that comes to mind, the biggest 
that we have going is the Greater Flagstaff Forest Partnership, 
and that is a collaboration of about 15 organizations that are 
working with the Forest Service and with State lands and with 
Northern Arizona University in a collaborative way to implement 
and test a variety of restoration treatments.
    And these include some of that followed diameter limits 
and--as well as the full restoration treatments and treatments 
in between there. And this is where some of the information 
came from that I was pointing out on these slides over here.
    So these, our basic approach, what--in working with Mount 
Trumble, the Bureau of Land Management, with the Grand Canyon 
National Park, the Kibab, the Apache State Lands and all the 
groups that we have worked with, including the Southwest Forest 
Alliance, is to, ``Let us go ahead and try these treatments and 
then monitor them and see which treatments are superior to 
which other treatments.''
    Although I did quite a bit of theoretical ecology in my 
youth, in my impetuous youth, and a lot of modeling, I rapidly 
discovered that really what you have to do with whole 
ecosystems is you have to experiment with whole ecosystems. You 
have to try things and see if they work, and yet do so in a 
scientifically rigorous way. And this is the essence of 
adaptive management.
    It recognizes that we will never know in theory whether a 
5-inch diameter cap or a 9-inch or an 18-inch or what, whether 
burning on a 3-year cycle or a 10-year cycle, or a 5-year cycle 
will do to the ecosystem until you actually try it on the 
ecosystem.
    So that is the Greater Flagstaff Forest Partnership, the 
Mount Trumble Restoration Project, all of the projects that we 
have been working on. We spend a lot of effort in carefully 
using the best science available to design the experiment, 
good, rigorous statistical framework for sampling and for 
analyzing those data, and then, of course, we submit those data 
to referee journals for scientific publication.
    But one thing that we do in the Ecological Restoration 
Institute that is often lacking is that we spend a lot of our 
resources in converting this information to a lot of people, 
which is kind of scientific mumble-jumble, into practical 
advice that can be used in designing and implementing 
restoration treatments.
    So that is the basic approach that we have taken at our 
institute. It is one that I know the Center for Biological 
Diversity is and has been working with folks down in the Gila 
National Forest area in the same way, trying to get rigorous 
data and then analyze those data and see what the consequences 
are, not just for fire behavior, but for comprehensive 
ecosystem health.
    Senator Kyl. I thank you. Do any of you have anything else 
you would like to say?
    [No response.]
    Senator Kyl. And I might say this, that while I am not 
authorized to say it, the record will be kept open. I am sure 
that traditionally we do keep the record open so that if you 
would like to submit statements, you are welcome to do that. 
And naturally, the committee will look forward to working with 
you as we continue to work on this problem, so you might expect 
to be communicated with by us in the future too.
    If not, I thank all of you for being here. And if there is 
nothing further, this hearing is adjourned.
    [Whereupon, at 5:38 p.m., the hearing was adjourned.]


</pre></body></html>
